<html>
<title> - PREPAREDNESS: PART I AND II</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                             PREPAREDNESS: 
                             PART I AND II 

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         OCTOBER 1 AND 27, 2009

                               __________

                           Serial No. 111-38

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

57-849 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     Henry Cuellar, Texas, Chairman
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Bill Pascrell, Jr., New Jersey       Michael T. McCaul, Texas
Emmanuel Cleaver, Missouri           Peter T. King, New York (ex 
Dina Titus, Nevada                       officio)
Vacancy
Bennie G. Thompson, Mississippi (ex 
    officio)
                 Michael Stroud, Acting Staff Director
                          Ryan Caldwell, Clerk
               Amanda Halpern, Minority Subcommittee Lead























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response:
  Oral Statement, October 1, 2009................................     1
  Oral Statement, October 27, 2009...............................    59
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response:
  Oral Statement, October 1, 2009................................     5
  Oral Statement, October 27, 2009...............................    65
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement, October 27, 2009...........................    66

                               WITNESSES
                       Thursday, October 1, 2009

Mr. Timothy W. Manning, Deputy Administrator, National 
  Preparedness, Federal Emergency Management Agency, Department 
  of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. William ``Bill'' O. Jenkins, Jr., Director, Homeland Security 
  and Justice, Government Accountability Office:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Ms. Wendy L. Smith, Assistant City Manager, McAllen, Texas:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28
Ms. Suzanne C. DeFrancis, Chief Public Affairs Officer, American 
  Red Cross:
  Oral Statement.................................................    29
  Prepared Statement.............................................    30

                       Tuesday, October 27, 2009

Mr. Timothy W. Manning, Deputy Administrator, National 
  Preparedness, Federal Emergency Management Agency, Department 
  of Homeland Security:
  Oral Statement.................................................    67
  Prepared Statement.............................................    69
Ms. Kathy B. Crandall, Director, Office of Homeland Security & 
  Justice Programs, Columbus Urban Area, Franklin County Board of 
  Commissioners, Franklin County, Ohio:
  Oral Statement.................................................    71
  Prepared Statement.............................................    72
Mr. David Maxwell, Director & Homeland Security Advisor, Arkansas 
  Department of Emergency Management:
  Oral Statement.................................................    76
  Prepared Statement.............................................    77

                             FOR THE RECORD

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response:
  Post, http://incaseofemergencyblog.com.........................     3
  Statement of the National Governors Association................    61
  Statement of the National Emergency Management Association.....    64
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response:
  Statement of Marc Pearl, President & CEO, Homeland Security and 
    Business Defense Council.....................................     6
  Letter to Administrator Fugate.................................    82
  Letter to Secretary Napolitano.................................    84

                               APPENDICES
                            October 1, 2009

Questions Submitted From Chairman Cuellar for Timothy W. Manning.    47
Questions Submitted From Chairman Cuellar for William ``Bill'' O. 
  Jenkins, Jr....................................................    55
Questions Submitted From Hon. Dina Titus for William ``Bill'' O. 
  Jenkins, Jr....................................................    57
Questions Submitted From Chairman Cuellar for Wendy L. Smith.....    58

                            October 27, 2009

Questions Submitted From Chairman Cuellar for Timothy W. Manning.   101
Questions Submitted From Chairman Cuellar for Kathy B. Crandall..   105


                          PREPAREDNESS: PART I
              STATE OF CITIZEN AND COMMUNITY PREPAREDNESS

                              ----------                              


                       Thursday, October 1, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
   Subcommittee on Emergency Communications, Preparedness, 
                                              and Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[Chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Thompson, Pascrell, 
Rogers, and Olson.
    Mr. Cuellar [presiding]. The Subcommittee on Emergency 
Communications, Preparedness, and Response will come to order. 
The subcommittee meeting today is to receive testimony 
regarding preparedness, the state of citizen and community 
preparedness.
    Good morning. On behalf of the Members of the subcommittee, 
let me welcome our four witnesses that we have here today.
    We are especially pleased to have with us for the first 
time FEMA's new deputy administrator for National preparedness, 
Tim Manning. Mr. Manning comes to FEMA with an impressive 
background in homeland security, having most recently served as 
New Mexico's director of homeland security and emergency 
management.
    I would like to congratulate you, Mr. Manning, on your 
confirmation as deputy administrator. This subcommittee looks 
forward to working with you to strengthen FEMA and prepare the 
Nation for any type of disaster.
    I would also like to extend a warm welcome to Mr. Bill 
Jenkins, director of homeland security and justice at the 
Government Accountability Office.
    Traveling the furthest, I guess, from my district, Ms. 
Wendy Smith, an assistant city manager for McAllen, Texas. 
Thank you, Ms. Smith, for taking this time to come to 
Washington to discuss the steps that the city of McAllen has 
taken to promote community preparedness.
    I would also like to welcome Ms. Suzanne DeFrancis, chief 
public affairs officer for the American Red Cross. Thank you 
for being here.
    Again, thank you to all the four witnesses that are here 
today.
    Today's hearing kicks off a series of hearings this 
subcommittee will conduct on National preparedness. Our focus 
this morning is on the state of the citizen community 
preparedness. We want to better understand FEMA's initiatives 
for promoting individual readiness.
    As you know, a recent FEMA survey reveals that we have a 
long way to go in preparing individuals for an emergency. While 
slightly more than half of the survey's respondents have set 
aside supplies in case of a disaster, only 44 percent reported 
having an emergency household plan. Just 38 percent reported a 
familiarity with their local resources of public safety 
information.
    Concerning to us, also, is that despite FEMA's best efforts 
to boost community preparedness since 9/11 and Hurricane 
Katrina, citizen awareness on the importance of preparing is 
virtually unchanged for the last 2 years. We must close these 
gaps.
    I recognize that it is not FEMA's job alone to do so. Other 
partners are involved, also, and emergency preparedness is a 
shared responsibility, and we all must do our part to make sure 
we are ready when disaster strikes. But FEMA must develop a 
clearer vision how it intends to enhance the role of public as 
the first line of disaster preparedness and response.
    FEMA runs a couple of programs that focuses on individual 
readiness. The first is the Citizen Corps program, which is a 
Bush administration initiative designed to foster volunteer 
activities that make communities better prepared to respond to 
any emergency.
    The second is the Ready Campaign. Ready is a public service 
initiative geared toward educating and empowering Americans to 
become prepared for a disaster. GAO has been evaluating both 
the Citizen Corps and Ready for this subcommittee since last 
year.
    We are concerned that GAO's preliminary review suggests 
that FEMA does not have a strategic plan or performance 
measure. As you know, this committee, the Ranking Member, 
myself, and other Members of the committee have pushed hard for 
strategic planning and, of course, for performance measures to 
make sure that we can tell, you know, what is a result, whether 
it is failure or success, and so we can get an idea as to what 
direction we are heading to.
    GAO has also been unable to determine who exactly at FEMA 
is in charge of the Ready campaign and how Ready is integrated 
into other citizens' preparedness programs.
    I am eager to learn from Mr. Manning if he agrees with the 
GAO's observation and, more importantly, what his plans are for 
the Citizen Corps and Ready, as well as individual preparedness 
more generally.
    We can't talk about individual preparedness without having 
our communities at the table. I look forward getting from Ms. 
Smith and Ms. DeFrancis a perspective on the steps that their 
organizations have taken to foster citizens' preparedness. I 
would also like to hear from them what they think FEMA's role 
should be in promoting individual preparedness and what that 
partnership should look like.
    So with that, let me again thank our witnesses for their 
participation in today's witnesses hearing. I look forward to 
hearing your testimony and working with you to ensure that FEMA 
has a clear vision for strengthening citizen and community 
preparedness of that.
    Without objection, I would like to introduce the following 
article, ``Ideas to Improve America's Emergency Preparedness 
for the Record,'' and it is so ordered.
    [The information follows:]
      Material Submitted for the Record by Chairman Henry Cuellar
Posted on http://incaseofemergencyblog.com
 on sept 11, some ideas to improve americans' emergency preparedness & 
                               engagement
                           september 11, 2009
    On the anniversary of 9/11, I wanted to repost some proposals to 
help raise citizen preparedness. DHS Secretary Napolitano has said that 
public readiness is a priority and the Department has begun the process 
of engaging Americans in their own homeland security. The ideas below 
come largely from discussions I have had with people involved in all 
aspects of the issue, my own experiences as a parent and CERT member in 
New York City, as well as from the input I have received from readers 
since the inception of my blog. As always, I welcome your thoughts and 
suggestions:
    Create Citizen Preparedness Task Force.--The lack of progress to 
date on public readiness and engagement underscores the need to develop 
new ways of approaching the issue. DHS Secretary Napolitano should 
create a Citizen Preparedness Outreach Task Force to assess the current 
state of public readiness and work on developing new approaches. At 
present, there is no clear social education analog. In fact, in its 
recent report, the Commission on the Prevention of Weapons of Mass 
Destruction Proliferation and Terrorism recommended the Administration 
make citizen engagement a priority. But Chairman Bob Graham told me 
that the ``WMD Commission'' did not did not [sic] find anything 
suitable it could recommend and that something new has to be developed.
    Better Define What It Means To Be ``Prepared''.--A recent American 
Red Cross survey indicated that 93% of Americans are not prepared for 
disasters. The truth is that no one can be fully prepared, but there is 
a need to offer the public a clearer definition--including a minimum 
level--of preparedness. That would not only include storing tangible 
supplies (ie. at least 3 days of food & water) but also knowledge about 
potential threats that every American should know. That doesn't mean 
overwhelming people with too much information, but making sure they are 
at least familiar with some basics. (For example, the first time 
citizens hear about a ``dirty bomb'' from government officials should 
not be in the moments after one has been exploded.)
    Support & Report on State/Local Preparedness Efforts.--Provide 
adequate seed money for State and local government to bolster civilian 
preparedness programs and link the grants to performance. Encourage 
authorities to report publicly on their level of citizen preparedness 
and create metrics for better measuring civilian readiness. Find 
interested governors to take on leadership roles and create pilot 
models in their States. Expand support of disaster volunteer 
opportunities including Community Emergency Response Teams (CERT) and 
other community programs, which serve as catalysts for organizing local 
efforts. There is a need to employ both ``bottom/up'' and ``top/down'' 
approaches to disaster preparedness combining State, local, and 
community leadership and citizen involvement with Federal commitment 
and focus. Ensure that Government authorities can competently respond 
to disasters but also more strongly emphasize the need for the public 
and local communities to be prepared and self-reliant, particularly in 
the first 72 hours after a disaster.
    Highlight & Spread Models From Around United States & Other 
Countries.--There is a need to help promote and implement best 
practices from communities around the U.S. and draw, where applicable, 
from British and Israeli experiences. One model may be the United 
Kingdom's National Risk Register, which sets out publicly the 
government's assessment of the likelihood and potential impact of a 
range of different public health, natural, and terrorist risks. It is 
designed to increase awareness of the kinds of risks the U.K. faces, 
and encourage individuals and organizations to think about their own 
preparedness. The Register also includes details of what the Government 
and first responders are doing to prepare for those emergencies and the 
role of citizens in those plans.
    Offer Small Carrots.--Encourage States to create tax-free periods 
for consumers to purchase preparedness supplies. Provide a tax write-
off for citizens to buy preparedness-related products as a way to 
promote participation and to signal governmental commitment. Also, 
consider targeting assistance to citizens who cannot afford to prepare. 
The bottom line is that in most instances to change social behavior 
there needs to be some incentives involved.
    Bring in Business to Help Market Preparedness.--Design and roll out 
a full service preparedness marketing campaign with help from the 
private sector. Galvanize business to take on disaster preparedness in 
the same way they have with disaster response, most notably in the 
aftermath of Hurricane Katrina (i.e. big box stores, packaged goods 
manufacturers, bottled water companies, wireless industry). In 
addition, work with private sector to alleviate existing obstacles to 
personal preparedness (i.e. work with health care industry to allow for 
extra prescription medicine in advance of a disaster.)
    Involve the Children.--Put more emphasis on educating young people 
on preparedness by piggybacking on other related school-based social 
education efforts, most prominently fire safety. The challenge is both 
the decentralization of the Nation's education system and the already 
high cirricula demands on teachers. Yet, an effective fire education 
program was implemented in the schools beginning in the 1970's, and 
there would seem to be a perfect fit to integrate a preparedness module 
into that existing program. The Federal Government should work with 
State and local officials as well as fire and education officials to 
determine how best to accomplish that objective.
    Embrace and Accelerate Preparedness 2.0--There is a need to better 
inform the public on the potential on 21st century personal technology 
to prepare for and respond to 21st century emergencies. We must make 
Americans more aware of the capabilities of the technology at their 
fingertips (i.e. wireless devices, social networking sites) and 
integrate it into disaster planning and response. The public's new 
ability to access and distribute information offers both an opportunity 
and a challenge to government authorities. As a start, every 
governmental preparedness web site should add a cell phone and an extra 
battery (or other power source) to the basic components of their 
recommended disaster supply kit. Many private companies are working on 
applications for citizen emergency communications. Those business 
efforts need to be integrated with official alerts (i.e. the new 
iteration of the Emergency Alert System) and unofficial citizen-based 
social media (as well as the news media). Both the content and 
distribution channels of emergency communications are changing and new 
models need to be developed.
    ``See And Say'' Some More.--Build Upon The Initial Success of ``Say 
Something, See Something''-type citizen information campaigns by 
providing the public with more specific guidance on how to assist law 
enforcement and, without giving away sources and methods, offering more 
feedback on the information they have provided. Law enforcement 
officials are concerned about societal complacency almost 8 years since 
9/11, but have not determined how to communicate to the public a more 
candid--yet calm and balanced--picture of the threat and how they can 
best help.
    Expanded Emergency Drilling Opportunities to Public.--Increase 
opportunities for citizens to participate in disaster drills, which 
would help people focus on the issue and work through the key questions 
everyone should ask before a disaster (i.e. How will you get 
information and communicate with your family? Do you know the emergency 
plan of your children's school?) Most every top homeland security/
emergency management official I have interviewed has told me that 
broader public disaster exercises would be helpful in a number of ways, 
but there has not been a concerted effort to expand drilling 
opportunities to the public.
    Establish an Official Preparedness Day.--Create a National 
Preparedness Day to focus public attention before disasters, including 
briefing citizens, conducting drills, and filling emergency kits. A 
helpful model is Japan's Disaster Prevention Day held on the 
anniversary of the catastrophic 1923 Tokyo earthquake.
    Create Citizen Preparedness Office/Spokesperson.--Consider 
establishing a National citizen preparedness office or a high profile 
spokesperson to highlight and help coordinate efforts around the U.S. 
and ensure citizen preparedness remains a priority. Work with American 
Red Cross to create an effective advocate for the general public on 
emergency preparedness in the same way disabled and pet groups have 
done for the disaster needs of their communities over the past several 
years.
    Bundle Citizen Preparedness Proposals Together into ``Citizen 
Preparedness Initiative''.--For too long, well meaning public 
preparedness efforts have gotton lost or have been ignored by the 
public. That's in large part that they have not been packaged and 
presented as being specifically directed to citizens. But if the 
government would assemble these small disparate proposals listed above 
into an overall citizen preparedness package it would have a better 
chance of getting attention and gaining some traction. Ultimately, 
making inroads on citizen preparedness is less a matter of money than 
it is of focus and attention.

    Mr. Cuellar. At this time, I would like to recognize my 
Ranking Member, hard-working Member of the subcommittee, Mr. 
Rogers, for an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman, for holding this 
hearing.
    To each of the witnesses, I really appreciate you making 
the time and putting the effort into preparing for this 
hearing. It is extremely helpful to us, so thank you for being 
here.
    This hearing, as the Chairman said, is being held to look 
at how prepared Americans are to deal with a major disaster. We 
all know that individual preparedness, community preparedness, 
and business preparedness are extremely important in saving 
lives and property if and when a natural disaster or terrorist 
attack occurs.
    We made some important strides over the last several years 
to enhance community preparedness, but more work remains. 
According to the 2009 National preparedness survey, many 
individuals still don't have disaster supply kits or know their 
community's evacuation plans.
    Further, the latest terrorist plots that were foiled in 
recent weeks, the tsunami that hit American Samoa this week, as 
well as the flash flooding in many Southern States, including 
Georgia and my home State of Alabama are just some reminders of 
the on-going risks we face and the importance of being prepared 
for all types of events.
    Fortunately, we have not seen a major hurricane hit the 
United States yet this season, but that doesn't mean Americans 
living on the gulf and other regions can become complacent. 
When it comes to emergency preparedness or emergency readiness, 
America's first responders are our front lines to protect our 
communities. I want to take this opportunity to thank first 
responders for their heroic work that they do and also thank 
the countless people who volunteer to help during a 
catastrophic event.
    We all appreciate the dedicated service of our capable and 
courageous emergency responders, but we have to remember that 
these responders make up less than 1 percent of the total U.S. 
population. That means individual citizens, communities, and 
businesses have to develop their own capabilities and conduct 
their own planning activities in order to share the 
responsibility of preparedness.
    Again, I want to thank our witnesses for being here, 
particularly the American Red Cross, who continues to be an 
invaluable partner in preparedness through its many outreach 
activities and preparedness initiatives.
    Also, I would like to ask unanimous consent, Mr. Chairman, 
to insert into the record a statement from the Homeland 
Security and Defense Business Council which highlights the 
important role of businesses in disaster preparedness.
    With that, I yield back.
    Mr. Cuellar. Without objection.
    [The information follows:]
Statement of Marc Pearl, President & CEO, Homeland Security and Defense 
                            Business Council
                            october 1, 2009
    Chairman Cuellar, Ranking Member Rogers, and all of the Members of 
the subcommittee, I thank you for the opportunity to submit this 
statement for the record on behalf of the Homeland Security & Defense 
Business Council regarding our initiatives and mission to develop a 
``culture of preparedness'' among business leaders.
    The Homeland Security & Defense Business Council is a non-profit, 
non-partisan organization of world-class businesses engaged in homeland 
security solutions development and implementation with the U.S. 
Department of Homeland Security; other Federal agencies; State, local, 
and Tribal governments, as well as on a global scale. Since its 
inception in 2004, the Council has focused a great deal of attention on 
working to develop a better understanding of the private sector's role 
and responsibility as the ``3rd leg of the stool'' in preparedness--
those legs being the Government, non-governmental organizations, and 
the private sector. Only if each ``leg'' is holding up its 
responsibilities will we achieve true preparedness and be in a much 
stronger position to protect our facilities, networks, and people. As 
the private sector's leading voice in homeland security, the Council 
facilitates, educates, and stimulates business leaders and their 
organizations to actively engage in preparedness with their employees 
and customers, and for their facilities and networks by leveraging the 
private sector's resources, experience, and leadership through best 
practices, peer-to-peer exchange, and mentoring within the business 
community.
    Since 2007, in partnership with the American Red Cross of the 
National Capital Area, the Council has annually hosted the ``Partners 
in Preparedness Symposium'' during National Preparedness Month to help 
educate and encourage small, medium, and large businesses to embrace 
emergency preparedness and prepare their companies for all hazards. The 
Homeland Security & Defense Business Council's members have served as 
mentors and role models for other businesses that do not necessarily 
have the financial or personnel resources available to them for 
complicated, extensive business continuity planning. Additionally, this 
year, as a way to encourage even higher-level corporate involvement, 
the Council launched the ``CEO Summit at Partners in Preparedness.'' In 
cooperation with the Young President's Organization of the DC/Baltimore 
Chapter, the Greater Washington Board of Trade and the D.C. Chamber of 
Commerce, CEOs, and presidents from the region gathered for an 
executive training to consider both an H1N1 flu resurgence and a 
concurrent cyber incident. This dual program has been met with such 
enthusiasm and support that we are working to take it ``beyond the 
Beltway.'' Other major metropolitan areas around the country; smaller 
suburban communities, such as those outside of San Antonio, and, just 
as essentially, rural communities such as Talladega, Alabama must be 
encouraged to incorporate this type of program for their businesses. 
There is no question that there also can be a ``ripple effect'' whereby 
businesses that actively engage in a preparedness program will have a 
great influence on their employees, their relatives, and the 
organization's customers--further building the relationships, 
understanding and cooperation necessary for a resilient Nation from the 
ground up with top-level business owners' support.
    Additionally, each attendee at this year's Preparedness Symposium 
was provided an ``Emergency Response Toolkit'' with practical and 
tactical information on how to get their organization prepared. In 
addition to a complete overview, the Toolkit provided two important 
components developed in cooperation with the Council towards business 
preparedness that we believe can be easily incorporated in any 
organization--small, medium, and large: Operation CAPA (Commit, Assess, 
Prepare and Act) and a Cyber Security Checklist. I have attached 
detailed information on both of these programs to my statement. It is 
our hope that businesses will commit to either these or other 
initiatives--such as the soon-to-be-launched American Red Cross 
ReadyRating.com program.
    The Homeland Security & Defense Business Council very much 
appreciates the subcommittee allowing us an opportunity to submit our 
comments. But most of all, we applaud you for holding this hearing and 
for putting a major spotlight on this important issue. Preparedness 
cannot be motivated by a sign in front of a store or an ad in the 
media, but only when our business, community, first responder, and 
Government leaders take an active role--together--in committing the 
time, energy, and resources needed to assuring that all the ``legs'' 
are coordinating efforts, are fully aware of and fulfilling their 
individual and collective roles and responsibilities. We stand ready to 
work with Government and NGOs--serving as a conduit to the business 
community--to help assure that our Nation is resilient to any form of 
catastrophe, and begins to truly and effectively achieve an overall 
``Culture of Preparedness'' in our Nation.
                               ATTACHMENT
                             Operation CAPA
    The mission of ``Operation CAPA: Commit, Assess, Prepare, Act'' is 
particularly designed to help small-medium businesses enhance their 
state of preparedness and lead them toward resiliency. The objective of 
this effort is to partner with target businesses to commit, assess, 
plan, and act to prepare their company, employees, and communities for 
all hazards. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Operation CAPA urges business to:
  <bullet> Commit.--Leaders and employees must commit to getting their 
        business better prepared. It requires a sustained effort and 
        constant reinforcement of leadership commitment. There is 
        plenty of free information available on the internet to help 
        guide the business executive and his/her team from the 
        development through the implementation of a plan, no matter how 
        big or small. DHS has also established an excellent site to aid 
        businesses at www.ready.gov, and the Small Business 
        Administration has a disaster preparedness web site that 
        provides a substantial amount of information at: www.sba.gov/
        services/disasterassistance/disasterpreparedness/index.html.
  <bullet> Assess.--Understanding the threats, vulnerabilities, and 
        impact to one's business will help focus resources on planning 
        for and responding to both foreseeable and unforeseeable 
        events. Many organizations are unaware of the multitude of 
        threats and risks in their businesses and community. They may 
        know about the natural threats (e.g., severe weather, 
        earthquakes, volcanoes, etc.), but don't often know about their 
        neighbors, for example, whether the business next door has 
        hazardous/explosive chemicals, or the single power substation 
        that is reaching capacity and will soon be causing power 
        disruptions. Business leaders can work with their local fire 
        department and emergency manager to understand the risks they 
        may face. It's beneficial, if not absolutely essential, to both 
        sides to meet ahead of time to get the appropriate data that 
        will help you develop a workable plan.
  <bullet> Plan.--Keep it simple and ``user friendly.'' In larger 
        companies, planning is usually a separate component with a 
        substantial amount of effort involved; however, for the 
        simplified Operation CAPA methodology, the planning element 
        should include documenting the organization's response and 
        recovery plan and working with the community to understand the 
        expectations about how other business are preparing. The 
        business may find areas where there is a competition for 
        resources, or where there are opportunities to collaborate and 
        provide mutual aid. For example, the readiness quotient at 
        www.whatsyourrq.org is a free assessment that highlights areas 
        that are often overlooked, and can be an excellent first step 
        on the path to preparedness. Checklists and sample plans are 
        also available at www.ready.gov.
  <bullet> Act.--Business survival depends on an organization's ability 
        to act--to be able to absorb the hit (resilience); and keep 
        operating at least at minimal levels while normal operations 
        are restored. Commitment alone will not get a business 
        prepared--it also requires action. Businesses should start by 
        taking their readiness quotient assessment and going to 
        www.ready.gov to get free checklists, sample plans and 
        templates. Then, they must reach out to their local first 
        responder community in government and at organizations like the 
        American Red Cross, as well as other businesses in the 
        community to develop partnerships that will make their 
        facility, their employees, their families, their neighbors, and 
        the overarching community better prepared.
                 cyber security questions for managers
    The Homeland Security & Defense Business Council has developed in 
cooperation with Scott Borg, Director and Chief Economist of the U.S. 
Cyberconsequences Unit, a ``Cyber Security Checklist.'' It is a broad 
outline of questions business entities must ask themselves in the event 
of an attack to protect their internal systems, their customer 
information, and their IT infrastructure. The questions are broad, and 
refer companies back to the U.S. Cyberconsequences Unit's more 
comprehensive look at the components of cyber infrastructure.
    This series of questions was developed specifically for the 
Partners in Preparedness Toolkit as a guide for senior managers to 
assess their cyber vulnerabilities. The Council has found that although 
most preparedness guides are awash in information for a ``structural 
attack'' or an event with ``structural damage,'' such as an explosion, 
a flood, or fire, there was a dearth of practical information included 
to consider in a cyber attack--whether initiated by terrorist 
organizations or criminals. Our Checklist provides a ``step one'' 
approach for small to medium companies and refers them to a more 
comprehensive checklist available from the U.S. Cyberconsequences Unit 
at http://www.usccu.us/documents/US-CCU 
Security20Check%20List%202007.pdf that provides guidance for an in-
depth assessment of numerous categories of information systems 
components such as: Hardware, software, networks, automation, humans, 
and suppliers. The extent of each individual assessment depends on the 
company's dependence on its cyber resources to operate.
  Questions Senior Managers Should Ask in the Event of a Significant 
                              Cyber Attack
 scott borg, director and chief economist, u.s. cyber consequences unit
Developed for the Partners in Preparedness Toolkit
    This is provided as a guide for senior managers to assess their 
cyber vulnerabilities. The comprehensive checklist provides guidance 
for an in-depth assessment of numerous categories of information 
systems components such as: Hardware, software, networks, automation, 
humans, and suppliers. The extent of each individual assessment will 
depend on the company's dependence on its cyber resources to operate.
    I. What is the current status of the attack?
    (1) Which of our systems have been affected?
    (2) Are any personnel or equipment in physical jeopardy?
    (3) To what extent has the malware been identified and quarantined 
        or contained?
    (4) Is the active part of the attack on-going, or is it apparently 
        over?
    (5) Should we be shutting down certain of our operations to avoid 
        further damage?
    (6) What are the level of skill and apparent intentions of the 
        attackers?
    (7) How confident are we that the reports on our screens and in our 
        e-mail are not being spoofed?
    (8) What other cyber attack might be used as a follow-on from the 
        first, to make things worse or to exploit our state of 
        disarray?
    II. What are the business effects of the attack?
    (1) What activities of our organization, if any, were interrupted?
      What else depended on those activities?
    (2) What activities, if any, were corrupted, so that the 
        organization was producing defective outputs or delivering 
        products or information to the wrong people?
      What customers or other third parties are likely to have been 
            damaged by this activity?
    (3) What operations, if any, were discredited, so that people will 
        be reluctant or unwilling to make use of them?
      What has been the probable damage, so far, to our reputation and 
            customer relationships?
    (4) What activities of our organization, if any, have been 
        seriously undermined, because the confidentiality or 
        exclusivity of information necessary to carry them out has been 
        lost?
      What operations will need to be shut down for an extended period?
    III. What sort of notifications about the possible effects of the 
cyber attacks need to be provided to those outside the organization?
    (1) Who outside the organization is significantly affected?
    (2) What statements and information in the notifications would do 
        the most to convince skeptical outsiders that the organization 
        still deserves their trust?
    (3) What is the fastest way to communicate the notifications that 
        will gain proper attention, but not cause misunderstandings or 
        panic?
    IV. What is the next best alternative for each of the activities 
that can no longer be carried out normally?
    (1) What measures are necessary to assure the continuing 
        coordination of responses to the crisis?
    (2) What steps are necessary to get alternative activities into 
        operation?
    (3) What is the plan for transitioning from the alternative 
        operations back to normal ones?
    (4) What special financial arrangements might be necessary to 
        assure continuity of operations?

    Mr. Cuellar. Thank you very much. Other Members of the 
subcommittee are reminded that, under the committee rules, 
opening statements may be submitted for the record.
    At this time, again, I would like to welcome our panel of 
witnesses. Our first witness is Mr. Tim Manning, who serves as 
the Deputy Administrator for National Preparedness at the 
Federal Emergency Management Agency.
    As I said a few minutes ago, we also have Mr. Bill Jenkins, 
and, of course, Wendy Smith, and Suzanne DeFrancis. I want to 
welcome all of you again here and thank you for your testimony.
    Without objection, the witnesses' full statements will be 
inserted in the record. I will now ask Mr. Manning to summarize 
his statement for 5 minutes.

            STATEMENT OF TIMOTHY W. MANNING, DEPUTY 
    ADMINISTRATOR, NATIONAL PREPAREDNESS, FEDERAL EMERGENCY 
       MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Manning. Thank you, Mr. Chairman.
    Chairman Cuellar, Ranking Member Rogers, distinguished 
Members of the subcommittee, good morning. Thank you for 
allowing me to be here this morning. I am Tim Manning, Deputy 
Administrator for National Preparedness at the Federal 
Emergency Management Agency.
    Before I begin my remarks on community preparedness, if I 
may, I would like to mention that, on behalf of FEMA and the 
entire emergency management community, our hearts go out to all 
of those affected by the tsunami and earthquakes in the 
Pacific, as well as the flooding in the American South.
    Our National response coordination center has been 
activated since the first earthquake 2 days ago, and we will 
continue to move teams, equipment, and supplies into the 
affected area, and we have been updating you all as the event 
has gone on, and we will continue to do so until we have 
completed rescue and recovery efforts.
    Mr. Chairman, throughout the history of emergency 
management planning, considerations for the individual and 
community preparedness have been inadequate. Since September 
11, 2001, and the creation of the Department of Homeland 
Security, the United States has invested tens of billions of 
dollars in bolstering Government's preparedness, while paying 
comparatively little attention to the personal and community 
preparedness.
    Secretary Napolitano, Administrator Fugate and I believe 
that much more attention needs to be paid to these efforts. We 
know and have seen that personal, family, and community 
preparedness can have tremendous impact in mitigating the 
effects of an emergency. Simple steps taken by individuals to 
provide for the needs of their families and their neighbors in 
an emergency can dramatically improve the readiness and 
resiliency of the American people in the face of a disaster.
    Encouraging as many Americans as possible to take steps 
necessary to ensure their own well-being will ultimately free 
Government resources to address those most in need during a 
crisis. In order to advance this simple goal, we must both 
engage with the public directly and collaborate with civil 
leaders at the local level to promote local efforts to increase 
personal preparedness.
    As a former community organizer with deep belief in the 
power of active citizenship, President Obama has made it clear 
that transparent and collaborative government, grassroots 
activism, and volunteer and community service are key 
priorities for his administration. The leadership at FEMA and 
DHS is equally committed to increasing our collaboration with 
State and local governments, NGOs, and the private sector.
    Under President Obama and Secretary Napolitano's 
leadership, we are reaching out to an unprecedented range of 
new DHS stakeholders to bolster our Nation's community 
preparedness and resilience.
    As Secretary Napolitano said before the Council on Foreign 
Relations in July, for too long we have treated the public as a 
liability to be protected rather than an asset in our Nation's 
collective security. We need a culture of collective 
responsibility, a culture where every individual understands 
his or her role.
    The foundation of the current efforts towards community 
preparedness and resilience is the cultivation of an effort and 
an effective organizational structure and a process at the 
local level to foster this collaboration between Government and 
civil leaders from all sectors, and then leverage this 
structure to reach everyone in a community.
    While we believe a whole-of-agency effort is required, the 
Citizen Corps program has been one of the Department's key 
efforts towards this end. Building on historic approaches to 
citizen preparedness, our strategy moving forward will be based 
on the following tenets: Government must collaborate with civic 
leaders. Local implementation is essential. National support 
must both include consistent policy and guidance and the tools 
and resources adaptable for local use.
    To achieve these goals, FEMA works with State and local 
partners to establish effective partnerships at the local 
level. This is to foster a collaborative process between local 
government and civic leaders from all sectors and develop goals 
and strategies for resilience tailored to specific community 
vulnerabilities.
    FEMA will continue to work with these community leaders and 
support their efforts to increase individual and community 
preparedness and resilience. To assist in getting the message 
out, Ready is FEMA's National awareness campaign and, in 
partnership with the Ad Council, designed to educate and 
empower Americans to prepare for and respond to all 
emergencies. The goal of the campaign is to get the public 
involved and ultimately to increase the level of basic 
preparedness across the Nation.
    Ready--and its Spanish-language version, Listo--ask 
individuals to take simple steps, such as getting a supply kit, 
making a family plan, and obtaining information about the 
different types of emergencies that could occur in their 
particular community.
    The Ad Council has declared Ready one of the most 
successful campaigns in its more than 60-year history. Ready 
Business is an extension for the private sector, and the Ready 
campaign that focuses on children, Ready Kids, functions as an 
effective tool to help parents and teachers educate children of 
all ages.
    Mr. Chairman, Ranking Member Rogers, in conclusion, 
Secretary Napolitano and FEMA Administrator Fugate and I are 
committed to advancing the Nation's preparedness. Through 
working current National partners and expanding our 
partnerships and enhancing tools and resources available to 
local communities, enhancing education, training, and exercises 
for the public, promoting volunteer service opportunities, 
identifying ways to assess and quantify our progress, working 
with the FEMA regions, and supporting open, honest and 
forthcoming communications with community leaders and the 
public, we feel we can advance these goals.
    Communicating the importance of personal and community 
preparedness is a cornerstone of our strategy moving forward. 
With the continued support of Congress, we believe that 
considerable progress is within reach.
    Mr. Chairman, thank you for the opportunity to testify this 
morning. I look forward to your questions.
    [The statement of Mr. Manning follows:]
                Prepared Statement of Timothy W. Manning
                            October 1, 2009
                              introduction
    Chairman Cuellar, Ranking Member Rogers and other distinguished 
Members of the subcommittee, I am Timothy Manning and I serve as Deputy 
Administrator for National Preparedness of the Federal Emergency 
Management Agency (FEMA). It is a privilege to appear before you today 
on behalf of FEMA and the Department of Homeland Security (DHS). We 
appreciate your interest in and continued support for emergency 
management and, in particular, for the critical importance of personal 
and community preparedness.
    Throughout the history of emergency management planning, 
considerations for individual and community preparedness have been 
inadequate. From the 1930s, when disaster response was ad hoc and 
largely focused on the repair of damaged infrastructure, through the 
present day, the importance of individual and community preparedness 
has often been given insufficient consideration. In fact, since 
September 11, 2001 and the creation of the Department of Homeland 
Security, the United States has invested tens of billions of dollars in 
bolstering Government's preparedness, while paying comparatively little 
attention to personal and community preparedness.
    Yet we know--and have--seen that personal, family, and community 
preparedness can have a tremendous impact in mitigating the effects of 
an emergency. Just as all politics are local, as former Speaker of the 
House Tip O'Neill said, all disasters are local--they impact 
individuals, families, and communities. Simple steps taken by 
individuals to provide for the needs of their families and their 
neighbors in an emergency can dramatically improve the readiness and 
resiliency of the American people in the face of a disaster. 
Encouraging as many Americans as possible to take the steps necessary 
to ensure their own well being will ultimately free Government 
resources to address those most in need during a crisis.
    In order to advance this simple goal, we must engage and 
collaborate with civic leaders at the local level to promote local 
efforts to increase personal preparedness. As a former community 
organizer with a deep belief in the power of active citizenship, 
President Obama has made it clear that transparent and collaborative 
government, grassroots activism, and volunteer and community service 
are key priorities for his administration. The leadership at FEMA and 
DHS is equally committed to increasing our collaboration with State and 
local governments, NGOs, and the private sector, and under President 
Obama and Secretary Napolitano's leadership, we are reaching out to an 
unprecedented range of new DHS stakeholders to bolster our Nation's 
community preparedness and resilience.
    While we will ensure that Federal assets and resources are in a 
state of constant readiness and that FEMA is prepared to serve as an 
effective coordinator during a Presidentially-declared emergency or 
disaster, FEMA will approach community preparedness from the bottom up 
and ensure that Federal-level policies, guidance, tools, and resources 
support and facilitate local implementation. Preparedness is achieved 
and maintained through a continuous cycle of planning, organizing, 
training, equipping, exercising, evaluating, and taking corrective 
action. This is true for an individual, a family, an organization, a 
community, and the Nation. FEMA will engage the public and community 
leaders more fully in all stages of the preparedness cycle to 
strengthen our National readiness and resilience.
    Finally, I would like to highlight both Secretary Napolitano's and 
Administrator Fugate's repeated emphasis on the importance of personal 
and community preparedness.
    As Secretary Napolitano said before the Council of Foreign 
Relations in July, ``For too long we've treated the public as a 
liability to be protected rather than an asset in our Nation's 
collective security . . . We need a culture of collective 
responsibility, a culture where every individual understands his or her 
role.''
    Our Department's senior leadership is actively engaged in raising 
public awareness on this critical issue, and we will continue to drive 
this message to even more Americans in meetings, speeches and 
interviews across the country.
                          community engagement
    Effective emergency management and emergency response requires that 
community leaders participate in developing community emergency 
response plans, conduct localized outreach and education to the public, 
promote training, participate in exercises, encourage volunteerism, and 
of course, should the worst happen, form an integral part of the 
response. The foundation of the current National strategy on community 
preparedness and resilience is to cultivate an effective organizational 
structure and process at the local level to foster this collaboration 
between Government and civic leaders from all sectors, and then 
leverage this structure to reach everyone in the community. Citizen 
Corps has been one of the Department's key efforts toward this end.
    Building on historic approaches to citizen preparedness, our 
strategy moving forward will be based on the following tenets: 
Government must collaborate with civic leaders, local implementation is 
essential, and National support must include both consistent policy and 
guidance and tools and resources adaptable for local use.
    To achieve these goals, FEMA works with State and local partners to 
establish effective partnerships at the local level. This is to foster 
a collaborative process between local government and civic leaders from 
all sectors and develop goals and strategies for resilience tailored to 
specific community vulnerabilities. FEMA will continue to work with 
these community leaders and support their efforts to increase 
individual and community preparedness and resilience.
    The Community Emergency Response Team (CERT) Program is an 
exceptionally well-tested and successful citizen training and volunteer 
program. CERT builds on the commonsense acknowledgment that community 
members are the first to respond to assist others who need help during 
emergencies. Having grown from 244 local programs in 2002 to 3,221 
today, an estimated 600,000 individuals have taken the CERT basic 
training. The success of CERT is rooted in the program's clarity of 
training, hands-on practical delivery, and connection to local 
emergency services, most commonly emergency management and the fire 
service. Building on the successful basic training, there are several 
additional training materials in development including Animal Response, 
CERT Emergency Communications, Traffic and Crowd Management, and CERT 
Team Leadership.
    Within the National Preparedness Directorate, I have directed my 
staff to develop a more comprehensive approach to local empowerment and 
to be mindful of the importance of more inclusive non-governmental 
participation. Whether we are working on Comprehensive Planning Guides 
for local use, providing technical assistance and funding for 
catastrophic planning, developing National level exercises, utilizing 
the National Incident Management System, or increasing private sector 
preparedness through the Private Sector Prep Program, we must 
recalibrate our focus to better include and engage all sectors of the 
community.
    Under the direction of Administrator Fugate, work across the agency 
also has been redirected to adapt emergency management practices to the 
special needs of particular populations in local communities. The 
Administrator has established an internal Children's Working Group to 
ensure that all aspects of FEMA's planning and operations address the 
needs of children. The Working Group will also work closely with the 
National Commission on Children and Disasters to collaborate with 
leaders in the field and re-calibrate plans and protocols to ensure 
adequate considerations for the needs of children. Similarly, 
Administrator Fugate has appointed a Disabilities Coordinator to 
examine policies and guidance surrounding appropriate considerations 
for these critical stakeholders and partners.
    Last, the Grants Programs Directorate supports community 
preparedness through the Homeland Security Grant Program, and we are 
encouraging States and urban areas to use this funding to ensure not 
only that Government responders are adequately equipped and trained, 
but also to focus on community preparedness and greater participation 
from non-governmental sectors.
                        research-based approach
    Our renewed emphasis on civic responsibility and community 
engagement will be research-based, flexible, and adaptive. In August 
2009, FEMA released a major study (available at www.citizencorps.gov) 
on Personal Preparedness in America, a National study of over 3,000 
households. Results from this study may have important implications for 
the development of more effective communication and outreach strategies 
to achieve greater levels of preparedness and participation.
    In addition to this primary research, FEMA also reviews and 
analyzes other party research on personal, business, school, and 
community preparedness; this database currently includes over 100 
surveys conducted since September 11, 2001. We also publish Citizen 
Preparedness Reviews to assimilate current preparedness research and 
modeling, including a Personal Behavior Change Model, which provides a 
theoretical basis for evaluating the motivations for and barriers to 
personal preparedness. Having been tested through the household survey 
and focus groups, this model is being revised and will assist in 
developing effective social marketing tools for personal preparedness. 
Working through the Target Capabilities process and with our colleagues 
in the DHS Science and Technology Directorate, we also facilitate the 
connection between researchers and practitioners through working groups 
and roundtable meetings to ensure research is applicable and useful at 
the local level.
                      building national awareness
    Ready is FEMA's National public service campaign, in partnership 
with the Ad Council, designed to educate and empower Americans to 
prepare for and respond to all emergencies, including natural disasters 
and potential terrorist attacks. The goal of the campaign is to get the 
public involved and ultimately to increase the level of basic 
preparedness across the Nation.
    Ready and its Spanish language version, Listo, ask individuals to 
take simple steps such as getting an emergency supply kit, making a 
family emergency plan, obtaining information about the different types 
of emergencies that could occur and the appropriate responses to each 
one, and getting involved in community efforts that promote neighbor-
to-neighbor preparedness.
    The Ad Council has declared Ready one of the most successful 
campaigns in its more than 60-year history. Since its launch, the 
campaign has generated more than $775.9 million in donated media 
support. As of Sept. 1, 2009, www.ready.gov has received 33 million 
unique visitors; the toll-free numbers have received more than 390,000 
calls; and more than 39.6 million Ready materials have been requested 
or downloaded from the Web site.
    Ready Business is an extension of the Ready Campaign that focuses 
on business preparedness, helping owners and managers of small- to 
medium-sized businesses prepare their employees, operations, and assets 
in the event of an emergency. The campaign's messages are being 
delivered through www.ready.gov, brochures, radio, print, and internet 
public service advertisements and key partnerships.
    Ready Kids is a tool to help parents and teachers educate children 
ages 8-12 about emergencies and how they can help get their families 
prepared. The program includes: A family-friendly website 
(www.ready.gov/kids); in-school materials developed by Scholastic Inc.; 
Ready Classroom, an on-line educational curriculum program developed in 
partnership with Discovery Education; as well as a multimedia toolkit 
targeted to pre-school-aged children and their families developed in 
partnership with Sesame Workshop.
    DHS/FEMA has also developed tailored preparedness information for 
specific Americans. DHS/FEMA, American Kennel Club, American Society 
for the Prevention of Cruelty to Animals, American Veterinary Medical 
Association, and The Humane Society of the United States have jointly 
created materials (available at www.Ready.gov) that highlight the key 
steps pet owners should take to prepare themselves and their animals. 
DHS/FEMA, AARP, the American Red Cross, the National Organization on 
Disability and the National Fire Protection Association also have 
created emergency information for seniors and Americans with 
disabilities and special needs. Materials developed for these specific 
Americans include brochures and instructional videos available at 
www.ready.gov.
    DHS/FEMA also highlights public emergency preparedness through 
National Preparedness Month (NPM), a Nation-wide effort held each 
September to encourage Americans to take simple steps to prepare for 
emergencies in their homes, businesses, and schools. In 2009, the Ready 
Campaign is being joined by more than 2,400 NPM Coalition Members to 
educate individuals, families, and communities on the importance of 
emergency preparedness. This year, the Ready Campaign is helping 
Americans understand that preparedness goes beyond fire alarms, smoke 
detectors, dead-bolt locks, and extra food in the pantry, seeking to 
change perceptions about emergency preparedness and help Americans 
understand what it truly means to be ``Ready.''
             national conference on community preparedness
    In August, FEMA hosted the four-day National Conference on 
Community Preparedness: The Power of Citizen Corps. Participants 
included 750 National partners, State and local emergency management, 
fire and law enforcement, public health and emergency medical services, 
academics, advocacy groups, voluntary organizations, and members of the 
public, bringing together a uniquely diverse group of community 
preparedness activists. Participants represented all 50 States, U.S. 
territories, and Tribes. Leadership from DHS and FEMA addressed the 
conference to underscore the importance of local activism and 
implementation to achieve community resilience and to renew support for 
local Citizen Corps Councils and Programs.
    With nearly 100 presentations and workshops, the conference 
provided participants innovative approaches to all facets of community 
preparedness and resilience, including information on collaborative 
planning, youth engagement, preparedness for individuals with 
functional needs, pets and animal issues, and preparedness in economic 
hard times. Presenters included the seminal Citizen Corps programs: 
CERT; Fire Corps; Neighborhood Watch Program (NWP) Program; Medical 
Reserve Corps (MRC) Program and Volunteers in Police Service (VIPS); 
and the National Emergency Technology (NET) Guard pilot program. In 
addition, numerous Citizen Corps Affiliates participated: Meals on 
Wheels, E 9-1-1 Institute, Home Safety Council, American Association of 
Community Colleges; State and local practitioners and elected leaders; 
and experts from the fields of public health, disabilities, children's 
issues, and rural development.
    During the conference, FEMA released the research report, 
``Personal Preparedness in America: Findings from the 2009 Citizen 
Corps National Survey,'' and the Citizen Corps Volunteer Liability 
Guide, providing an in-depth overview of legal issues and approaches to 
address liability for emergency volunteers. The National Council on 
Disability also released its latest 500-page report on emergency 
management and people with disabilities, ``Effective Emergency 
Management: Making Improvements for Communities and People with 
Disabilities,'' and provided an interactive session with 
representatives from the Department of Justice on emergency management 
under Title II of the Americans with Disability Act. Also announced 
were the availability of a toolkit on Preparing Communities for 
Disaster, developed for the President's United We Serve initiative, and 
a revised on-line registration process for Citizen Corps Councils and 
CERT programs.
                               conclusion
    Secretary Napolitano, FEMA Administrator Fugate and I are committed 
to advancing our Nation's preparedness. Increasing individual and 
community preparedness and resiliency is a FEMA priority; it is also a 
National priority and I will make it a personal priority during my 
tenure. To support local communities in this challenge, FEMA has begun 
to strengthen internal coordination to ensure that we provide tools and 
resources from across the agency more effectively. Specific actions 
will include:
  <bullet> Ensuring FEMA and DHS policies and guidance include 
        appropriate language to support citizen and community 
        preparedness and resiliency;
  <bullet> Working with current National partners and expanding our 
        partnerships to enhance the tools and resources available to 
        local communities;
  <bullet> Enhancing education, training, and exercises for the public 
        and making them more accessible to everyone;
  <bullet> Promoting volunteer service opportunities to support 
        community safety and resilience;
  <bullet> Developing tools and technical assistance for areas where 
        none already exist or where existing tools need enhancement;
  <bullet> Continue conducting research on individual, business, and 
        community preparedness and analyzing the research of others;
  <bullet> Identifying ways to assess and quantify our progress;
  <bullet> Working with the FEMA regions to support our State, Tribal, 
        and local partners; and
  <bullet> Supporting open communications with community leaders and 
        with the public.

    Communicating the importance of personal and community preparedness 
is a cornerstone of our strategy moving forward, and with the continued 
support of Congress, we believe that considerable progress is within 
reach.
    Thank you, Mr. Chairman and Members of the committee, for allowing 
me to testify today. I am happy to answer any questions you may have.

    Mr. Cuellar. Mr. Manning, thank you again very much.
    Mr. Jenkins, you are recognized for 5 minutes.

   STATEMENT OF WILLIAM ``BILL'' O. JENKINS, JR., DIRECTOR, 
           HOMELAND SECURITY AND JUSTICE, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Jenkins. Chairman Cuellar, Ranking Member Rogers, 
Representative Olson, thank you for the opportunity to be here 
today to discuss our work on Federal efforts to encourage 
community preparedness for all types of emergencies, natural or 
manmade.
    Community preparedness is an integral part of National 
disaster preparedness. To the extent that individuals and 
families are prepared for the types of risks their communities 
face, they can increase their chances of survival, protect 
their families, and reduce the demands on first responders in 
the first critical 48 to 72 hours following a disaster.
    Research shows that Americans could be better prepared for 
disasters. The 2009 Citizen Corps National survey estimated 
that about 56 percent of U.S. households did not have disaster 
supplies in their home. Even fewer had supplies set aside in 
their car or workplace. Of even greater concern, 61 percent 
responded they expected to rely on emergency responders in the 
first 72 hours after a disaster.
    As we reported in April of this year, FEMA faces a major 
challenge in developing an all-hazards National preparedness 
system that requires consultation and coordination with a wide 
variety of stakeholders, including communities, State and local 
governments, nonprofit, and for-profit organizations.
    But locally--but doing this requires a clear vision and a 
statement of desired measurable outcomes in how FEMA plans to 
achieve those outcomes in coordination with its many partners. 
FEMA's measures of community preparedness, such as the number 
of established Citizen Corps councils, do not provide 
information on activities undertaken and the contribution of 
those activities to desired outcomes.
    FEMA's challenges measuring the performance of its 
community preparedness efforts are compounded by the lack of a 
strategy that defines how its community preparedness programs 
and efforts, including its grants for community preparedness 
projects, are to operate within the context of the National 
preparedness system. FEMA has not yet articulated a clear 
vision for its community preparedness efforts and the specific 
contributions they should make to the National preparedness 
system.
    In April, we recommended that FEMA develop a preparedness 
strategy that included measurable goals, objectives, and 
identified how FEMA would measure its progress in meeting those 
goals and objectives. Although FEMA officials say that they are 
working on a preparedness strategy that includes community 
preparedness, FEMA has not yet set a date for completion, and 
it is not clear how community preparedness will be incorporated 
into that strategy.
    The answer to whether FEMA is spending too little, too 
much, or just the right amount of money on community 
preparedness cannot be answered until FEMA defines what it 
expects of community preparedness efforts. FEMA can then assess 
the resources needed to achieve the desired results.
    DHS has been working on preparedness metrics, called target 
capabilities, for 5 years, and we reported on those efforts in 
2005. We recognize that including stakeholders in this effort 
is both important and takes time. Specific metrics for these 
compatibilities is still a work in--these capabilities is still 
a work in progress.
    One of the eight National priorities in this effort is 
``strengthening, planning, and community citizen preparedness 
capabilities.'' FEMA recognizes that, given the diversity of 
the Nation's population and the different risks communities 
face, there can be no one-size-fits-all approach to community 
preparedness. FEMA has already drafted different sets of 
materials for the disabled seniors and kids, for example.
    But it is not only the message, but the messenger that 
affects public response to messages encouraging preparedness. 
It is simply a fact that Government is not always seen as a 
credible messenger.
    It is not clear how FEMA plans to evaluate what works, what 
doesn't for different audiences and different means of 
delivering its preparedness message. In developing its 
community preparedness strategy, FEMA needs to consider what it 
controls--which is the content of its message that it 
develops--what it influences--for example, its partners at the 
State and local level--and what is largely beyond its control, 
for example, the media used and timing of public service 
announcements on behalf of the Ready campaign.
    We recognize that those working in community preparedness 
within FEMA and at the State and local level care deeply about 
their mission. The success of their efforts will require a 
coordinated, focused effort over time that builds for designed 
and measurable outcomes.
    That concludes my statement, Mr. Chairman. I would be 
pleased to answer any questions you or other Members of the 
subcommittee may have.
    [The statement of Mr. Jenkins follows:]
         Prepared Statement of William ``Bill'' O. Jenkins, Jr.
                            october 1, 2010
    Mr. Chairman and Members of the subcommittee: Thank you for the 
opportunity to participate in today's hearing to discuss Federal 
efforts to encourage community involvement in preparing for all-hazard 
emergencies.\1\ The public plays an important role in National 
emergency preparedness. By preparing their families and property before 
an event, individuals can often reduce a disaster's impact on them and 
their need for first responder assistance, particularly in the first 72 
hours following a disaster. For example, having at least a 72-hour 
supply of food and drinking water on hand can both sustain the 
individual and family in a disaster's aftermath and reduce the 
immediate demands for food and water delivered by first responders 
whose priority may be search and rescue. They can also potentially 
support first responders as trained volunteers, since the average 
person will likely be the first on the scene of a disaster. However, 
research shows that Americans could be better prepared for disasters, 
particularly based on two key indicators--the degree to which people 
report having disaster supplies set aside and have a household 
emergency plan. A 2009 Citizen Corps National Survey estimated that 
over half (56 percent) of U.S. households did not have disaster 
supplies in their homes, and even fewer had supplies set aside in their 
car or workplaces.\2\ Even those who responded that they are personally 
prepared may have only taken some of the actions recommended, such as 
having water set aside but not having extra batteries for their 
flashlights. Fewer than half (44 percent) of the 2009 survey 
respondents reported having a household disaster plan, a level 
consistent with the results of past surveys.\3\ Although it is 
unrealistic to expect first responders to assist everyone in a 
disaster, 30 percent of those surveyed said that the primary reason 
they were unprepared was because they believed emergency personnel 
would help them in the event of a disaster. Also, 61 percent expected 
to rely on emergency responders in the first 72 hours following a 
disaster. The Federal Emergency Management Agency (FEMA) administrator 
and leaders in the emergency management community are encouraging 
citizens to take actions to become more involved in preparing 
themselves and their communities, not only to mitigate the effects of a 
disaster, but to decrease their reliance on the Federal Government for 
goods and services during a catastrophic event and allow governments at 
all levels to target resources where they are most needed.
---------------------------------------------------------------------------
    \1\ Individuals, the public, and community are used interchangeably 
in this testimony when discussing preparedness for nongovernment 
community members. The terms encompass both citizens and noncitizens. 
Community nonprofit and private businesses are part of community 
preparedness, but were not within the scope of our work.
    \2\ Department of Homeland Security, Personal Preparedness in 
America: Findings From the 2009 Citizen Corps National Survey 
(Washington, DC: August, 2009).
    \3\ Federal Emergency Management Agency, Citizen Preparedness 
Review: A Review of Citizen Preparedness Research, Fall Update 
(Washington, DC: 2007). For example, National Center for Disaster 
Preparedness National surveys estimated the percentage of the 
population with an emergency plan was 43 percent in 2005, 45 percent in 
2006, and 43 percent in 2007.
---------------------------------------------------------------------------
    FEMA encourages public preparedness through the Community 
Preparedness Division's Citizen Corps program, which is designed to 
bring together Government and community leaders to involve citizens in 
all-hazards emergency preparedness and resilience, and the Ready 
Campaign, which makes literature and mass media content available to 
spread the preparedness message to individuals, families, and 
businesses.\4\ Citizen Corps is designed to promote the collaboration 
between local government and community leaders via local Citizen Corps 
councils. Individual councils are to promote preparedness activities 
and to encourage volunteering with Federally sponsored programs that 
support first responders, referred to as Citizen Corps partner 
programs. Citizen Corps promotes five partner programs, two of which 
are supported by FEMA--the Community Emergency Response Team (CERT) and 
Fire Corps.\5\ The operating budgets for community preparedness 
programs currently represent less than one-half of 1 percent of FEMA's 
total budget. In fiscal year 2009, FEMA's overall budget was about $7.9 
billion, of which about $5.8 million was dedicated to operating 
community preparedness programs and $2.1 million was for the Ready 
Campaign.
---------------------------------------------------------------------------
    \4\ According to FEMA officials, FEMA also encourages public 
preparedness through speaking engagements, the media, and social 
networking tools that were beyond the scope of our review. Regarding 
the Ready Campaign we focused on its efforts for individual and family 
preparedness. The Ready Campaign's Business and Kid Campaign were not 
within the scope of our review.
    \5\ The Department of Health and Human Service's Office of the 
Surgeon General within the Office of Public Health and Science 
administers a third partner program, the Medical Reserve Corps (MRC). 
Also, the Department of Justice sponsors two other partner programs--
Volunteers in Police Service and Neighborhood Watch.
---------------------------------------------------------------------------
    FEMA's National program office officials encourage State, local, 
regional, and Tribal governments and private and nonprofit community-
based organizations to establish and sustain local Citizen Corps 
councils and partner programs, partly through Federal funding for local 
efforts. Local Citizen Corps councils, CERTs, and Fire Corps all are 
considered ``grassroots'' organizations that use volunteers to operate 
programs in their respective communities. Citizen Corps councils and 
CERT programs are registered via the internet and are potentially 
eligible to apply for Federal grant funding through the State to 
support their program.\6\ According to Department of Homeland Security 
(DHS) data, approximately $269 million in FEMA homeland security grants 
(including grants for Citizen Corps councils, CERT, and Fire Corps) 
were awarded for community preparedness projects from fiscal years 2004 
through 2008. In fiscal year 2008, funding for community preparedness 
grants represented about 1.9 percent of the total FEMA grant funding. 
Specifically, in fiscal year 2008, approximately $56 million went to 
community preparedness projects, out of more than $3 billion awarded in 
DHS grants to strengthen prevention, protection, response, and recovery 
capabilities at all levels of government. Appendix I provides 
additional information on DHS grants awarded for community preparedness 
purposes from fiscal year 2004 through fiscal year 2008.
---------------------------------------------------------------------------
    \6\ Under FEMA's Homeland Security Grant Program, States, 
territories, urban areas, and transportation authorities are eligible 
for FEMA grants to bolster National preparedness capabilities and 
protect critical infrastructure. These grants can be used to establish 
and sustain Citizen Corps councils; purchase equipment for CERTs, Fire 
Corps, or MRC; and support planning or training efforts. Local 
community preparedness organizations can also receive funding from 
State, local, or Tribal governments or private and nonprofit community-
based preparedness organizations.
---------------------------------------------------------------------------
    In April 2009 we issued a report that discussed, among other 
things, the National preparedness system--a continuous cycle of: (1) 
Establishing policy and doctrine, (2) planning and allocating 
resources, (3) conducting training and exercises to gather lessons 
learned, and (4) assessing and reporting on the training and exercises 
to evaluate preparedness, including identifying any gaps in 
capabilities.\7\ Assessments and reports resulting from the National 
preparedness system are to be used to inform decision-makers on what 
improvements are needed and how to target finite resources to improve 
preparedness for disasters.\8\ Our report recognized that developing 
and integrating the elements of the National preparedness system is a 
challenge for FEMA, and more specifically the National Preparedness 
Directorate (NPD), the FEMA component responsible for carrying out the 
key elements of the National preparedness system, in coordination with 
other Federal, State, local, Tribal, nonprofit, and private sector 
organizations. We reported that the size and complexity of the Nation's 
preparedness activities and the number of organizations involved--both 
public and private--pose a significant challenge to FEMA as it leads 
the Nation's efforts to develop and sustain a National preparedness 
system. We further stated that, to develop an effective system, FEMA is 
to coordinate and partner with a broad range of stakeholders. As part 
of the Nation's preparedness system, the status of citizen and 
community preparedness can affect the demands on first responders in 
the immediate aftermath of a disaster.
---------------------------------------------------------------------------
    \7\ GAO, National Preparedness: FEMA Has Made Progress, but Needs 
to Complete and Integrate Planning, Exercise, and Assessment Efforts, 
GAO-09-369 (Washington, DC: Apr. 30, 2009).
    \8\ A key part of the system involves the development of 
quantifiable standards and metrics--called target capabilities, defined 
as the level of capability needed to prevent, respond to, and recover 
from natural and man-made disasters--that can be used to assess 
existing capability levels compared with target capability levels.
---------------------------------------------------------------------------
    As requested, today I will discuss our preliminary observations on: 
(1) What challenges, if any, FEMA faces in measuring the performance of 
Citizen Corps, its partner programs, and the Ready Campaign, and (2) 
what actions, if any, FEMA has taken to develop a strategy to encompass 
how Citizen Corps, its partner programs, and the Ready Campaign are to 
operate within the context of the National preparedness system. My 
comments are based on our on-going review of Citizen Corps, its partner 
programs, and the Ready Campaign requested by the Chairman of the 
Committee on Homeland Security, the Chairwoman of its Subcommittee on 
Transportation Security and Infrastructure Protection, and the Chairman 
of this subcommittee. The final results of this review will be issued 
in a report later this year.
    To address our objectives, we reviewed documentation, such as 
FEMA's strategic plan for 2008-2013, and interviewed officials at DHS's 
headquarters in Washington, DC, and at 12 selected locations in five 
States--California, Florida, Nevada, Oklahoma, and Texas. We selected 
these States based on the frequency of declared natural disasters. In 
total, we conducted 41 interviews covering 53 organizations in the five 
States.\9\ The results from our interviews are not generalizable; 
however, they provide insights into the operations of local Citizen 
Corps and partner programs as well as their efforts to use Ready 
Campaign material to promote individual preparedness. We also analyzed 
FEMA's strategic plan and NPD's 2009 Operating Plan and compared these 
documents with criteria in our past work that discusses the six 
characteristics of an effective National strategy.\10\ In addition we 
reviewed and analyzed data on the number of registered Citizen Corps 
and its partner programs to determine how FEMA measures the performance 
of its programs and compared FEMA's data with the results of our work 
in the five States with criteria discussing best practices for 
performance measurement.\11\ Furthermore, we obtained and analyzed data 
on homeland security grants awarded from fiscal years 2004 through 
2008. To determine the reliability of DHS grant data and data on the 
activities of FEMA Citizen Corps and partner programs, we interviewed 
DHS officials about their procedures for ensuring the accuracy of 
performance data and compared DHS's processes for compiling data on 
local community preparedness units with our past work on agency 
performance measurement. With regard to the Ready Campaign's tracking 
survey and data on donated media, we reviewed documents and interviewed 
Ready Campaign officials and Ad Council officials to discuss their 
process for ensuring data accuracy. We determined that these data were 
reliable for the purposes of this review.
---------------------------------------------------------------------------
    \9\ This included 17 Citizen Corps councils, 12 CERT, 5 Fire Corps 
programs, and officials representing 19 other preparedness and 
emergency management organizations, such as local emergency managers 
and State officials in four of the five States we visited.
    \10\ GAO-09-369 and GAO, Combating Terrorism: Evaluation of 
Selected Characteristics in National Strategies Related to Terrorism, 
GAO-04-408T (Washington, DC: February 3, 2004).
    \11\ GAO-09-369; GAO-04-408T; GAO, Results-Oriented Management: 
Strengthening Key Practices at FEMA and Interior Could Promote Greater 
Use of Performance Information GAO-09-676; (Washington, DC: Aug. 17, 
2009); Influenza Pandemic: Gaps in Pandemic Planning and Preparedness 
Need to Be Addressed, GAO-09-909T (Washington, DC: July 29, 2009); 
Information-Sharing Environment: Definition of the Results to Be 
Achieved in Improving Terrorism-Related Information Sharing Is Needed 
to Guide Implementation and Assess Progress GAO-08-492 (Washington, DC: 
June 25, 2008); Combating Terrorism: Evaluation of Selected 
Characteristics in National Strategies Related to Terrorism, GAO-04-
408T (Washington, DC: Feb. 3, 2004); Tax Administration: IRS Needs to 
Further Refine Its Tax Filing Season Performance Measures, GAO-03-143 
(Washington, DC: Nov. 22, 2002); Agency Performance Plans: Examples of 
Practices That Can Improve Usefulness to Decisionmakers GAO/GGD/AIMD-
99-69 (Washington, DC: Feb. 26, 1999); Performance Plans: Selected 
Approaches for Verification and Validation of Agency Performance 
Information, GAO/GGD-99139 (Washington, DC: July 30, 1999); Agencies' 
Annual Performance Plans Under the Reform Act: An Assessment Guide to 
Facilitate Congressional Decisionmaking, GAO/GGD/AIMD-10.1.18 
(Washington, DC: February 1998); and Executive Guide: Effectively 
Implementing the Government Performance and Results Act, GAO/GGD-96-118 
(Washington, DC: June 1, 1996).
---------------------------------------------------------------------------
    We are conducting this performance audit from February 2008 through 
October 2009 in accordance with generally accepted Government auditing 
standards. Those standards require that we plan and perform the audit 
to obtain sufficient, appropriate evidence to provide a reasonable 
basis for our findings and conclusions based on our audit objectives. 
We believe that the evidence obtained provides a reasonable basis for 
our findings and conclusions based on our audit objectives.
    In summary, FEMA faces challenges measuring performance for Citizen 
Corps, partner programs, and the Ready Campaign because: (1) It relies 
on States to verify that data for its principal performance measure--
the registered number of established volunteer organizations across the 
country--are accurate and does not have a process for monitoring State 
validation efforts, and (2) although the Ready Campaign controls the 
content of its message, it is not positioned to control the 
distribution of its message or measure whether its message is changing 
the behavior of individuals. FEMA officials said that FEMA expects to 
use a new, 2010 registration process to collect more comprehensive data 
on membership and council activities. Among other things, FEMA counts 
requests for literature, website hits, and the number of television 
announcements made to gauge performance for the Ready Campaign, but 
FEMA does not control when its message is viewed in various media 
because it relies on donated media, such as time to air television and 
radio announcements. Because changes in individuals' behavior can be 
the result of a variety of factors, including preparedness campaigns 
sponsored by other organizations, it is difficult to measure the Ready 
Campaign's effect on changes in individuals' preparedness behavior. 
FEMA's challenges in measuring the performance of citizen preparedness 
programs are compounded by the fact that it has not developed a 
strategy to encompass how Citizen Corps, its partner programs, and the 
Ready Campaign are to operate within the context of the National 
preparedness system. In April 2009, we recommended that NPD develop a 
strategic plan to implement the National preparedness system that 
contains such key elements as goals, objectives, and how progress in 
achieving them will be measured. FEMA agreed and reported that it is 
taking actions to strengthen strategic planning. FEMA stated that it is 
reviewing implementation plans and policy documents, such as the 
National Preparedness Guidelines, and that community preparedness is a 
key element being considered in this process. FEMA has not yet set a 
date for completion of the National preparedness system strategy, and 
the extent to which Citizen Corps, its partner programs, or the Ready 
Campaign will be included when the strategy is complete is not clear. 
We will continue to assess FEMA's efforts to measure the performance of 
the community preparedness programs and develop a strategy for 
integrating them into the National preparedness system as part of our 
on-going work. FEMA provided technical comments on a draft of this 
testimony, which we discussed with FEMA officials and incorporated as 
appropriate.
                               background
    The Post-Katrina Emergency Management Reform Act of 2006 (Post-
Katrina Act) \12\ required that FEMA establish the National 
preparedness system to ensure that the Nation has the ability to 
prepare for and respond to disasters of all types, whether natural or 
man-made, including terrorist attacks. The Community Preparedness 
Division is responsible for leading activities related to community 
preparedness, including management of the Citizen Corps program. 
According to fiscal year 2008 Homeland Security Grant Guidance, the 
program is to bring together community and Government leaders, 
including first responders, nonprofit organizations, and other 
community stakeholders. Serving as a Citizen Corps council, Government 
and non-Government stakeholders are to collaborate in involving 
community members in emergency preparedness, planning, mitigation, 
response, and recovery. Councils and partner programs register on-line 
to be included in the National program registries. The Division also 
supports the efforts of non-DHS Federal ``partner programs,'' such as 
the Medical Reserve Corps, that promote preparedness and the use of 
volunteers to support first responders.\13\ The CERT program's mission 
is to educate and train people in basic disaster preparedness and 
response skills, such as fire safety, light search and rescue, and 
disaster medical operations, using a Nationally developed, standardized 
training curriculum. Trained individuals can be recruited to 
participate on neighborhood, business, or Government teams to assist 
first responders. The mission of the Fire Corps program is to increase 
the capacity of fire and emergency medical service departments through 
the use of volunteers in nonoperational roles and activities, including 
administrative, public outreach, fire safety, and emergency 
preparedness education.
---------------------------------------------------------------------------
    \12\ The Post-Katrina Act was enacted as title VI of the Department 
of Homeland Security Appropriations Act, 2007, Pub. L. No. 109-295, 120 
Stat. 1355, 1394-1463 (2006).
    \13\ Citizen Corps also identifies program ``affiliates'' that may 
be available to help advance Citizen Corps's goals, such as the 
American Red Cross and Home Safety Council.
---------------------------------------------------------------------------
    FEMA also is responsible for a related program, the Ready Campaign, 
which works in partnership with the Ad Council, an organization that 
creates public service messages, with the goals of raising public 
awareness regarding the need for emergency preparedness, motivating 
individuals to take steps toward preparedness, and ultimately 
increasing the level of National preparedness. The program makes 
preparedness information available to the public through its English 
and Spanish websites (www.ready.gov and www.listo.gov), through printed 
material that can be ordered from the program or via toll-free phone 
lines, and through public service announcements (PSA).\14\ The Ready 
Campaign message calls for individuals, families, and businesses to: 
(1) Get emergency supply kits, (2) make emergency plans, and (3) stay 
informed about emergencies and appropriate responses to those 
emergencies.
---------------------------------------------------------------------------
    \14\ See http://www.ready.gov/america/about/psa.html for an example 
of a Ready Campaign PSA.
---------------------------------------------------------------------------
FEMA Faces Challenges Measuring Performance of Citizen Corps Programs 
        and the Ready Campaign
    FEMA faces challenges in measuring the performance of local 
community preparedness efforts because it lacks accurate information on 
those efforts. FEMA is also confronted with challenges in measuring 
performance for the Ready Campaign because the Ready Campaign is not 
positioned to control the placement of its preparedness messages or 
measure whether its message is changing the behavior of individuals.
            FEMA Faces Challenges Measuring Performance of Community 
                    Preparedness Efforts Because It Lacks Accurate 
                    Information on Local Programs
    According to FEMA officials, FEMA promotes citizen preparedness and 
volunteerism by encouraging collaboration and the creation of community 
Citizen Corps, CERT, and Fire Corps programs. FEMA includes the number 
of Citizen Corps councils, CERTs, and Fire Corps established across the 
country as its principal performance measure. However, FEMA faces 
challenges ensuring that the information needed to measure the number 
of established, active units is accurate. In our past work we reported 
on the importance of ensuring that program data are of sufficient 
quality to document performance and support decision-making.\15\ 
Although not a measure under the Government Performance Result Act, 
FEMA programs report the number of local units registered as a 
principal performance measure; however, our work showed that the number 
of active units reported may differ from the number that actually 
exist.\16\ For example, as of September 2009:
---------------------------------------------------------------------------
    \15\ GAO-03-143.
    \16\ GAO/GGD-96-118.
---------------------------------------------------------------------------
  <bullet> Citizen Corps reported having 2,409 registered Citizen Corps 
        councils Nation-wide that encompass jurisdictions where 
        approximately 79 percent of the U.S. population resides. 
        However, 12 of the 17 registered councils we contacted during 
        our site visits were active and 5 were not.
  <bullet> The CERT program reported having 3,354 registered CERTs. Of 
        the 12 registered CERTs we visited, 11 were actively engaged in 
        CERT activities, such as drills, exercises, and emergency 
        preparedness outreach, or had been deployed to assist in an 
        emergency or disaster situation, although 1 had members that 
        had not been trained. One registered CERT was no longer active.
    State officials in two of the four States also said that the data 
on number of registered programs might not be accurate.\17\ One State 
official responsible for the Citizen Corps council and CERT programs in 
the State estimated that as little as 20 percent of the registered 
councils were active, and the State subsequently removed more than half 
of its 40 councils from the National website. Officials in the other 
State said that the National database is not accurate and they have 
begun to send e-mails to or call local councils to verify the accuracy 
of registrations in their State. These officials said that they plan to 
follow up with those councils that do not respond, but they were not 
yet certain what they planned to do if the councils were no longer 
active. These results raise questions about the accuracy of FEMA's data 
on the number of councils across the Nation, and the accuracy of FEMA's 
measure that registered councils cover 79 percent of the population 
Nation-wide.
---------------------------------------------------------------------------
    \17\ We interviewed State officials in four of the five States we 
visited--California, Florida, Oklahoma, and Texas. We did not interview 
State officials in Nevada. Our Nevada site visit interviews were 
related to observing exercises with CERT participation.
---------------------------------------------------------------------------
    Some change in the number of active local programs can be expected, 
based on factors including changes in Government leadership, voluntary 
participation by civic leaders, and financial support. FEMA officials 
told us that the Homeland Security Grant Program guidance designates 
State officials as responsible for approving initial council and CERT 
registrations and ensure that the data are updated as needed. According 
to FEMA officials, however, in practice this may not occur. Community 
Preparedness Division officials said that they do not monitor whether 
States are regularly updating local unit registration information.
    FEMA officials said that FEMA plans to adopt a new on-line 
registration process for Citizen Corps councils and CERTs in 2010, 
which will likely result in some programs being removed from FEMA's 
registries. They said that FEMA expects to use the new registration 
process to collect more comprehensive data on membership and council 
activities. According to FEMA officials, updating initial registration 
information will continue to be the responsibility of State officials. 
The Citizen Corps Director noted that the Citizen Corps program does 
not have the ability to require all local units to update information, 
particularly councils or CERTS that receive no Federal funding. 
According to the Fire Corps program Acting Director, a State advocacy 
program initiated in 2007 may help identify inactive programs as well 
as promote the Fire Corps program. As of September 2009, there were 53 
advocates in 31 States. We will continue to assess this issue as part 
of our on-going work.
            The Ready Campaign Faces Challenges Measuring Performance 
                    Because It Is Not Positioned to Control the 
                    Distribution of Its Preparedness Messages and 
                    Measure Whether Its Message Effects Individual 
                    Behavior
    Currently, the Ready Campaign measures its performance based on 
measures such as materials distributed or PSAs shown. For example, 
according to a DHS official, in fiscal year 2008, the Ready Campaign 
had:
  <bullet> more than 99 million ``hits'' on its website;
  <bullet> more than 12 million pieces of Ready Campaign literature 
        requested or downloaded; and,
  <bullet> 43,660 calls to the toll-free call numbers.
    The Ready Campaign relies on these measures because it faces two 
different challenges determining whether its efforts are influencing 
individuals to be more prepared. First, the Ready Campaign is not 
positioned to control the when or where its preparedness message is 
viewed. Second, the Ready Campaign is not positioned to measure whether 
its message is changing the behavior of individuals.
    With regard to the Ready Campaign's ability to control the 
distribution of its message, our prior work has shown that agencies 
whose programs rely on others to deliver services face challenges in 
targeting and measuring results in meeting ultimate goals, and when 
this occurs, agencies can use intermediate measures to gauge program 
activities.\18\ However, according to FEMA's Acting Director for the 
Ready Campaign, funds are not available for the Ready Campaign to 
purchase radio and television time to air its PSAs; rather, the Ready 
Campaign relies on donations of various sources of media. As a result, 
the Ready Campaign does not control what, when, or where Ready Campaign 
materials are placed when the media is donated. For example, what PSA 
is shown and the slots (e.g., a specific channel at a specific time) 
that are donated by television, radio, and other media companies are 
not under the Ready Campaign's control, and these are not always prime 
viewing or listening spots. Based on Ad Council data, the Ready 
Campaign's PSAs in 2008 were aired about 5 percent or less of the time 
by English and Spanish television stations during prime time (8:00 pm 
to 10:59 p.m.), and about 25 percent of the PSAs were aired from 1:00 
a.m. to 4:00 a.m. Similarly, about 47 percent of English radio and 
about 27 percent of Spanish radio spots were aired from midnight to 
6:00 a.m. FEMA officials said that with the release of its September 
2009 PSAs, they expect increased placement during hours where there are 
more viewers and listeners.
---------------------------------------------------------------------------
    \18\ GAO/GGD/AIMD-99-69.
---------------------------------------------------------------------------
    Just as the Ready Campaign has no control over the time PSAs are 
aired, it does not control the type of media (e.g., radio and 
television) donated. Based on Ad Council data on the dollar value of 
media donated to show Ready Campaign materials (the value of the 
donated media is generally based on what it would cost the Ready 
Campaign if the media space were purchased), much of the value from 
donated media is based on space donated in the yellow pages. Figure 1 
shows the value of various types of media donated to the Ready Campaign 
to distribute its message during 2008.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Ready Campaign also faces a challenge determining the extent to 
which it contributes to individuals taking action to become more 
prepared--the program's goal. Measuring the Ready Campaign's progress 
toward its goal is problematic because it can be difficult to isolate 
the specific effect of exposure to Ready Campaign materials on an 
individual's level of emergency preparedness. Research indicates that 
there may be a number of factors that are involved in an individual 
taking action to become prepared, such as his or her beliefs as to 
vulnerability to disaster, geographic location, or income.\19\ A basic 
question in establishing whether the Ready Campaign is changing 
behavior is, first, determining the extent to which the Ready 
Campaign's message has been received by the general population. The Ad 
Council conducts an annual survey to determine public awareness of the 
Ready Campaign, among other things. For example, in the Ad Council's 
2008 survey:
---------------------------------------------------------------------------
    \19\ FEMA, Citizen Preparedness Review: A Review of Citizen 
Preparedness Research, Fall 2007.

  <bullet> When asked if they had heard of a website called Ready.gov 
        that provides information about steps to take to prepare in the 
        event of a natural disaster or terrorist attack, 21 percent of 
        those surveyed said that they were aware of the Ready.gov 
        website.
  <bullet> When asked a similar question about television, radio, and 
        print PSAs, 37 percent of those surveyed said that they have 
        seen or heard at least one Ready Campaign PSA.

    Another factor is isolating the Ready Campaign's message from other 
preparedness messages that individuals might have received. The Ad 
Council's 2008 survey found that 30 percent of those surveyed 
identified the American Red Cross as the primary source of emergency 
preparedness information; 11 percent identified the Ad Council.
    While the Ad Council survey may give a general indication as to the 
population's familiarity with the Ready Campaign, it does not provide a 
measure of preparedness actions taken based on the Ready Campaign's 
promotion, that is, a clear link from the program to achieving program 
goals. The Ad Council reported that those who were aware of Ready 
Campaign's advertising were significantly more likely to say that they 
had taken steps to prepare for disaster, but acknowledged that the 
Ready Campaign could not claim full credit for the differences. 
Further, as the 2009 Citizen Corps survey showed, the degree to which 
individuals are prepared may be less than indicated because 
preparedness drops substantially when more detailed questions about 
supplies are asked.\20\ We will continue to assess FEMA's efforts to 
measure the performance of the Ready Campaign as part of our on-going 
work.
---------------------------------------------------------------------------
    \20\ Similarly, public knowledge of the Ready Campaign may be less 
than indicated, based on the 2007 Citizen Corps survey. For example, 
the 2007 survey asked respondents about familiarity with Federal 
preparedness programs and estimated that 16 percent of respondents had 
heard about Ready.gov. However when asked to describe the program, only 
2 percent of respondents reported that they had a firm understanding of 
the program.
---------------------------------------------------------------------------
 fema has not developed a strategy encompassing how citizen corps, its 
  partner programs, and the ready campaign are to operate within the 
              context of the national preparedness system
    While DHS's and FEMA's strategic plans have incorporated efforts to 
promote community preparedness, FEMA has not developed a strategy 
encompassing how Citizen Corps, its partner programs, and the Ready 
Campaign are to operate within the context of the National preparedness 
system. An objective in DHS's Strategic Plan for 2008-2013 to ``Ensure 
Preparedness'' envisions empowering Americans to take individual and 
community actions before and after disasters strike. Similarly, FEMA's 
Strategic Plan for 2008-2013 envisions a strategy to ``Lead the 
Nation's efforts for greater personal and community responsibility for 
preparedness through public education and awareness, and community 
engagement and planning, including outreach to vulnerable 
populations.'' FEMA's Strategic Plan delegates to the agency's 
components the responsibility for developing their own strategic plans, 
which are to include goals, objectives, and strategies. FEMA's 
Strategic Plan states that the components' strategic plans are to focus 
on identifying outcomes and measuring performance.
    NPD has not clearly articulated goals for FEMA's community 
preparedness programs or a strategy to show how Citizen Corps, its 
partner programs, and the Ready Campaign are to achieve those goals 
within the context of the National preparedness system. In our past 
work, we reported that desirable characteristics of an effective 
National strategy include articulating the strategy's purpose and 
goals; followed by subordinate objectives and specific activities to 
achieve results; and defining organizational roles, responsibilities, 
and coordination, including a discussion of resources needed to reach 
strategy goals.\21\ In April 2009, we reported that NPD had not 
developed a strategic plan that defines program roles and 
responsibilities, integration and coordination processes, and goals and 
performance measures for its programs.\22\ We reported that instead of 
a strategic plan, NPD officials stated that they used a draft annual 
operating plan and Post-Katrina Act provisions to guide NPD's efforts. 
The draft operating plan identifies NPD goals and NPD subcomponents 
responsible for carrying out segments of the operating plan, including 
eight objectives identified for the Division under NPD's goal to 
``enhance the preparedness of individuals, families, and special needs 
populations through awareness planning and training.'' NPD's objectives 
for meeting this goal do not describe desired outcomes.
---------------------------------------------------------------------------
    \21\ GAO-04-408T and GAO-09-369.
    \22\ GAO-09-369.
---------------------------------------------------------------------------
    For example, one of NPD's objectives for the Community Preparedness 
Division is to increase ``the number of functions that CERTs will be 
able to perform effectively during emergency response,'' but the plan 
does not describe how many and what type of functions CERTs currently 
perform, what additional functions they could perform, and what it 
means to be effective.\23\ NPD's draft operating plan also does not 
include other key elements of an effective National strategy, such as 
how it will measure progress in meeting its goals and objectives; the 
roles and responsibilities of those who will be implementing specific 
programs within the Community Preparedness Division, such as Citizen 
Corps or Fire Corps; or potential costs and types of resources and 
investments needed to meet goals and objectives needed to implement 
civilian preparedness programs.\24\ As a result, NPD is unable to 
provide a picture of priorities or how adjustments might be made in 
view of resource constraints.
---------------------------------------------------------------------------
    \23\ NPD's other objectives relate to enhancing preparedness 
capabilities, strengthening partnerships, conducting emergency 
preparedness research, integrating community preparedness into grant 
guidance, holding a National conference, ensuring local implementation 
of the NET Guard Pilot Program, and developing a National strategy to 
collaborate with law enforcement partners.
    \24\ GAO-09-369.
---------------------------------------------------------------------------
    In our April 2009 report we recommended that NPD take a more 
strategic approach to implementing the National preparedness system to 
include the development of a strategic plan that contains such key 
elements as goals, objectives, and how progress in achieving them will 
be measured. DHS concurred with our recommendation and, in commenting 
on our report, stated that it reported making progress in this area and 
is continuing to work to fully implement the recommendation. NPD 
officials stated in September 2009 that DHS, FEMA, and NPD, in 
coordination with National security staff, were discussing Homeland 
Security Presidential Directive 8 (National Preparedness), including 
the development of a preparedness strategy and an implementation 
strategy.\25\ They said that community and individual preparedness were 
key elements of those discussions. However, NPD officials did not state 
when the strategy will be completed; thus, it is not clear to what 
extent it will integrate Citizen Corps, its partner programs, and the 
Ready Campaign. NPD officials stated that work is under way on revising 
the target capabilities, which are to include specific outcomes, 
measures, and resources. NPD officials said that the draft for public 
comment is expected to be issued in fiscal year 2010.
---------------------------------------------------------------------------
    \25\ Homeland Security Presidential Directive 8--National 
Preparedness (Dec. 17, 2003). In December 2003, the President issued 
guidance that called on the Secretary of Homeland Security to carry out 
and coordinate preparedness activities with public, private, and 
nonprofit organizations involved in such activities.
---------------------------------------------------------------------------
    The Ready Campaign is also working to enhance its strategic 
direction. According to the FEMA Director of External Affairs, the 
Ready Campaign's strategy is being revised to reflect the transition of 
the program from DHS's Office of Public Affairs to FEMA's Office of 
External Affairs, and the new FEMA Director's approach to preparedness. 
Program officials said that the Ready Campaign will have increased 
access to staff and resources and is to be guided by a FEMA-wide 
strategic plan for external communications. As of September 2009 the 
plan was still being developed and no date has been set for completion. 
We will continue to monitor this issue as well FEMA's effort to develop 
a strategy encompassing how Citizen Corps and its partner programs are 
to operate within the context of the National preparedness system.
    Mr. Chairman, this completes my prepared statement. I would be 
happy to respond to any questions you or other Members of the 
subommittee may have.
      Appendix I.--Homeland Security Grant Funding for Community 
                    Preparedness, 2004 through 2008
    Department of Homeland Security support for local community 
preparedness activities is provided through homeland security grants, 
specifically the Citizen Corps grant program, but community 
preparedness activities are also eligible for support under other 
homeland security grants. Citizen Corps grants are awarded to States 
based on a formula of 0.75 percent of the total amount available to 
each State (including the District of Columbia and the Commonwealth of 
Puerto Rico) and 0.25 percent of the total amount available for each 
U.S. territory, with the balance of funding being distributed on a 
population basis.
    For other DHS homeland security grants, a State prepares a request 
for funding, which can include support for the State's community 
preparedness efforts, as allowed under the guidance for a particular 
grant. For example, the 2009 Homeland Security Grant Guidance lists 
``Conducting public education and outreach campaigns, including 
promoting individual, family, and business emergency preparedness'' as 
an allowable cost for State homeland security grants. Grant funding can 
be used to support Citizen Corps, Citizen Corps partner programs, or 
other State community preparedness priorities. The Federal Emergency 
Management Agency's (FEMA) grant reporting database does not categorize 
grants in a way that allows identification of the amount of funding 
going to a particular community preparedness program.
    Table 1 summarizes the approximately $269 million in DHS grants 
that were identified by grantees as supporting community preparedness 
projects from fiscal years 2004 through 2008. The amount is an 
approximation because of limitations in identifying grants for such 
projects. Our selection of projects for inclusion relied on grantees 
identifying their projects under one of three predefined project types 
that FEMA officials said are relevant for community preparedness or 
were projects funded with a Citizen Corps program grant. Not all 
grantees may have used these descriptions. We worked with grant 
officials to identify the most appropriate grant selection criteria.

                 TABLE 1: 2004-2008 HOMELAND SECURITY GRANTS FOR COMMUNITY PREPAREDNESS PROJECTS
----------------------------------------------------------------------------------------------------------------
                                                                          Law
                         Urban Area       State        Emergency      Enforcement   Other Homeland
 Year   Citizen Corps     Security       Homeland      Management      Terrorism        Security        Total
                         Initiative      Security     Performance     Prevention      Grants \2\
                         (UASI) \1\                      Grant           Grant
----------------------------------------------------------------------------------------------------------------
  2004    $33,955,176     $8,306,020     $7,735,800  .............      $1,093,911  ..............   $51,090,907
  2005     13,485,705      8,687,292     11,775,517       $595,825         248,988        $414,329    35,207,655
  2006     19,205,985     16,345,381     15,074,053      6,545,092         969,561       2,028,071    60,168,142
  2007     14,549,998     23,608,893     15,754,809      1,026,336       6,705,907       4,895,079    66,541,022
  2008     14,572,500     13,498,514     16,640,267      8,620,774               0       2,645,852    55,977,906
       ---------------------------------------------------------------------------------------------------------
 Total     95,769,364     70,446,099     66,980,446     16,788,026       9,018,367       9,983,331   268,985,634
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of FEMA grant reporting data for fiscal years 2004 through 2008.
Notes: Homeland Security grant projects included in this summary met at least one of the following four
  criteria: Indicated the project was to establish or enhance (1) citizen or volunteer initiatives; (2) citizen
  awareness of emergency preparedness, prevention, and response measures; (3) Citizen Corps councils; or (4) was
  supported by the Citizen Corps program grant. For years with a zero value, a particular grant may not have
  been part of the Homeland Security grant package (e.g., the Emergency Management Performance Grant was not
  part of the 2004 grants package, and the Law Enforcement Terrorism Prevention Grant in 2008 was not available
  for community preparedness purposes).
\1\ Includes UASI and UASI transit and nonprofit grants. The UASI grant program provides Federal assistance to
  high-risk urban areas to: (1) Address unique planning, equipment, training, and exercise needs and (2) assist
  them in building an enhanced and sustainable capacity to prevent, prepare for, and respond to threats or acts
  of terrorism.
\2\ Includes grants for transit security programs, Metropolitan Medical Response System, Intercity Passenger
  Rail Security, Interoperable Emergency Communications, Non-Profit Security, Regional Catastrophic
  Preparedness, and Buffer Zone Protection. The Buffer Zone Protection Program supports the implementation of
  preventive and protective measures outside the perimeter of selected critical infrastructure and key resource
  (CI/KR) sites throughout the United States. The program provides grant funding to jurisdictions to purchase
  equipment to extend the zone of protection around CI/KR facilities, expand preparedness capabilities, and
  enhance the security of surrounding communities.

    Mr. Cuellar. Mr. Jenkins, again, thank you again for your 
testimony.
    At this time, Ms. Smith, you are recognized for 5 minutes.

STATEMENT OF WENDY L. SMITH, ASSISTANT CITY MANAGER, MC ALLEN, 
                             TEXAS

    Ms. Smith. Good morning, Mr. Chairman, and Members of the 
committee. It is my pleasure to speak to you today about 
community preparedness, particularly with regard to the Citizen 
Corps program and its affiliates.
    My name is Wendy Smith, and I am an assistant city manager 
and an assistant emergency management coordinator in McAllen, 
Texas, a border community of 130,000, located in a three-county 
region of 1.2 million residents.
    McAllen's CERT team is one of seven Citizen Corps teams in 
the region. Annually, we train almost 50 new volunteers in 
three classes. The objective of the Citizen Corps program is to 
have better trained--and therefore, safer--volunteers to assist 
their neighbors, co-workers and churches in case of emergency.
    During a disaster, well-meaning but often untrained good 
Samaritans turn out to help. All too frequently, they hinder 
the efforts of our first responders. Emergency services may be 
diverted to provide impromptu training for these spontaneous 
volunteers. This scenario is the reason that programs such as 
Citizen Corps are vitally important community preparedness 
tools.
    We know not everyone will be ready, so regionally we strive 
to have a total of 500 trained CERT volunteers to deploy 
wherever they are needed at any given time. Right now, we have 
approximately 165, many of whom assisted in the EOC during 
Hurricane Dolly in 2008.
    In our jurisdiction, we have waiting lists for CERT 
participants and a shortage of trainers from the various local 
governments. All of the participating local governments provide 
in-kind the cost of trainers, facilities, equipment, and 
administrative coordination of the classes. Seven Citizen Corps 
teams and their affiliates in our region are supported by a 
Federal grant of less than $20,000.
    I would like to ask for more funding for these programs, 
but I know that is not feasible at this time. Instead, I submit 
this recommended change utilizing existing funding. Consider 
removing categorical funding restrictions within the grant for 
promotional items, equipment, and training. For example, 
McAllen no longer has a need to promote the CERT team since 
there is a waiting list of volunteers.
    However, 15 percent of the grant is allocated to 
promotional and educational materials. That funding is better 
utilized for equipment and training, such as CPR classes not 
currently offered, and is enough to allow the city to train an 
additional team. This added flexibility helps us move toward 
our common goal of training and, more importantly, retaining 
volunteers.
    The first 72 hours of a disaster is the most critical time, 
but it is also the time that emergency responders are 
overwhelmed with calls for service. At no other time is it more 
important to have your citizens trained to help themselves and 
each other.
    While these volunteers are not intended to replace first 
responders, they provide immediate assistance when traditional 
emergency services cannot meet the demand. Your support of the 
Citizen Corps program is greatly appreciated by local 
governments such as ours that continually work to prepare our 
residents to help themselves and each other during disasters.
    Thank you for your time and attention today. I am happy to 
answer any questions.
    [The statement of Ms. Smith follows:]
                  Prepared Statement of Wendy L. Smith
                            October 1, 2009
    Good morning Mr. Chairman and Members of the committee. It is my 
pleasure to speak to you today about community preparedness, 
particularly with regard to the Citizen Corps program and its 
affiliates.
    My name is Wendy L. Smith, and I serve as an Assistant City Manager 
and Assistant Emergency Management Coordinator in McAllen, Texas, a 
border community of 130,000, located in a Council of Governments 
service area of 1.2 million residents.
    McAllen has an active CERT team which is one of seven Citizen Corps 
affiliate programs in our three county region. Annually we train almost 
50 new volunteers in three classes. The objective of the Citizen Corps 
program is to have better trained--and therefore safer--volunteers to 
assist their neighbors, co-workers, and churches in case of emergency. 
We are fortunate in our community, as in yours, to have individuals who 
are willing to help those who cannot help themselves during natural or 
man-made disasters. Whether it be flooding, wildfires, tornadoes, or 
earthquakes, we are lucky to have citizen volunteers who heed the call 
to service. Though well-intentioned, these volunteers are frequently 
untrained, and therefore may actually hinder the efforts of our first 
responders. Emergency services may be diverted to provide impromptu 
training for these spontaneous volunteers. This scenario is the reason 
that programs such as Citizen Corps are vitally important community 
preparedness tools.
    The Citizen Corps website states that the CERT program seeks to 
double the number of participants over the next 2 years, with over 
400,000 individuals completing the training. FEMA should be commended 
for this ambitious goal. Regionally we strive to have a total of 500 
trained CERT volunteers to deploy wherever they are needed at any given 
time. In our jurisdiction we have waiting lists for CERT participants 
and a shortage of trainers from the various local governments. All of 
the participating local governments provide in-kind the cost of 
trainers, facilities, equipment, and administrative coordination of the 
classes. Seven Citizen Corps teams and their affiliates in our region 
are supported by a Federal grant of less than $20,000.
    While I would like to come here today asking for more funding for 
Citizen Corps programs across the Nation, as a Government employee I 
realize that resources are finite. As such, I submit this recommended 
change utilizing existing funding. Remove categorical funding 
restrictions within the grant (for promotional items, equipment, and 
training). For example, McAllen no longer has a need to promote the 
CERT team, as there is a waiting list of volunteers. However, 15% of 
the grant is allocated to promotional and educational materials. That 
funding is better utilized for equipment and training, such as CPR 
classes not currently offered, and is enough to allow the city to train 
an additional team. This added flexibility helps us move toward our 
common goal of training and retaining volunteers.
    Citizen Corps cultivates and sustains the spirit of volunteerism 
that has long been a source of pride in our communities. While these 
volunteers are not intended to replace first responders, they provide 
immediate assistance when traditional emergency services cannot meet 
the demand. Your support of the Citizen Corps program is greatly 
appreciated by local governments such as ours that continually work to 
prepare our residents to help themselves and each other during 
disasters. Thank you for your time and attention today. I am happy to 
answer any questions.

    Mr. Cuellar. Thank you, Ms. Smith, for your testimony.
    At this time, we will recognize Ms. DeFrancis.

   STATEMENT OF SUZANNE C. DE FRANCIS, CHIEF PUBLIC AFFAIRS 
                  OFFICER, AMERICAN RED CROSS

    Ms. DeFrancis. Good morning, Chairman Cuellar, and Ranking 
Member Rogers, and distinguished Members of the committee.
    Thank you for inviting me here today on behalf of the 
American Red Cross and for drawing the public's attention to 
this very important topic of preparedness. As Mr. Rogers said, 
incidents in recent weeks--from the arrest of suspected 
terrorists in the United States, deadly flooding in Georgia and 
other southeastern States, earthquakes, tsunamis, typhoons in 
the Pacific, school districts closed from H1N1--reminds that 
disasters and other emergencies are all too real and all of us 
must be prepared and get our families, neighbors, communities, 
and country prepared.
    At the American Red Cross, our mission has been to help 
prevent, prepare for, and respond to disasters, and we have 
been doing it for more than a century. But as important as our 
work is in responding after disaster strikes, nothing is as 
important as what we do before a disaster strikes. The old 
saying holds true: An ounce of prevention is worth a pound of 
cure.
    Research shows that a dollar spent on prevention can save 
about $4 in response. That is a significant return on 
investment and one our Nation should not fail to make. 
Preparedness saves lives and livelihoods.
    We also have an obligation to promote preparedness not just 
to those who can afford it, but to those at-risk populations--
the elderly, disabled, and poor--who are the most vulnerable.
    A Red Cross survey this summer showed that while 89 percent 
of the public agree it is important to be prepared, far fewer 
are actually taking the steps necessary. As Mr. Cuellar noted, 
they may be taking some of the steps, but they are not really 
what we would call prepared. The level of public preparedness 
remains far too low, and at the Red Cross we are not satisfied.
    People mostly don't prepare because they don't think it 
will happen to them. Interestingly, though, our polls show that 
more than 50 percent of people have actually had loss of power 
and utilities, had to evacuate, had to offer first aid to 
someone near them, so these everyday emergencies really do 
happen to people.
    People prepare, though, when they think something will 
happen to them. That is why we are seeing a relatively high 
level of preparedness around H1N1. Overwhelming majorities 
report they are taking steps to cover their cough and wash 
their hands, and 62 percent plan on being vaccinated.
    So at the Red Cross, we are continually working to find new 
and better strategies to reach the public. Each day, an 
estimated 50,000 people receive Red Cross training classes and 
preparedness education presentations. One I would like to 
highlight is in New Orleans, where we started what we called a 
pillowcase project. Children were given pillowcases which they 
could decorate and stuff with the favorite things they would 
like to take with them if they needed to evacuate, in the sense 
of an emergency.
    We know this project works because when Hurricane Gustav 
headed up the same area hit by Katrina, kids showed up in our 
shelters, and they had their pillowcases, and they were filled 
with supplies, so that is progress.
    Another effective way to reach people is through the 
workplace. Studies have shown that 1 of every 4 small 
businesses that are forced to close because of a disaster never 
reopen. That is why the American Red Cross developed a web-
based, self-assessment tool that makes preparedness easy for 
businesses of all sizes. It is called the Ready Rating program, 
and membership is free.
    Businesses score themselves annually and maintain their 
membership by developing and implementing emergency response 
plans, giving preparedness information to their employees, and 
improving their overall score just a little bit every year.
    Ready Rating was the brainchild of business owners in St. 
Louis and received backing from Anheuser-Busch, and now we want 
to expand it to 16 more cities. We thank Congressman Cao of 
this committee for signing on as a member in southeast 
Louisiana.
    As I mentioned, the Red Cross is very focused on educating 
the public about H1N1. We have developed and distributed 
countless information sheets, some of which are at the table 
here today. Our Philadelphia chapter distributed over 285,000 
handouts at 570 Wawa stores. We use social media to post 
messages on YouTube, Facebook, and Twitter. Red Cross youth are 
conducting outreach at schools and colleges.
    In addition to educating the public, during a flu outbreak, 
the American Red Cross remains committed to its core services 
of maintaining a safe blood supply and providing disaster 
relief to those in need. Our goal is to build a culture of 
preparedness throughout our Nation, but no single organization 
can do it alone.
    This week, Secretary Janet Napolitano came to the American 
Red Cross to deliver an important speech on preparedness. She 
summoned all of us to a grassroots effort to better prepare our 
communities, and the American Red Cross heartily applauds her 
for this and supports her call to action.
    We are also grateful for this committee. We commend you, 
Mr. Cuellar, for introducing H.R. 1, the Citizen and Community 
Preparedness Act, and we will work with you to pass that. We 
are pleased so many Members of the committee co-sponsored the 
resolution on National Preparedness Month, introduced by 
Representative Yvette Clarke.
    Finally, the Red Cross is also partnering with many faith-
based and community groups to promote preparedness. By 
partnering with people like the more than 25,000 members of the 
West Angeles Church of God in Christ in Los Angeles, we can 
multiply our efforts and really build that grassroots movement 
Secretary Napolitano envisions.
    Working together as a Nation, we are confident we can build 
a society in which every individual, every family, every 
business, every school, every faith-based and civic 
organization is prepared.
    Thank you. I look forward to your questions.
    [The statement of Ms. DeFrancis follows:]
               Prepared Statement of Suzanne C. DeFrancis
                            October 1, 2009
    Good Morning Chairman Cuellar, Ranking Member Rogers and 
distinguished Members of the subcommittee. My name is Suzy DeFrancis, 
and I am the chief public affairs officer of the American Red Cross. 
Today's hearing entitled, ``State of Citizen and Community 
Preparedness'' is a very important issue for the Red Cross and the 
Nation. We commend the Subcommittee on Emergency, Communications, 
Preparedness and Response for drawing the public's attention to it at 
this hearing.
    The timing of your hearing could not be more relevant. In addition 
to the fact that September is National Preparedness Month, we have 
unfortunately been reminded in the last 2 weeks of why preparedness 
matters. We have seen the arrest in the United States of a suspect in 
what is being called the most serious terrorist plot since 9/11. We 
have seen deadly flooding in Georgia and other Southeastern States, and 
earthquakes and tsunamis in the Pacific. We have seen school districts 
closed, one in Huntsville, Texas, athletic events cancelled, and sadly 
more deaths from the H1N1 virus.
    With these incidents as a backdrop, we are reminded that the threat 
of disasters and other emergencies is very real today and requires us 
all to remain diligent in our efforts to be prepared and to get our 
families, neighbors, communities, and country prepared.
                         value of preparedness
    At the American Red Cross, our mission is to help people prevent, 
prepare for, and respond to disasters and other emergencies. We have 
been doing this work for more than a century. As you know, we are 
chartered by the Congress to perform our mission, and we have specific 
responsibilities under ESF 6 of the National Response Framework. We 
shelter, feed, and counsel victims of disasters at home and abroad; 
collect and distribute nearly half of the Nation's blood supply; teach 
preparedness and lifesaving skills; and we support military members and 
families through emergency communications. So whether it is a hurricane 
or heart attack, a call for blood or a call for help, the Red Cross is 
there around the corner, around the Nation, and around the world.
    Each year, the American Red Cross responds to more than 70,000 
disasters in communities Nation-wide from a single family house or 
apartment fire, to a large-scale disaster like a hurricane. But whether 
it is a small- or large-scale disaster, every disaster is an intensely 
personal tragedy for the people involved. That's why we want everyone 
to make a personal commitment to preparedness.
    Being prepared can help you protect your family and loved ones in a 
disaster. It can help you respond effectively until help arrives. It 
can save lives. It can also save livelihoods by helping individuals and 
businesses get back on their feet faster. At the American Red Cross, we 
do important work in providing relief after a disaster strikes. But 
nothing is as important as what we do before disaster strikes. The old 
saying is right: An ounce of prevention is worth a pound of cure.
    The investments we make in preparedness today have the potential to 
save countless lives and resources in the future. A study done in 2005 
by the Multi-hazard Mitigation Council found: ``On average, every 
dollar spent by FEMA on hazard mitigation (actions to reduce disaster 
losses) provides the Nation with about $4 in future benefits.'' So if 
$1 spent on prevention can save $4 in response, that is a significant 
return on investment and one our Nation should not fail to make.
    Moreover, research also shows that those with the least suffer the 
most when disaster strikes. Most people who come to Red Cross shelters 
are people who have nowhere else to go and no money to pay for a motel 
room or other shelter. So we have an obligation as a society to make 
sure that we are promoting preparedness not just to those who can 
afford it, but to those at-risk populations--the elderly, disabled, and 
poor--who are most vulnerable.
                        polling on preparedness
    Even though 89 percent of the public believe it is important to be 
prepared--far fewer are actually taking the steps necessary to prepare, 
according to a Red Cross survey conducted in late July and early 
August. In many cases, they don't know what to do or they think it 
takes too much time.
    That's why the Red Cross has worked with our Federal partners at 
FEMA and DHS to send one consistent message about the 3 simple steps 
you can take to keep your loved ones safer: Get a Kit, Make a Plan, and 
Be Informed.
    Our recent survey showed 80 percent of Americans had taken at least 
one key preparedness step, for example:
  <bullet> 47% have assembled an emergency kit;
  <bullet> 45% have chosen an out-of-town contact;
  <bullet> 24% have practiced their emergency plan.
    But only 12 percent of Americans are reasonably prepared for a 
disaster, as recommended by the Red Cross.
    So clearly the level of public preparedness remains very low, and 
we are not satisfied with the progress that has been made to date. We 
need to continue to find new and better strategies to reach the public 
with this message. We also need to have some fun. We launched a ``Do 
More than Cross Your Fingers'' campaign this year to promote 
preparedness with Jamie Lee Curtis as our celebrity spokesperson. She 
sent out an email about how she includes chocolate and dental floss in 
her preparedness kit--and it was one of the most-opened emails we have 
sent out.
    One perception we need to change is that people think preparedness 
only applies to large-scale disasters and they don't think those will 
happen to them, or if they do, they think Government will bail them 
out. But the fact is that disruptive emergencies strike far more often 
than people realize.
    For example, our Red Cross survey showed that more than 50 percent 
of Americans have experienced at least one of the following 
emergencies:
  <bullet> Losing Utilities for at least three days;
  <bullet> Evacuating their home;
  <bullet> Providing first aid to others.
    These are the ``everyday emergencies'' that everyone should prepare 
for.
    We also know that people prepare to the degree they think a threat 
is imminent. That's why we are seeing a relatively high degree of 
preparedness about the HINI flu.
    A recent poll conducted by the American Red Cross on H1N1 flu found 
an overwhelming majority of the public were taking steps against the 
virus:
  <bullet> 78% are taking or planning to take extra measures to cover 
        their coughs and sneezes with a tissue;
  <bullet> 76% are taking or planning to take extra measures to wash 
        their hands more carefully.
    The media took notice of the fact that women are more likely to 
take protective actions, with 84 percent making an extra effort to 
cover coughs and sneezes (versus 71 percent for men) and 81 percent 
washing their hands more carefully and more often (compared to 71 
percent for men).
    The survey also found that 62 percent of those surveyed plan on 
being vaccinated against the new flu virus and nearly half of those 
surveyed (46 percent) plan on assembling a 2-week supply of food, 
water, and medicine in the event they or someone in their family 
becomes sick and needs to stay home for extended periods of time.
              red cross activities to promote preparedness
    At the Red Cross, we are continually working on new and better ways 
to promote preparedness.
    Each day, an estimated 50,000 people receive Red Cross training 
classes and preparedness education presentations. Our website is full 
of links to preparedness information, and people can take many of these 
courses on-line. Numerous preparedness materials are also available in 
multiple languages aimed at different segments of the population.
    For example, we have found that school children are very good at 
getting their parents to prepare, and we reach more than 1 million 
school children every year with our Masters of Disaster curriculum. We 
also have a Mother's Guide to Preparedness. You might be interested to 
know that according to some research, the most trusted and effective 
messengers on preparedness--even among adults--are their mothers.
    The bulk of Red Cross programs and services are delivered through a 
vibrant network of 700 chapters located across the country. Chapters 
are able to tailor National programs to meet the diverse needs of their 
specific communities. They partner in their communities with local 
businesses, schools, emergency management, public health departments, 
and Citizen Corps Councils.
    I would like to highlight how local Red Cross chapters, many in 
your districts, are working with partners in their communities to 
become better prepared.
  <bullet> The city of Laredo, Texas is a hub of preparedness. The 
        National Red Cross uses Laredo to pre-position support for 
        hurricane evacuation and response, and the Laredo Red Cross 
        branch and San Antonio Chapter work with the city to support 
        the Hurricane Hub Shelters as part of the State Evacuation 
        Plan.
  <bullet> In Alabama, the Red Cross has worked with the Governor's 
        Office of Faith-based Initiatives to use community colleges as 
        shelters when evacuation of the Gulf Coast is mandated, and we 
        trained staff at the colleges in shelter operations. Masters of 
        Disaster CDs, purchased with a grant from ALFA Insurance Co., 
        have been distributed to every elementary school in a seven-
        county area over a 5-year period.
  <bullet> In Mississippi, we have more than 1,600 disaster-trained 
        volunteers prepared to respond. Red Cross chapters across the 
        State held shelter-management training sessions this year with 
        the African Methodist Episcopal Church (AME) and have also 
        worked with NAACP and HOPE Worldwide to train more volunteers. 
        As a result, while there is still room for growth, diversity 
        across the Mississippi volunteer base is rising. In addition, 
        the Red Cross prepares by pre-positioning supplies in 
        Mississippi, including 11 preloaded kitchen support trailers, a 
        30,000-square-foot headquarters/warehouse, and a fixed site 
        Disaster Response Communications Network to enable connectivity 
        between the National Red Cross Disaster Operations Center and 
        local service delivery sites.
  <bullet> In Louisiana, every one of the 4,000 families who worked 
        with Red Cross caseworkers to plan their recovery from Katrina 
        also developed a family evacuation and preparedness plan. Our 
        ``pillowcase project,'' which started in New Orleans, gives 
        children pillowcases with evacuation checklists that they can 
        fill with everything from stuffed animals to a favorite book. 
        Hundreds of kids in grades K-8 already have them and more will 
        get the pillowcases and training this year. We know these 
        projects have been a success because when Hurricane Gustav 
        headed up the same area hit by Katrina, kids showed up in 
        shelters with pillowcases and more people reported knowing 
        where they needed to go and how to get there--that's progress!

    In addition to these on-going preparedness efforts, I would like to 
focus today on two new initiatives: A program we just launched called 
Ready Rating, and our efforts to prepare the public for the H1N1 virus.
Partnering with Businesses: Ready Rating Program
    One of the key recommendations from the 9/11 Commission was a call 
for improved private sector preparedness for a disaster, with creation 
of standards that would enable companies to voluntarily improve their 
readiness.
    Studies have shown that one of every four small businesses that are 
forced to close because of a disaster never re-opens. But while 94 
percent of small business owners told the Red Cross in a survey they 
worry about the potential for a disaster to disrupt their operations, 
many businesses do not know exactly what they should do, or worry they 
cannot afford the time or resources to take the actions necessary.
    That's why the American Red Cross has developed a first-of-its-kind 
program, called Ready Rating, which costs nothing but enables 
companies, schools, and organizations to self-assess their readiness 
for emergencies or disasters of all kinds and take steps to become 
better prepared. It makes preparedness simple and doable.
    The Red Cross Ready Rating program offers free memberships to 
businesses and schools, which can use an on-line checklist that 
measures their current preparedness efforts. Ready Rating members score 
themselves annually with the checklist, and they maintain their 
membership by developing and implementing an emergency response plan, 
giving preparedness information to employees and students, and 
improving their overall score each year.
    From a company's perspective, being prepared for emergencies is 
good business. Being prepared will enhance productivity by reducing the 
amount of time that employees are unable to work and will enable 
companies to minimize losses. And there's no question that better 
preparedness by schools and businesses helps the entire community 
respond and recover.
    Ready Rating first began as a project of the American Red Cross of 
Greater St. Louis, where it now has nearly 150 members, including major 
businesses, schools, and organizations of all sizes. Anheuser-Busch is 
the founding sponsor and first member of the Ready Rating program in 
St. Louis, and is supporting the expansion of the program to 16 more 
cities.
    The Red Cross is rolling out Ready Rating this month in New 
Orleans, Washington, DC, New York, Los Angeles, San Francisco, Dallas, 
Raleigh, NC, and Chicago, with eight additional cities to be added 
early next year. We'd like to commend and thank Congressman Cao for 
signing on as a charter member of the Ready Rating program, helping to 
underscore the importance of preparedness in Southeast Louisiana.
    Meetings about this new readiness program are also being held with 
groups such as the U.S. Chamber of Commerce, Business Roundtable, and 
the National Federation of Independent Businesses.
    Al Martinez-Fonts, a Fellow at the U.S. Chamber of Commerce and the 
former Assistant Secretary for the Private Sector Office of DHS has 
praised the program saying: ``Businesses have been looking for a 
program that gives them an easy, achievable path to preparedness, and 
Ready Rating gives companies of all sizes the roadmap to readiness.''
    As mentioned earlier, this is also a program that schools have 
embraced, and the Department of Education has commended the Red Cross 
for launching it and recognizes the important benefits it provides to 
schools.
Preparing for H1N1
    Today the American Red Cross' current focus is preparedness for the 
H1N1 virus. As you know, this is a potentially serious health issue for 
families, schools, and businesses across the country and the world and 
serves as a reminder of the importance of preparedness and contingency 
planning. The Federal Government estimates that as many as 40 percent 
of the country's population could become ill with the flu this fall and 
winter.
    The American Red Cross plays an important role in educating the 
public on H1N1 preparedness.
    We have developed an extensive section on our website with fact 
sheets, widgets, videos, and games for children that urge the public to 
follow basic public health steps to help prevent the spread of the flu 
such as frequent hand washing, covering your mouth or nose when you 
cough or sneeze either with a tissue or with your elbow; minimizing 
contact with people who are sick as much as possible; and getting a flu 
shot for both seasonal flu and H1N1. We also have information on how to 
care for a loved one at home.
    We have developed and distributed countless number of tear sheets 
that can be posted on bulletin boards in schools or offices. Our 
Philadelphia chapter distributed over 285,000 handouts at 570 Wawa 
stores.
    We are using the social media space to post videos and messages 
about H1N1 on YouTube, Facebook, and Twitter. Our Red Cross clubs are 
conducting outreach at schools and colleges.
    And we are holding public meetings with other community partners to 
educate people about the virus and how they can stay healthy. Red Cross 
chapters stand ready in local communities to provide appropriate 
support and meet community needs.
    In addition to educating the public, during a flu outbreak the Red 
Cross remains committed to its core services of maintaining a safe 
blood supply and providing disaster relief to those in need. The Red 
Cross has developed pandemic flu plans for sheltering operations, 
enabling us to continue to provide vital shelter to people in need 
while also safeguarding the health of shelter residents and workers.
                   creating a culture of preparedness
    The goal is to build a ``culture of preparedness'' throughout our 
Nation that helps families communities become safer and more prepared 
when disasters strike. No single organization, whether it is the 
Government or the American Red Cross, can do this alone, but working 
together as a Nation, we can.
Department of Homeland Security
    We are grateful for the close working relationship the Red Cross 
has developed with DHS Secretary Janet Napolitano and FEMA 
Administrator Craig Fugate. Our President and CEO Gail McGovern has 
been side-by-side Secretary Napolitano at a number of public events 
promoting preparedness, and we have worked with Administrator Fugate 
many times before when he was Director of the Florida Division of 
Emergency Management.
    As recently as this week, the Secretary came to the American Red 
Cross to deliver a major speech on Readiness and Resilience. The 
Secretary shared her belief that preparedness is a shared 
responsibility and summoned all of us to a grassroots effort to better 
prepare our communities for any kind of emergency. The American Red 
Cross appreciates her leadership on this issue and heartily backs her 
call to action. We would also note that not only does Secretary 
Napolitano preach preparedness, she practices it.
    Just last month she invited the Red Cross to train her and her 
entire senior staff in CPR/AED.
United States Congress
    We are also grateful for the United States Congress, which through 
the bipartisan leadership of this subcommittee and the full committee 
has also enhanced this culture of preparedness. Again, we want to thank 
you for holding this important hearing and would like to commend you, 
Mr. Cuellar, for introducing H.R. 5890 in the 110th Congress. This 
bipartisan bill, ``the Citizen and Community Preparedness Act of 
2008,'' would establish a community preparedness division within the 
Department of Homeland Security as well as create a Citizen Corps 
Program, in which the Secretary of Homeland Security would convene a 
meeting to bring key Government officials and stakeholders together to 
coordinate efforts around preparedness, planning, mitigation, response, 
and recovery for acts of terrorism and natural disasters. The American 
Red Cross supported this measure last Congress and, should the bill be 
reintroduced in the 111th Congress, we look forward to working with 
Representative Cuellar and Rogers and all the Members of this 
subcommittee to pass this important bill.
Partners in Preparedness
    As we have learned in recent years, there can be disasters of such 
magnitude that American Red Cross systems may not be adequate to meet 
the needs. Therefore, additional community partners must be developed 
to help with those challenges.
    At the Red Cross, we work with many nonprofit partners who have 
expertise in disaster response, such as the Salvation Army, Catholic 
Charities, LDS Church, and the Southern Baptist Convention. But we are 
also reaching out to other organizations who have not been 
traditionally involved in disasters. We work with them to develop and 
train volunteers, identify and staff shelters, and expand our ability 
to collect blood, especially in diverse communities.
    Current examples of these key relationships include:
  <bullet> A partnership with West Angeles Church of God in Christ, Los 
        Angeles, California (more than 25,000 members);
  <bullet> A partnership with First African Methodist Church, Los 
        Angeles, California (more than 19,000 members);
  <bullet> A partnership with Calvary Chapel Church, Chino, California 
        (more than 10,000 members);
  <bullet> A developing partnership with the Houston, Texas faith 
        community spearheaded by Congresswoman Sheila Jackson Lee (12 
        key faith leaders from various denominations).
    By reaching out to new groups, we can multiply the number of people 
who are prepared and will encourage others to be prepared. This is how 
we build the type of grassroots movement Secretary Napolitano 
envisions.
                               conclusion
    Chairman Cuellar, Ranking Member Rogers and distinguished Members 
of the subcommittee, thank you for allowing the American Red Cross to 
share with you our vision and showcase some of our outreach efforts as 
we continue to work toward fostering a culture of preparedness in our 
Nation. We look forward to the opportunity of further partnering with 
the United States Congress, other branches of government, the faith-
based community and other civic groups, non-profits and for-profits in 
carrying out this life saving preparedness message.

    Mr. Cuellar. Thank you very much, Ms. DeFrancis. Appreciate 
the work that the Red Cross does. Thank you.
    I would like to thank all the witnesses. I would like to 
remind each Member that he or she will have 5 minutes to 
question the panel.
    I also would like to recognize the Chairman of the full 
committee, Mr. Thompson. Thank you, Mr. Thompson, for being 
here, Chairman Thompson.
    At this time, I will recognize myself for 5 minutes for 
questions.
    You know, yesterday, I was talking to a gentleman named 
John D. Solomon. Actually, he is in the back over there. We 
went over several things. In fact the handout that I got into 
the record, I would ask each of you all to get a copy before 
you leave, because he talks about very insightful different 
things that I think we ought to be doing for this initiative 
that we are trying to complete.
    But one of the things that got my attention was when he 
asked, what does it mean to be prepared? Because we are all 
saying we have got to get citizens prepared, we have got to get 
communities prepared.
    Mr. Manning, just real quickly. I am going to go down the 
line just real quickly. What does it mean to you, being 
prepared?
    Mr. Manning. Mr. Chairman, that is a great point. I see the 
kind of two sides to that answer. One fundamentally for the 
individual, for the family is that they have taken those steps 
to prevent an event from becoming a disaster for that family, 
something as simple as having discussed where they can meet if 
they get separated, simple, simple things that they can do that 
may even be more simple and before gathering a kit and 
supplies, things so that they understand what to do, they have 
thought about emergencies before they happen.
    Then from the community preparedness side, the other side 
is gathering communities together to help each other and help 
their neighbors, things where we encourage and provide the 
tools necessary to community organizations to help their 
communities before Government can get in to provide that extra 
assistance.
    Mr. Cuellar. Okay.
    Mr. Jenkins, what do you think the minimal level of 
preparedness should be?
    Mr. Jenkins. Well, I agree with what Mr. Manning said. I 
mean, basically, absolutely knowing what risk that your area 
faces is not the same across the country, so what are the 
specific risks that I might face and what are the potential 
consequences for my family of that? Therefore, what are the 
steps that I can take in urging them to reduce the impact on my 
family of that? It is going to vary across the country though 
as to what that is.
    I also agree with Mr. Cuellar--you know, doing things to 
help your neighbors. I live in a co-op of 100 units, but we 
have a number of elderly people that live in my building. So we 
have a--everybody in the building has been assigned basically a 
buddy to one of those people to help them. Some of them have 
limited mobility in the case of a disaster and----
    Mr. Cuellar. Okay.
    Ms. Smith.
    Ms. Smith. Of course, we focus on individual readiness, as 
was mentioned by the previous two witnesses. In addition, we 
look at our regional assets. Now, whether it be equipment or 
talents--for instance, McAllen has a hazardous materials team 
that is available regionally in the event that we are needed.
    We also have a catalogue of all of our--equipment that we 
can use and deploy regionally. Then we get together regularly 
to train to do preparedness events, including a fair that we 
call Dare to Prepare that was really geared towards lower 
socioeconomic levels to make sure that we are reaching across 
all parts of our population.
    Mr. Cuellar. Okay.
    Ms. DeFrancis.
    Ms. DeFrancis. Thank you, Mr. Cuellar.
    We at the Red Cross go by three simple messages, and 
actually we adapted them from FEMA's, because we felt it was 
important to have coordinated messaging to the public so that 
everybody is on the same page saying the same thing. Basically, 
we say you are prepared when you get a kid, you make a plan, 
and you stay informed.
    Those three actions we find are important to continue to 
talk about with the public because it takes a long time to 
penetrate. We notice during disasters that we have a spike in 
on-line sales at our store for preparedness kits, so we know 
people are beginning to get that message, but it is important 
that we reinforce it again and again, and we need it to be 
simple.
    The other thing I would say is, yes, as we have talked 
about in communities--and certainly, the Red Cross is a part of 
forums on communities' preparedness--but we need to somehow 
break the attitude that disasters and emergencies won't happen 
to me and that, you know, if they do, someone else will take 
care of it. I think we need to work really hard to be able--to 
break that attitude if we are going to be a prepared Nation.
    Mr. Cuellar. Okay. I guess, you know, before you do 
anything, you have got to have a definition of the key word 
here. It is preparedness. That is important. Knowing where we 
need to go is--you know, what--I mean, what we are trying to do 
is important.
    Mr. Manning, what is--I know you are new in this, but what 
is your vision of what we ought to do to have citizens, 
communities, prepare? Where is FEMA going from here?
    Mr. Manning. Mr. Chairman, as you no doubt know and have 
indicated in your opening remarks that community and individual 
preparedness is a paramount importance to the administration, 
to Secretary Napolitano, Administrator Fugate, and I.
    Where we bring the agency forward on individual 
preparedness is, we have been taking really a whole-of-agency 
approach that it is not just a community preparedness division 
within the National Preparedness Directorate. It is not an 
organizational chart solution to the problem. It is something--
it is bringing the entire resources of the agency to bear on 
this problem.
    I see that there are two different ways we can approach 
this. What I hope to bring to my efforts is both focusing on 
the enhancement of individual resilience, providing the tools 
and information necessary to the individual and the family, to 
take those steps that will help prepare them, that will help 
them withstand severe events, be it something as simple as a 
power outage or as severe as a tsunami or an earthquake or a 
flood.
    At the same time, we continue our engagement with Citizen 
Corps with community leaders, with civic leaders throughout the 
country to bring together the partnership of State, local, and 
Federal Government with the community and civic organizations 
to reach the individuals, to identify those that are willing 
and able to volunteer their time to help their communities, 
give them an avenue to do so, and bring those resources to 
bear, amplify the efforts of Government in helping to protect 
and respond to the needs of their neighbors.
    Mr. Cuellar. Let me--my time is up, but let me just ask you 
this. Do you all have a strategic plan? Have you seen it?
    Mr. Manning. Mr. Chairman, the National Preparedness 
Directorate has an operating plan which we use as a strategic 
plan. It is not titled as such. However, in recognition of 
concerns raised by the GAO in a previous study, we are 
reformulating that as a strategic plan for a preparedness 
system and will be bringing the community preparedness 
initiatives inside that strategic plan going forward.
    Mr. Cuellar. Yes, my--I am a big believer in performance 
measures. I would like to see for you all to develop a--the 
vision, the goals, the objectives, and what you are going to 
measure, so we know if we are measuring success or failure. How 
long would it take you to get that done?
    Mr. Manning. Mr. Chairman, I don't know that I can give a 
real answer to that question at this time.
    Mr. Cuellar. Will you work with the committee? I would ask 
you to work with Ms. Smith, DeFrancis, Mr. Jenkins, and ask you 
to put some--I know you have got to go through your channels 
there, but I would ask you to work with a committee, also, 
because, again, if an agency or a department doesn't have a 
strategic plan, it is like a boat not knowing if we are 
steering to the left or right.
    I would like for you to work with the committee and, I 
mean, closely to see the strategic plan, the vision, the goals, 
the objectives, the performance measures, and what we are going 
to measure on that. I don't want to measure activity. I want to 
measure results. That is very important, because anybody--
usually the biggest mistake when people measure--put--measures, 
they measure activity. I am more interested in measuring for 
results on that, okay?
    Mr. Manning. Yes, sir.
    Mr. Cuellar. I would like for you to make sure you all 
share cards and work together and get some ideas from some of 
our partners here.
    At this time, I would like to recognize the Ranking Member 
for 5 minutes for questions.
    Mr. Rogers. Thank you, Mr. Chairman.
    I want to follow up on Mr. Manning's opening statement. 
When you made reference to FEMA's outreach to stakeholders, 
could you elaborate more on that outreach?
    Mr. Manning. Yes, sir. Administrator Fugate and I both came 
from having been State directors of emergency management and 
understand implicitly the need and the importance of working 
together, working collaboratively with everybody involved.
    Emergency management is inherently an intergovernmental, 
interdepartmental, community-wide initiative and effort. 
Specifically, the part of the--my title is deputy administrator 
for National preparedness, and it is not Federal preparedness, 
and it is not FEMA's preparedness. It is National preparedness. 
We cannot accomplish that without working closely--just as 
closely with our partners in the States and local communities, 
be it the city and municipal governments, or the civic leaders 
throughout the country.
    We can't accomplish that task without working with them as 
closely as we do with our own partners within FEMA and the 
Department and the Federal interagency.
    Mr. Rogers. As a part of that, I represent a very rural 
Congressional district, a poor, rural Congressional district. 
Most of my first responders are volunteers, volunteer 
firefighters or rescue squads, and my guess is that is probably 
pretty much the norm throughout America in most rural cities.
    Does FEMA have in a particular initiative to network with 
those volunteer units?
    Mr. Manning. I believe we do. We have a number of 
initiatives and a number of efforts where we work through 
stakeholder organizations, largely at the Federal level, 
through things--organizations such as the National Volunteer 
Fire Council, the National Emergency Management Association, 
International Association of Emergency Managers, that get to 
those communities.
    But specific to your point about volunteer firefighters, 
while we work closely with representatives with stakeholder 
organizations at this level, what we try to do is encourage and 
work through our partners at the State and local level to 
engage at those levels.
    I have a personal stake in that, having been a volunteer 
firefighter myself. I understand the limitations and concerns 
where the--in my experience, Government pushes out new training 
opportunities, but they're only offered between 8:00 and 5:00 
on a weekday when everybody is in work. So it is incumbent on 
us to find ways to provide the information, training, and 
resources to those that have chosen to dedicate their lives 
towards public service while earning their livelihoods in a 
different manner.
    Mr. Rogers. I have been urging the Center for Domestic 
Preparedness to--you know, they have got that ability to take 
that training on the road, to expand the number of teams and 
the trucks that they have, this tractor-trailer--because what 
you are talking about, most of these first responders are 
working somewhere near volunteers. The only way they are going 
to get this training is if you can bring it to them on the 
weekends, typically, or in the evenings.
    I would address Mr. Jenkins' question. He said that FEMA 
has got to decide what they expect. Before you are going to be 
able to achieve your goals, you have got to set those goals. Do 
you anticipate having a determination in any time in the near 
future as to what you are expecting to achieve, what your goals 
will be, so that GAO can then measure whether or not you have 
achieved them?
    Mr. Manning. I believe we do. I believe we are engaged in 
adapting our existing doctrinal ideas in operating plans into a 
strategic plan with goals and objectives, identifying actual 
outcome-driven performance metrics that we can actually see 
whether or not we have achieved what we are trying to achieve.
    One of the comments we have heard often is that one of the 
things we have measured in Citizen Corps, for example, is the 
number of Citizen Corps councils that have developed around the 
country, which is, to the Chairman's point, often about 
activity, rather than outcome.
    However, at that time, our goal at that point was the 
proliferation of avenues with which to reach communities, so 
that was an appropriate measure.
    Mr. Rogers. It is disappointing, though, from my 
perspective that you may not have shared the previous 
administrator's goals and objectives, but that FEMA should have 
in place, maybe before you and Administrator Fugate arrive, 
these goals and standards and metrics that GAO could come in 
and say that the organization is meeting those.
    So it is really kind of disappointing to find out that 
there aren't any that are being held out already. We have had a 
lot of disasters already. I will say, you know, in the last few 
years, FEMA has just done a great job of being ready for these 
incidents.
    Ms. DeFrancis, you talked about Anheuser-Busch helping with 
some preparedness initiatives. How much do you work with local 
businesses, particularly smaller businesses, to make sure that 
they are aware of what they need to do to be prepared for a 
disaster?
    Ms. DeFrancis. Well, Mr. Rogers, that is what this program 
is aimed at primarily, to work with smaller businesses who 
don't have the time or resources to develop an elaborate COOP 
plan and instead give them a way to self-assess and to measure 
themselves and to do it on a web-based tool that is very easy 
for them to do.
    We hope to really expand this out, as I said, at about 16 
different cities, but we will also be looking for companies 
like Anheuser-Busch to help support that, because we need the 
resources behind that to do it.
    But we know that small businesses are very eager, 
obviously, to take care of their employees. Their employees are 
like family to them. But they worry, particularly if they are 
ones with just 10 people, that they don't have somebody they 
can dedicate as the preparedness officer, but we have tried to 
make it really simple.
    Also, things that we produce--like these tear sheets I 
mentioned, those are very handy for small businesses to put up 
in their, you know, vending room or whatever. We work with 
small businesses a lot to try to get the message out, because 
we find that getting the message out through the workplace is a 
very effective tool of reaching people and families.
    Mr. Rogers. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. At this time, the Chair would like to 
recognize other Members for questions they may wish to ask the 
witnesses. In accordance with our committee rules and practice, 
I would like to recognize Members who were present at the start 
of the hearing, based on seniority of the subcommittee, 
alternate between Majority and Minority. Those Members coming 
in later will be recognized in the order of their arrival.
    At this time, the Chair recognizes the Chairman of the full 
committee, Chairman Thompson.
    Mr. Chairman.
    Mr. Thompson. Thank you very much, Mr. Chairman. I 
appreciate you having the hearing, and I welcome the witnesses 
to the subcommittee.
    Welcome, Mr. Manning. You come very highly recommended, and 
people sing your praises.
    Mr. Jenkins has produced a document listing some concerns 
about preparedness in a number of things. Have you had an 
opportunity to respond back to the report? Are you in the 
process of doing? If you do, can you share with the committee 
some of that?
    Mr. Manning. Mr. Chairman, I have not had the opportunity 
to see the full report. We have seen some of the draft 
conclusions and have provided the GAO with our answers and 
comments back and look forward to its publication in finality 
so I can get a full look at it.
    Mr. Thompson. So is there anything in the report that 
strikes you?
    Mr. Manning. Mr. Chairman, I can't say I fundamentally 
disagree with anything that was in the report. I think that 
there are very good points that are made. As far as identifying 
achievable outcomes and a strategic vision for how we are 
engaging with communities and individuals and the furtherance 
of preparedness.
    Mr. Thompson. So your testimony to the committee is that, 
under your direction, you will make sure that the shortcomings 
identified in the GAO report will be satisfied?
    Mr. Manning. Well, Mr. Chairman, I have not had the 
opportunity--it hasn't been finalized or published yet. I 
haven't seen the entire report, so I am not aware of the full 
breadth of the recommendations included in the report. But of 
what I am aware and what has been discussed so far in the 
hearing this morning, I am in agreement and will take action to 
resolve.
    Mr. Thompson. Well, the point that strikes me most is GAO's 
comment that FEMA still lacks an overall strategy for citizen 
and community preparedness. That is the issue.
    I am saying that if that is, in fact, irrefutable, are you 
prepared to move the ball to resolve that issue?
    Mr. Manning. Yes, Mr. Chairman.
    Mr. Thompson. Thank you.
    Ms. DeFrancis, some of us were directly involved in 
Katrina. Since the Red Cross is the only organization that is 
Federally chartered to address this issue, one of the concerns 
we heard is that the Red Cross did not reach out into the 
broader community and involved stakeholders.
    For instance, in the South at the time of Katrina, there 
was one organization that the Red Cross had an agreement with 
called the Southern Baptist Convention. As you know, so much of 
what we heard during Katrina is that wasn't good enough.
    Can you share the Red Cross's work since Katrina to resolve 
that issue?
    Ms. DeFrancis. Well, thank you, Mr. Chairman.
    We learned one large lesson in Katrina, which is the Red 
Cross can't do it all in a disaster of that magnitude and size, 
and that we need to reach out to partner organizations to help 
us do that. So since that time, we have worked to expand our 
partnerships in a number of areas. You know, in Mississippi, we 
have been working with the AME Church, with the NAACP, with 
HOPE Worldwide to train more, shelter administrators to make 
sure that they can get their congregations trained.
    This is the multiplying effect that is--we are only going 
to be successful when we do that. As you know, Warren Miller in 
your State has done a great job with helping us reach out.
    We have now more than 150 MOUs with other groups and 
organizations to work with us. Of course, those are only as 
good as how they are operational. We are continuing to work on 
that. But we feel that we have made an excellent effort to 
expand our reach into different communities and to really try 
to become a more diverse organization.
    The Red Cross doesn't have to run every shelter. We can 
give training, and the church or organization can run that 
shelter just as well as we can, as long as we are there to 
support them.
    So thank you for bringing that up, Mr. Chairman.
    Mr. Thompson. Thank you. The reason I did is in response to 
something the Ranking Member said. Those of us who live in 
rural communities many times get overlooked and, from a 
preparedness standpoint, much of the training and other things 
that is offered Mr. Manning is at the convenience of the 
trainer, rather than the trainee.
    So I am concerned that we prepare the model so that it can 
be most effective. If the cooperation and coordination between 
the agencies worked, then we are as a citizen and as a Nation 
better prepared. But I would suggest to you, in light of the 
GAO study, that there is significant work to be done and would 
suggest, Mr. Chair, that either a follow-up hearing or some way 
of measuring what is being done, I appreciate Ms. DeFrancis' 
comment about the MOUs are only as good as what you do with 
them.
    Because the last time we had testimony before the 
committee, staff did a sampling of organizations who had 
executed MOUs, and that was as far as the process had gone. So 
I would hope that, when staff do the next call around, the 
results will be better.
    I yield back.
    Mr. Cuellar. Thank you, Mr. Chairman.
    At this time, I would like to recognize Mr. Olson for 5 
minutes.
    Mr. Olson. Thank you very much, Mr. Chairman.
    I want to thank the witnesses for taking time out of your 
busy schedules to come and help enlighten us on the challenges 
we have going forward. I have a couple of questions. I would 
like to start out with Ms. DeFrancis.
    I have been struck by your comments about how the 
percentages of people who don't have a preparedness kit and 
some of the challenges we face there. How can we start to 
address the gaps in preparedness that have been identified in 
this National survey?
    For example, we know less than half the individuals 
actually have a preparedness kit set aside in their homes. As 
you mentioned there is sort of the mentality that it won't 
happen to me.
    In my district of Texas, we have sort of a corollary to 
that mentality, because one of our biggest challenges is 
hurricanes. We know they are coming. So people tend to have 
this mentality that, ``I will just get what I need as the storm 
is coming in,'' which as we know tends to create long lines. 
The Home Depots, the Best Buys are just sold out, the grocery 
stores, that kind of thing.
    So I am just wondering if you have any indications or just 
kind of give us your thoughts on a strategy we could use for 
increasing the percentage over the next few years, working 
together.
    Ms. DeFrancis. Well, thank you, Mr. Olson.
    Certainly, it is a very tough assignment, because, as you 
say, there is complacency and people wait until the last 
minute. In order to change behavior like that, it is going to 
take a lot of time and a lot of effort and a lot of resources, 
frankly, to really get people to pay attention, just like when 
we put in anti-smoking campaigns or anti-obesity campaigns. It 
takes a long time to change behavior.
    One thing we think is very important is that the messages 
be simple and that they be coordinated across all of our groups 
and agencies so we are not sending conflicting messages and we 
are saying the same thing and repeating it time and time again, 
which is important. We think we need multiple messengers, as 
was referenced. It can't just come from the Government, can't 
just come from the Red Cross.
    In fact, some research I have seen says that the person 
people listen to most on preparedness, whether they are adults 
or not, is their mothers. So we have to reach mothers. We have 
a mothers' guide for preparedness, as well.
    I think children are very effective in sending the message 
home to their parents. We run a Masters of Disasters program. I 
know in Mr. Rogers' statement, they have distributed a number 
of CDs and curriculum on masters of disaster. That teaches kids 
to be prepared, and they carry that message home.
    Sometimes I think we are going to have to have a little fun 
with this message, because, you know, preparedness can seem a 
little like eating your vegetables, but, I mean, we sent out an 
e-mail this year from Jamie Lee Curtis, who was our celebrity 
spokesperson on preparedness, and she told people that she was 
going to put in her preparedness kit chocolate and dental 
floss. Well, we got more people responding to that e-mail and 
opening that e-mail because it had a little humor to it.
    So it is tough. It is going to take more resources. 
Certainly, we thank this committee. We know that there is a lot 
of money that does go out to local and State entities to do 
this kind of work. We have been talking with your staff about 
ways that nonprofits could help access those funds more 
directly for the work that we do.
    But I think it is great that the Secretary of DHS has 
summoned us to this. I think it is great that everybody is here 
talking about it so we can, you know, really get behind a good 
program.
    Thank you.
    Mr. Olson. Thank you for that answer. I know we here on the 
committee look forward to working with all of you all in the 
Department to get this program even better than it is right 
now.
    Question for Ms. Smith. What challenges have you faced 
there in McAllen in getting the Citizen Corps program up and 
running in the committee? What challenges have you faced 
maintaining an active council, once you get it up and running? 
Again, I think you said you had seven teams funded with 
$20,000?
    Ms. Smith. McAllen has one team. Regionally, we have seven. 
We have a very active program within our own city and 
regionally. The cog is about--is embarking on nine new classes 
with primarily church organizations. We have a waiting list. 
Our trouble is primarily with trainers.
    We use our own staff right now, which we are happy to do, 
but sometimes that is a challenge. We think, also, a better way 
to engage people would be to make those people who have gone 
through this sort of program trained in order to teach.
    There is a train the trainer program. Again, going back to 
the number of hours in the day and when that is done, we have a 
challenge, also, of making that happen within the time that the 
volunteer has available nights and weekends.
    We also try to keep the volunteers engaged in between--
natural disasters primarily is what we work on. So we involve 
them in our preparedness campaigns and our fairs. We meet with 
them at least 2 or 3 times a year and just let them know that, 
you know, we do appreciate their volunteer service and we want 
to keep them engaged in the process.
    Mr. Olson. Thank you for that answer.
    I see that I am out of time. Thank you again for what you 
do. That is one of the fastest-growing parts of our State, and 
I appreciate all you do.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Olson.
    At this time, I will recognize, for 5 minutes, Mr. 
Pascrell, from the great State of New Jersey.
    Mr. Pascrell. Mr. Chairman--I look to what our Chairman and 
the nature of his questions--and I am glad he referred to 
Katrina, which is still a traumatic experience for this 
country, because it really was a mirror to the underbelly of 
the United States of America, phantom people who didn't exist 
in our minds, as we do the business of the Congress, for sure.
    It was like an onion. One layer at a time, each day being--
cover of which being peeled off, getting towards the center and 
never getting to the center.
    There was a book that just came out 4 months ago, which was 
for at least 3 weeks on the best-seller list. It was a novel. 
It was Zitoun--Z-i-t-o-u-n--about the experience of a 
particular family during Katrina and how, through that family, 
we failed in response. We do not need a Katrina to tell us how 
we have failed. Unfortunately, it just was a mirror to our 
failures.
    So, Mr. Manning, we can all agree on this panel that we 
have a long way to go before we can feel comfortable that the 
American people are equipped and capable of dealing with a 
large-scale disaster. What I am particularly concerned about is 
the state of preparedness in different parts of America.
    I come from a district that is centered on a dense urban 
area, is then surrounded by sprawling suburbs, goes all the way 
out to waterways, that consistently cause mass flooding in a 
number of residential areas. It is probably ethnically, 
culturally probably one of the top five diverse districts in 
the country.
    Each of these environments present a different challenge, 
in terms of preparedness, and that is only in one district. I 
wonder how we deal with the different challenges we face 
throughout this Nation. What I would like to know from you is: 
How does FEMA train through its programs for these different 
environments we have to confront? Are we simply giving the same 
lesson everywhere, or do we have a real targeted strategy?
    Mr. Manning.
    Mr. Manning. Thank you, Mr. Pascrell.
    That is exactly, I think, the--you hit on the head one of 
our shortcomings in the way we have--we as a Nation have been 
undertaking community preparedness for a very long time. We do 
have National efforts where we use consistent messaging and 
consistent plans and programs, because we do know that 
consistency is useful, consistency is what is required to get 
people to recognize and take in a message.
    But that said, the specific actions that are recommended 
are as heterogeneous as the diversity of our Nation. It is 
understanding with specific threats faced by a community, by a 
neighborhood, by a city or township, by understanding the 
specific threats that face a household, that is required before 
you know what steps to take to mitigate those threats.
    What we have tried to do over the years is engaging local 
communities, providing the resources and tools to the local 
communities to help them more specifically deal with the 
threats facing those communities so that we don't have a 
particular one set of recommendations that we at the Federal 
level try to enforce around the country and try to give the 
tools to local communities.
    Ready, for example, as the campaign, includes a diverse 
number of recommendations, diverse set of tools to apply to 
various conditions. We try to encourage local governments to 
take those and adapt them.
    My experience, for example, in the rural New Mexico 
mountains is that some of the messaging, some of the tools that 
were provided me as a community member that were geared towards 
hurricane preparedness were less helpful, for example, than 
something that was geared more towards wildfires or severe 
weather.
    So we have to take that into account, of course, in our 
messaging. We have to recognize the socioeconomic diversity of 
our populations and include in our messaging things that 
further preparedness beyond, essentially, the acquisition of 
material, recognizing that, while we say--and it is absolutely 
critical to have a kit and a plan and supplies and be prepared, 
that there are families, there are households that simply may 
not know where they are getting dinner tonight, much less 3-
day's-worth of food and water. We have to acknowledge that, 
recognize that, and find solutions in ways to help those 
households and those communities, as well.
    Mr. Pascrell. Thank you very much for your answer.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Pascrell, for your questions.
    Mr. Manning, I am going to ask you in about 2 weeks to come 
back to us, give us--even if it is a rough draft of a strategic 
plan. I would ask you to contact Mr. Jenkins and Ms. Smith and 
Ms. DeFrancis. They are not going to write it for you, but 
they--I would like to get some input from them.
    Now, when you were in New Mexico--I know I did my 
dissertation on performance-based budgets, and I recall that 
New Mexico does have strategic planning. Am I correct on that?
    Mr. Manning. Yes, sir.
    Mr. Cuellar. Right. You had one at your former job, didn't 
you?
    Mr. Manning. Yes, Mr. Chairman.
    Mr. Cuellar. Okay. So here is a great opportunity. There is 
really not much in place. I think this is a great opportunity 
to mold this into, I think, something, you know, using your 
past experience at the state level.
    Again, I would ask you to come back. I will ask the 
committee to get you back here so we can follow up on this. So 
I really--even if it is a rough draft, but I think the rough 
draft is better than nothing at all. But, you know, you have 
got a lot of experience at the State level, and I remember New 
Mexico does have a plan from what I recall.
    I don't have any questions.
    Mr. Rogers, do you have anything?
    Mr. Rogers. I have a comment.
    Mr. Cuellar. Okay, comment. I recognize Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I just wanted to tell Ms. DeFrancis, your organization did 
a great job in my district in February of this year when we had 
a tornado touch down below Oliver. Just the community was very 
pleased with how Red Cross reacted and helped us. Thank you 
very much for that.
    Ms. DeFrancis. Thank you, Mr. Rogers. We appreciate that. 
Our volunteers in your State are the ones that deserve the 
credit for that.
    I also want to--just to follow up with your question, when 
you asked about working with small businesses, I should have 
mentioned that we have met with the Chamber of Commerce. We 
have met with the National Federation of Independent Business. 
That is at the National level, and we hope to push that down 
through our chapters at a local level.
    Mr. Cuellar. Okay. We are going to go ahead and conclude, 
but let me--again, I want to thank all the witnesses for being 
here.
    Ms. DeFrancis, I appreciate what the Red Cross does.
    Ms. Smith, I appreciate what you all do in McAllen, in 
south Texas, Mr. Jenkins, of course, GAO, and, Mr. Manning, I 
think you have got a wonderful job and I think a great 
opportunity to really shape it the way you think it should be 
done, so we look forward to working with you.
    We are going to follow up. You know, I am so interested in 
bringing in technology, but there are so many pieces of new 
technology that is available out there, and a lot of ideas, you 
know, the ideas that you brought up--the pillowcase, I think 
that is pretty neat. The code red, I think, that you all have 
in McAllen and other ideas, there are a lot of ideas.
    I guess the whole thing is, how do we put all of this 
together? So we will set up another meeting. I really want to 
follow up on this.
    So I want to thank all the witnesses for their testimony 
and the Members for the questions. The Members of the 
subcommittee might have additional questions for the witnesses. 
We ask you to respond as soon as you can to those questions in 
writing.
    Hearing no further business, this hearing is adjourned. 
Thank you very much.
    [Whereupon, at 11:10 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

      Questions From Chairman Henry Cuellar for Timothy W. Manning
    Question 1. The 2009 FEMA Preparedness Survey found that 81 percent 
of respondents believe that prior planning would help them handle a 
natural disaster. But just 60 percent believe prior planning would help 
them respond to an act of terrorism. How can FEMA address the 
perception that preparing for a terrorist attack is not as valuable or 
effective as preparing for a natural disaster?
    Answer. The 2009 FEMA Preparedness Survey results indicated that 
individuals' confidence in their ability to respond to a disaster and 
the perception that preparing would make a difference (response 
efficacy) varies significantly by disaster type. Outreach, social 
marketing, and risk communication strategies should take into account 
that motivators and barriers to undertaking preparedness activities are 
different for different types of hazards. Since perceptions of 
susceptibility were key predictors for natural disasters, hazardous 
materials accidents, and disease outbreaks, outreach efforts should 
specifically educate people about their susceptibility to these types 
of disasters. FEMA continues to work on honing its various messaging 
initiatives.
    For terrorist-related threats, communication strategies that seek 
to increase preparedness must address individuals' lack of familiarity 
with these types of threat and the appropriate response measures as 
well as low levels of perceived response efficacy. Strategies should 
educate individuals in basic understanding of and preparedness measures 
for explosions, dirty bombs, improvised nuclear devices, and release of 
chemical agents, emphasizing the effectiveness of advance preparation 
and skill building in helping to make a difference in even the most 
severe emergencies. Because practicing response protocols is critical 
for effective execution, greater emphasis is needed on drills and 
exercises for these less well understood hazards conducted at the 
community level, through social networks including households and 
neighborhoods, the workplace, schools, and faith communities.
    In May 2010 FEMA, in partnership with the State of Nevada, will 
hold National Level Exercise 2010 based on the detonation of an 
improvised nuclear devise. This exercise provides a platform from which 
public messaging can dispel the Cold War perceptions of a nuclear 
threat and provide an accurate picture of today's terrorist landscape. 
Information on realistic ways to survive such an attack could help 
dispel the perception that there is nothing that can be done to prepare 
for a terrorist attack.
    Question 2. The Post-Katrina Emergency Management Reform Act of 
2006 moved the majority of the preparedness functions for acts of 
terrorism and natural hazards to FEMA. In addition, the 2007 National 
Preparedness Guidelines listed citizen preparedness as a National 
priority. Yet GAO's testimony suggests that FEMA still lacks an overall 
strategy for citizen and community preparedness. Do you agree with 
GAO's conclusion? Why or why not?
    Answer. Improving personal and community preparedness is an 
inherently complex challenge requiring individual behavioral change and 
significant organizational and community cultural change. The strategy 
for achieving these changes must include partnerships and shared 
responsibility across our society in both Government and 
nongovernmental organizations. Determining causal correlations is also 
problematic. Nonetheless, FEMA is implementing a National strategy 
coordinated with partners and a multi-pronged approach to assess 
impact.
    First, FEMA's National Preparedness Directorate (NPD) is leading an 
agency-wide approach to developing an integrated National strategy and 
performance metrics to assess community preparedness. This approach 
identifies preparedness objectives in four areas: (1) Integrating 
community preparedness and resilience in all Government policy and 
guidance to support local implementation; (2) establishing effective 
National partnerships and supporting local collaboration among all 
sectors through all phases of emergency management; (3) identifying and 
developing tools and resources for local implementation; (4) developing 
comprehensive research agenda and ensuring all strategies are research-
based and evaluated for effectiveness.
    This strategy builds on continuing work such as the National 
Preparedness Guideline and the Common Target Capability for Community 
Preparedness and Participation, the Nation-wide network of State, 
Tribal, and local Citizen Corps Councils and volunteer programs, and 
research. FEMA's Community Preparedness Division conducts primary 
research through National household surveys, evaluates research 
conducted by others, develops behavior change models, and solicits 
input from leading researchers in the field to develop new tools and to 
improve the identification of valid metrics for preparedness and 
indicators for community resiliency. As part of the continuing work to 
improve quantitative and qualitative information and support for local 
preparedness, FEMA will be launching two web-based efforts in 2010. 
FEMA will launch a new on-line registration tool for local Citizen 
Corps Councils and CERT Programs to provide better data collection on 
local partnerships and to increase our understanding of local activity. 
FEMA also will be expanding the collection of good stories from around 
the country to capture best practices and concrete successes.
    Question 3. Does FEMA's National Preparedness Directorate have a 
strategic plan in place? If not, when and how do you intend to develop 
a strategic plan for the directorate?
    Answer. FEMA/NPD currently has an Operating Plan, which is updated 
annually and outlines priority goals, objectives, and performance 
measures for the implementation of Post-Katrina Emergency Management 
Act-directed and other key preparedness initiatives (i.e., National 
Exercise Program, community preparedness, Comprehensive Assessment 
System, etc.). The Operating Plan aligns with FEMA's current Strategy.
    The Quadrennial Homeland Security Review is concluding, and a 
review of Homeland Security Presidential Directive/HSPD-8 recently 
began, which will significantly influence NPD's approach to the 
development and content of a Directorate Strategy.
    Question 4. What are the challenges to getting citizens prepared 
for a disaster and how can FEMA, working with its partners, take steps 
to address these challenges?
    To what extent do social groups, such as neighborhoods, the 
workplace, schools, and faith communities, motivate people to become 
prepared? How can the emergency management community better leverage 
these groups to improve individual readiness?
    Answer. One of the primary challenges to getting citizens prepared 
is their high expectation for help from emergency responders in the 
event of a disaster. FEMA is working with its partners, including 
emergency management and responders, to create and disseminate messages 
that emphasize the importance of self-reliance and convey a more 
realistic understanding of emergency response capacity. Messaging 
speaks to a shared responsibility and stresses that everyone has a role 
to play in preparedness and response. Both the Secretary of DHS and 
FEMA's Administrator are providing a strong National voice on this 
message.
    Research indicates that individuals also expect to rely heavily on 
their social networks for information and support during critical times 
of their lives. The 2009 Citizen Corps National Survey findings 
indicate that the majority of individuals (70%) expected to rely on 
their household members in the event of a disaster and a little less 
than half (49%) expected to rely on others in their neighborhood. In 
2009, 3 in 10 individuals (34%) reported talking about getting prepared 
with others in their community. This data confirms that it is vital to 
involve social networks in promoting and motivating individual and 
community preparedness. Local emergency management should partner with 
local community leaders when creating or revising any community 
preparedness and response plans. These partnerships will ensure various 
constituent needs are addressed in the planning process and throughout 
the disaster cycle. Engaging trusted leaders to participate in the 
process and assist with disseminating important information will also 
ensure improved understanding of shared responsibility, an increase in 
individual readiness, and greater compliance with preparedness 
directives.
    Question 5. How do you envision the Ready Campaign complementing 
State and local emergency awareness efforts?
    Answer. Citizen preparedness requires a team effort to effect the 
culture change that will move individuals and communities towards 
greater preparedness, and the Ready campaign is only one part of that 
team. The role State and local officials and emergency awareness 
efforts play in building citizen preparedness and engaging individuals 
is critical.
    The Ready Campaign and the Advertising Council have designed their 
public service advertising (PSAs) in a format that is easy to localize. 
This means State and local governments can ``tag'' the Ready PSAs with 
their logo and URL to direct residents to their own local emergency 
preparedness websites. The Ad Council can assist governments in 
localizing the PSAs and securing local donated media commitments. This 
allows these partners access to top-notch, strategically-driven 
creative advertising, based on National consumer research for a very 
minimal cost. Approximately 17 cities, States, and territories as well 
as two military branches have localized the Ready Campaign over the 
past 3 years. The Ready Campaign will continue to work with State and 
local governments on localizing these PSAs.
    The Ready Campaign will also continue to provide unique partnership 
opportunities to State and local emergency efforts. One example of such 
a partnership is with Discovery Education that reaches K-8 classrooms 
across the country. ``Ready Classroom'' provides elementary and middle 
school teachers with resources to integrate natural disaster 
preparedness information into their curriculum. The program is an 
extension of Ready Kids.
    The Ready Campaign will continue to provide tools and materials 
(i.e., PSAs, publications, National Preparedness Month, Minor League 
Baseball and Resolve to be Ready toolkits, etc.) to State and local 
emergency efforts, many of which are connected to or compliment local 
and State Citizen Corps Council efforts to further leverage efforts of 
others. According to the 2008 State Homeland Security Directors Survey 
conducted by the National Governors Association Center for Best 
Practices (NGA Center), ``Approximately 90 percent of respondents 
reported using at least some of the Ready Campaign's tools and 
resources. More specifically, 83 percent of survey participants employ 
the Ready Campaign's family emergency plan and 75 percent use the 
emergency supply kit.''
    Question 6. The FEMA 2009 Preparedness Survey found a direct 
relationship between income and preparedness. Households making more 
than $50,000 annually were much more likely than less affluent 
households to have taken steps to prepare for a disaster. Given that 
this gap revealed itself during Hurricane Katrina, what steps can FEMA 
and the emergency management communities take to ensure individuals at 
all income levels are taking the steps necessary to prepare for a 
disaster?
    Answer. FEMA has been conducting research on the status of disaster 
awareness and emergency preparedness in socially and economically 
disadvantaged households and communities through the Emergency 
Preparedness Demonstration Program. FEMA will send a final report to 
Congress by the end of the year to summarize the research with the goal 
to design and implement demonstration projects to improve awareness and 
preparedness in these households and communities. Early findings 
indicate the importance of local outreach to engage and prepare this 
population segment. Engaging leaders from these communities on local 
Citizen Corps Councils will be a critical element of this approach.
    In addition, institutionalizing preparedness education, training, 
and drills in the workplace, schools, and other social networks will 
ensure reaching a greater cross-section of the public. Based on the 
2009 Citizen Corps Survey, of the respondents who reported taking 
preparedness training within the past 2 years, 49% indicated they took 
the training because it was mandatory for their job or school. In 
response to the Post-Katrina Emergency Management Reform Act of 2006, 
FEMA is also developing training to strengthen and extend mass care and 
emergency assistance to meet the critical needs of less affluent 
households under Emergency Support Function 6.
    Question 7. FEMA's 2009 Preparedness Survey found that the high 
expectation of help from first responders within the first 72 hours of 
a disaster is a big reason why not enough people are preparing for a 
disaster. How can FEMA and emergency managers at all levels of 
government, as well as its partners like the Red Cross, begin to change 
this expectation?
    Answer. FEMA research from the 2009 Citizen Corps Survey on 
Community Preparedness found 30 percent of individuals indicated that a 
primary reason they had not prepared was because they believed that 
emergency personnel would help them in the event of a disaster. 
Further, 61 percent of participants indicated they expected to rely on 
emergency responders in the first 72 hours following a disaster.
    FEMA, emergency managers, and partners, need to develop messaging 
that emphasize the need for all to share in the responsibility of their 
health and safety in a disaster, particularly in large-scale events, 
and that emergency responders will not be able to reach those impacted 
immediately. FEMA, in coordination with State and local government and 
non-governmental partners, will continue to work together to provide 
information directly and to the media on what services individuals can 
realistically expect in the first 72 hours and offer guidance on how 
individuals can prepare for an event given the likely capacity of 
emergency personnel to respond. This effort will go hand-in-hand with 
outreach on local threats, community emergency protocols, local alerts 
and warnings, and information on classes and training offered in the 
local area or on-line. As previously referenced, the Secretary and 
administrator's emphasis on shared responsibility contributes the 
National voice to this critical message.
    Question 8. The FEMA 2009 Preparedness Survey report indicates a 
low rate of individual participation in evacuation and shelter-in-place 
drills. How are Citizen Corps and the Ready Campaign geared toward 
improving participation in drills and exercises?
    Answer. The FEMA Citizen Corps National Survey found only 4 in 10 
individuals has participated in a workplace evacuation drill, and fewer 
than 3 in 10 (27 percent) participated in a workplace shelter in place 
drill. These numbers drop dramatically when talking about home-based 
drills. Only 14 percent of individuals Nationally participated in a 
home evacuation drill and 1 in 10 in a home shelter-in-place drill. Of 
the 91 percent who had a household plan, 26 percent had practiced home 
evacuation and 19 percent practiced sheltering in place.
    Citizen Corps is geared towards improving participation in drills 
and exercises both as an advocate and as a provider of tools for local 
use. The membership of Citizen Corps Councils across the country 
provides an effective outreach network to convey the importance of 
experiential learning through training and drills at the local level. 
Local Citizen Corps Council educational outreach includes local 
businesses and employers, schools and educational organizations, 
nonprofit organizations, faith-based groups and neighborhood groups and 
homeowners associations. In coordination with local emergency 
management, public health, law enforcement, and fire services, 
expanding drills and exercises through these local businesses and 
community organizations is a critical strategy for increasing drills 
and exercises for individuals and families.
    Additionally, Citizen Corps works with partner programs such as 
Neighborhood Watch and Community Emergency Response Teams to build on 
their core missions to include emergency preparedness and family and 
neighborhood planning, drills, and exercises.
    Question 9. The FEMA 2009 Preparedness Survey found that men 
reported greater levels of preparedness and confidence in their 
abilities to handle an emergency situation than women. How can FEMA and 
the emergency management community address this gender gap?
    Answer. To be effective, preparedness outreach needs to address the 
specific motivators and barriers for the targeted audience. FEMA's 
research and the research community are beginning to assess a more 
refined profile of these attributes for a range of demographic 
profiles. This will enable us to develop more precise strategies for 
reaching women as well as other critical population segments.
    While our research finds that men have greater levels of confidence 
in their ability to handle different disasters, they are less likely to 
report needing help in an evacuation. Men are significantly more likely 
to have supplies in their workplace. There were no significant 
differences relative to having supplies at home, having a family plan, 
or participating in drills. Women on the other hand are more likely to 
hold attitudes that our research shows support preparedness; for 
example they feel that preparation will help them handle a natural 
disaster and will look to rely on household members and people in their 
neighborhood. As we look to identify motivators to preparedness 
planning we believe that women are a critical target audience for our 
work. Since women also tend to be very involved in community networks 
such as schools and faith-based organizations, increased partnership 
for education and training through these organizations and trusted 
leaders is a promising strategy.
    Question 10. The Citizen Corps program was initiated by President 
Bush after September 11 and has not been authorized by Congress. What 
changes, if any, do you intend to make to the program?
    Will FEMA continue to operate the Citizen Corps grant program under 
the Homeland Security Grant Program? Why or why not?
    Answer. The Citizen Corps program is a component of community 
preparedness. Community preparedness continues to be a National 
priority as communities, families, and individuals are impacted daily 
by natural and man-made disasters. Over time Americans have come to 
depend on local-level responders when faced with an emergency. The new 
message, and eventual cultural shift, is one that redirects the 
preparedness focus towards enhanced personal preparedness through the 
community and ultimately, through each individual that will drive a 
societal response. This shift will highlight certain principles such as 
preparedness is really very much about personal safety as a more 
familiar term and activity. Many Americans understand the concepts, 
message, and goals of personal safety and that familiarity and the 
connection back to personal preparedness may lead to a more clear 
understanding of the role they play in personal preparedness.
    This approach diverges from an overriding emphasis in the past on 
organizational preparedness to one focused on prepared citizens and the 
deep reserve of community power they represent.
    Question 11. For the last several years, the administration has 
requested, and Congress has approved, a $15 million budget for Citizen 
Corps. How much of this funding has been used for grants to localities 
versus Citizen Corps program activities within FEMA? With Citizen Corps 
being one of the main tools FEMA has to increase the level of 
preparedness in communities, is the program funded adequately to 
perform this task?
    Are there other FEMA grants that States and localities can use to 
foster individual preparedness? If so, how much funding has 
historically been used for citizen preparedness programs?
    Answer. The entire Citizen Corps Program (CCP) appropriation is 
distributed as grants through the Homeland Security grant program. In 
addition, because citizen and community preparedness is integral to 
National preparedness, funding from multiple FEMA homeland security 
grants is available for State and local jurisdictions to achieve this 
mission. Ten of the fourteen homeland security grant programs allow 
recipients to use the funding to support individual and community 
preparedness, including the State Homeland Security Grant Program, the 
Urban Area Security Initiative, and the Regional Catastrophic 
Preparedness Grant Program.
    Although there is not a single grant project category that can be 
used for tracking grant funding for citizen and community preparedness, 
an estimate could be determined by reviewing projects that were funded 
to establish or enhance: (1) Citizen Corps Council, Partner, and 
Affiliate activities, (2) citizen preparedness outreach and education, 
(3) citizen training and exercises, or (4) volunteer initiatives.
    From 2004 to 2008, the Department's Homeland Security Grant Program 
(HSGP) has provided over $268 million in support to State and local 
government community preparedness efforts. Of this amount, 
approximately $35 million has been directed by the Department to 
support Citizen Corps activities. The remaining $263 million has been 
provided at the discretion of States and localities from their broader 
HSGP awards.
    Question 12. On the Citizen Corps program's website and in much of 
its literature, the claim is made that thousands of Citizen Corps 
councils exist, providing coverage for 79 percent of America's 
population. How does FEMA know whether it has an accurate number of 
councils recorded, and therefore, an accurate calculation of the 
percent of Americans that are ``covered'' by registered councils?
    What are the mechanisms or processes by which FEMA stays informed 
to the number of Citizen Corps councils and their activities?
    Answer. The Homeland Security grant program guidance designates 
State officials with the responsibility to maintain the information on 
the Citizen Corps National website for Citizen Corps Councils and CERT 
Programs within their State. When the new online registration process 
is launched in 2010, FEMA will work with the States to reconfirm 
Council data. The population served calculation is based on the Council 
or CERT programs self-defined jurisdictions cross referenced to 2000 
census data.
    Each FEMA region has a community preparedness staff person or 
contract personnel assigned the job of providing technical assistance 
and guidance to Citizen Corps Councils and partner programs. To stay 
informed of Citizen Corps Council activities, the FEMA Regions maintain 
routine contact with the State Citizen Corps Program Managers, and hold 
regular conference calls and meetings. Additionally, local communities 
are encouraged to send information directly to the National program 
office via email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8bbb1acb1a2bdb6bbb7aaa8ab98bcb0abf6bfb7aef6">[email&#160;protected]</a> The Lessons Learned 
Information Sharing website also includes a community preparedness 
portfolio of good stories and best practices. In 2009 FEMA announced 
the first National Citizen Corps Achievement Awards which drew over 100 
submissions from Citizen Corps Councils around the country 
demonstrating exceptional achievements in community preparedness.
    Question 13. The Fire Corps program is one of the Citizen Corps' 
partner programs and is operated by the National Volunteer Fire Council 
(NVFC). What services do the NVFC offer to FEMA in managing Fire Corps?
    What are the goals of the Fire Corps program nationally, and how 
does FEMA determine whether the goals are being met?
    Answer. The NVFC administers all facets of the Fire Corps program 
from providing the staff necessary to operate the program including 
managing the budget and creating resources and tools to help 
departments implement the program. Some examples of tools and resources 
NVFC has created are Department Fire Corps Starter Kit, Fire Corps 
Liability Guide, and Fire Corps Toolkit for Citizen Corps Councils.
    Additionally, NVFC provides marketing and communications services 
for the program and works with Fire Corps' many partners such as the 
International Association of Fire Chiefs, International Fire Service 
Training Association, our fellow program partners (VIPS, CERT, etc.) 
and more. NVFC maintains a database of registered Fire Corps programs, 
the Fire Corps State Advocate Network, manages 1-800-FIRE-LINE which 
connects volunteers with Fire Corps, and maintains the Fire Corps 
website. NVFC also provides a vital connection to the fire service and 
49 State fire associations through its own membership network.
    The Fire Corps Program goal is to increase the number of Fire Corps 
programs to build capacity for fire and emergency service departments 
of all types (career, volunteer, and combination) by providing the 
citizen support. Fire Corps works to achieve this goal by creating 
resources and educating departments on successful implementation of the 
program. Fire Corps numbers (of registered programs) are regularly 
reported to FEMA as well as progress reports on other program 
initiatives. Fire Corps currently has 933 programs Nation-wide (as of 
10/26/09).
    Question 14. Are you confident that FEMA has an accurate count of 
the number of active Fire Corps chapters across the country? What 
processes do you have in place to ensure that National Volunteer Fire 
Council's directory of local and active chapters is accurate?
    Answer. FEMA has an accurate count of all registered Fire Corps 
programs, including new start-up programs and established citizen 
volunteer programs. As is the case with all of the Partner Programs, 
there are occasionally programs that register that may then become 
inactive due to staff turnover or other challenges at the local level. 
Fire Corps is working to identify inactive programs through the State 
Advocate Network; the network are individuals representing Fire Corps 
at the State level reaching out to local programs to identify those 
that are active and notifying the National Citizens Corps office of 
those that are inactive. The National Citizen Corps office then reaches 
out to programs believed to be inactive to confirm their status and 
assess whether they should remain in the database. The NVFC also sends 
out periodic reminders to update program profiles in an effort to 
maintain the most accurate records possible.
    Question 15. The Community Emergency Response Teams or CERT teams--
is one of Citizen Corps partner programs. What are the goals of CERT 
teams Nationally, and how does FEMA determine whether the goals are 
being met?
    Answer. The goals of the Community Emergency Response Team (CERT) 
Program are to institutionalize the role of community members as 
civilian responders during widespread emergencies and to create an 
additional response asset for local emergency response agencies. 
Assessing our success in achieving these goals is difficult. However, 
the rapid growth in the number of local jurisdictions that have 
established CERT programs, an average of 17% annually since 2004, as 
well as the successful introduction of CERT training in businesses, 
high schools, and on college campuses indicates that both goals are 
being met. Currently, there are 3,374 registered CERT programs Nation-
wide (as of 10/26/09). In addition, the National CERT Program office 
established a process in July 2008 for local jurisdictions to submit 
reports on their use of local CERTs during emergencies. On average, 
eight activations of local Teams in actual local emergencies across the 
country are reported each month.
    Question 16. The administration requested just $2.5 million for the 
Ready Campaign, which seems to be a low amount for a National public 
awareness campaign. What is the basis for the administration's budget 
request and does it provide FEMA with the resources necessary to meet 
the goals of the Ready Campaign?
    Answer. The campaign has historically requested between $2 and $4 
million. The higher levels of funding were in the early years of the 
campaign to fund the start-up of ready.gov, as well as the Ready 
Business and Ready Kids campaigns. Now that those efforts have been 
established, Ready is able to continue its efforts with a $2.5 million 
budget and leverages support from being a part of the Office of 
External Affairs as citizen preparedness messages are underscored 
across all FEMA communications and outreach efforts. This level of 
funding has allowed the Campaign to successfully reach millions of 
Americans through many different opportunities including public service 
advertising (PSAs), collateral materials, public and private sector 
partnerships, National Preparedness Month, and other outreach efforts. 
Specifically, the campaign is able to utilize the strong relationships 
with its State and local partners to promote its message. More than 15 
territories, States, and localities have localized the National 
campaign and PSAs for their local efforts. In addition, through our 
work with the Advertising Council, the campaign has been able to garner 
more than $823 million in donated media support. The campaign will 
continue to aggressively and creatively use the funds obligated by 
Congress.
    Question 17. Has FEMA evaluated--or have plans to evaluate--the 
impact of the H1N1 influenza pandemic on individual preparedness?
    Answer. The FEMA National Citizen Corps Survey garners responses to 
four different types of disasters: Natural hazards, terrorist acts, 
hazardous materials accidents, and severe disease outbreaks. This 
allows us to analyze important differences in knowledge and attitudes 
relative to these different hazards both within each survey as well as 
over time.
    Because the 2009 Citizen Corps survey was being fielded during the 
H1N1 outbreak we were able to conduct an analysis of responses prior to 
the H1N1 outbreak and then in the initial weeks after the news coverage 
of H1N1 began. The data shows that individuals did perceive that a 
disease outbreak would be more likely in their community and that its 
impact would be more severe, especially for individuals with children 
living in the home.
    Unfortunately these perceptions did not translate into immediate 
behaviors of preparing supplies, creating family plans, or knowing 
community plans. We do note that in a question added after the H1N1 
outbreak, while media was a primary source of information, individuals 
also received information on H1N1 from their social networks including 
workplaces (24%), schools/child care (21%), health care provider (19%), 
faith-based organizations (7%), and neighborhood associations (4%).
    We will continue to monitor the effect of H1N1 in our next fielding 
of the survey. We also have a database of surveys that are publicly 
available and will continue to assess findings from other surveys that 
support our work to increase individual and community preparedness.
    Question 18. How is FEMA utilizing social networking tools, such as 
Facebook and Twitter, to promote citizen preparedness?
    Answer. Community preparedness is integrated into FEMA's overall 
social media strategy and usage. Specifically, FEMA's Facebook, 
YouTube, and Twitter pages regularly contain preparedness messages as 
well as Citizen Corps and Ready Campaign information. In addition, the 
Ready Campaign has a preparedness widget and an email subscription 
service that has more than 35,500 subscribers. Both Ready and Citizen 
Corps maintain and regularly update Twitter accounts. The Ready 
Campaign has more than 4,800 followers and Citizen Corps has 
approximately 1,000. Furthermore, the Community Preparedness Division 
provides personal and community preparedness information updates via 
two RSS (Really Simple Syndication) feeds, three Citizen Corps widgets, 
and an email subscription service that currently has over 45,500 
subscribers. The Community Preparedness Division continues to work with 
FEMA External Affairs to identify other means of social networking 
communication that can be used to further involve Citizen Corps 
Councils, partners, and affiliates, and the general population. Future 
development plans include free, on-line preparedness webinars and a 
Citizen Corps Blog and Discussion Forum. Preparedness publications will 
also be available to the public to read and download on Google Books.
    Question 19. Mr. Manning, could you please outline the steps that 
DHS, and FEMA specifically, are doing to work with the hospitality 
industry on preparedness issues? In Las Vegas, we have more than 
450,000 hotel rooms, with the potential for hundreds of thousands of 
new visitors each day who are unfamiliar with the area and are likely 
to be unaware of the city's emergency plans. What has FEMA done to work 
with these types of businesses to ensure that guests and staff are 
properly educated and prepared for emergencies?
    Does the administration believe that enough is currently being done 
in this area? What steps will the new administration take to improve 
this important partnership?
    Answer. Private industry is a key stakeholder in building a broader 
coalition for community preparedness and FEMA has encouraged the 
participation of local private sector representatives as Citizen Corps 
Council members from the program's inception. Industries that serve 
out-of-towners have a particular responsibility to ensure staff and 
service recipients are trained in emergency response protocols. To 
capture local participation from representatives of these industries, 
the revised Council on-line registration tool will solicit information 
on participation from the following: Privately Owned Critical 
Infrastructure (e.g. power, transportation); Entertainment/Sports 
Venues; Shopping Centers/Malls; and Hotel/Tourism.
    Examples of local Citizen Corps efforts with these industries focus 
on Community Emergency Response Team (CERT) training:

  <bullet> Detroit, Michigan Citizen Corps and Corporate Security at 
        Illitch Holdings implement the ``Citizen Corps Special Event 
        Program,'' which supplies local sports and entertainment venues 
        with trained volunteer security personnel who supplement 
        professional security staff during special events. Citizen 
        Corps volunteers assist professional security staffers in their 
        preparedness and response operations, conduct security 
        screenings, and act as street ambassadors. The program also 
        provides CERT training to security managers and other 
        professional staff at local stadiums.
  <bullet> The District of Columbia's Citizen Corps program and Amtrak 
        joined forces to provide CERT awareness training to Amtrak 
        employees throughout the National Capitol Region at Union 
        Station. The DC Metro Transit Police Department's Metro Citizen 
        Corps program provides additional training to local residents 
        who have completed the CERT basic training on Metro specific 
        safety, including rail safety and emergency preparation and 
        response and identification of terrorist activity. Participants 
        tour the metro tunnels and learn how to safely cross over the 
        electrified rail and open railcar doors in an emergency.
  <bullet> In the Virgin Islands, Citizen Corps partnered with local 
        hotels to provide staff with CERT training. To date, 77 
        participants have completed the training, including 40 staff 
        members of the Ritz-Carlton Hotel.
  <bullet> In Guam, CERT classes are generally offered once a month, 
        and Terlaje estimates that 500 to 600 Guam residents have 
        received CERT training since 2003. Some classes have consisted 
        entirely of employees of the island's large hotel industry.
  <bullet> New York City Citizen Corps partnered with the National Park 
        Service to provide CERT training for a group of 50 Ellis and 
        Liberty Islands' NPS employees, partners, and concession staff 
        to ensure the safety of all employees and visitors to these 
        iconic destinations.
  <bullet> FEMA will continue to emphasize the importance of Government 
        collaboration with the private sector and to inject 
        consideration for transient populations in emergency 
        preparedness planning, outreach, training, and exercises.

    FEMA's Private Sector Division within the Office of External 
Affairs has made it a priority to proactively educate and coordinate 
with private sector entities before and after disasters. The Division 
works to promote preparedness across all industries. It has not worked 
directly with the hotel industry on preparedness issues; however, it 
has worked with the American Hotel and Lodging Association, to provide 
important information during the response and recovery phases of past 
disasters.
    In addition, the Division continues to collaborate with DHS' 
Private Sector Office, the DHS Office of Infrastructure Protection and 
FEMA's Ready Campaign, integrating each component's existing 
relationships and capabilities into the Division's National outreach 
efforts with stakeholders.
    The Division works with a number of National organization and 
associations with broad reach to deliver essential information to 
employees, members, and stakeholders of these entities. The Private 
Sector Division is increasing its focus on regular outreach to the 
private sector at large, using all tools available, including e-mail 
alerts and weekly preparedness tips to over 18,000 subscribers (and 
growing), as well as postings to media sites, such as Facebook, 
YouTube, and Twitter. The Division initiated a weekly Private Sector 
Preparedness tip during National Preparedness Month 2009, and 
distributes these tips through the means noted here.
    In addition, the FEMA Private Sector Web Portal provides 
information and resources such as good practices in public-private 
partnerships, weekly preparedness tips, training opportunities, 
planning and preparedness resources, information on how to do business 
with FEMA, information regarding policies and Presidential directives 
impacting private sector engagement in emergency management, and more 
(www.fema.gov/privatesector).
    The Division also brings together public and private organizations 
to share good practices and learn from each other. For example, the 
Division recently worked with other FEMA partners to develop a workshop 
on private sector and emergency management integration, which was 
conducted during the 2009 National Conference on Community Preparedness 
hosted by Citizen Corps. In June 2009, the Division hosted a private 
sector roundtable with incoming FEMA senior leadership and two dozen 
National trade associations, with the intent of providing a forum for 
raising questions and interests on both sides that would further 
public-private and collaboration on issues related to resilience.
    To reach the hotel and lodging industry, the Division can reach out 
through National associations like the American Hotel and Lodging 
Association, and works with the DHS Office of Infrastructure 
Protection, Commercial Facilities Sector Specific Agency, and the DHS 
Private Sector Office. During Hurricanes Gustav and Ike, this proved an 
effective way to get information on a pilot transitional housing 
assistance program to hotel and motel managers, as well as to people 
seeking shelter.
    Looking forward, in 2010, the Division will be working more closely 
with DHS subject matter experts to deliver targeted information to 
different audiences, whether hotels or other venues.
    On October 15, 2009, Department of Homeland Security Secretary 
Janet Napolitano announced new proposed standards for a 9/11 Act-
required program, specifically, a voluntary, ``Private Sector 
Preparedness Program,'' designed to assist the private sector in 
improving its preparedness for disasters and emergencies. The goal of 
the PS-Prep program is to enhance operational resilience, business 
continuity management, and disaster and emergency management among 
participating private sector partners. As part of the implementation of 
the voluntary PS-Prep program, FEMA will work with the private sector 
and State and local emergency management to promote improved 
coordination and integration of emergency plans.
Questions From Chairman Henry Cuellar for William ``Bill'' O. Jenkins, 
                                  Jr.
    Question 1. Your testimony indicated that FEMA does not have 
performance metrics in place to gauge the impact of Citizen Corps 
grants on individual and community readiness. Has GAO, through other 
studies, found whether FEMA has performance metrics in place for other 
grant programs? If so, could FEMA use them as a model for creating 
metrics for Citizen Corps?
    Answer. In September 2009, we testified on the results of our 2007 
survey of Federal managers, which showed that FEMA ranked 28th out of 
29 agencies in the use of performance information when making 
management decisions.\1\ Several factors contributed to this low 
ranking, including inconsistent commitment of agency officials to use 
performance information and a weak alignment among agency, program, and 
individual goals. However, not all FEMA units ranked low. FEMA's 
Mitigation Directorate was identified as a FEMA subcomponent that 
encouraged the use of performance information to plan and respond to 
events, and as a means to make improvements and achieve results.\2\ 
Mitigation Directorate officials attributed their emphasis on 
performance and accountability to a leader who encouraged it. For 
example, the Mitigation Directorate set an annual performance target 
(93 percent of communities adopting current flood rate maps within a 
certain time frame) and incorporated the target into State grant 
agreements and regional performance scorecards. Performance was 
frequently monitored and communicated, for example through weekly 
conference calls with regional staff. While the metrics (sometimes 
referred to as measures) for Citizen Corps would be different, the 
model for encouraging the use of performance information adopted by the 
Mitigation Directorate might provide insights. Overall FEMA has taken 
steps, such as developing training on performance measurement, to 
improve the quality and use of performance information; however, we 
reported that these efforts have been limited.
---------------------------------------------------------------------------
    \1\ GAO, Government Performance: Strategies for Building a Results-
Oriented and Collaborative Culture in the Federal Government, GAO-09-
1011T (Washington, DC: September 24, 2009) and Results-Oriented 
Management: Strengthening Key Practices at FEMA and Interior Could 
Promote Greater Use of Performance Information, GAO-09-676 (Washington, 
DC: August 17, 2009).
    \2\ Flood Mitigation Assistance, a program under the Mitigation 
Directorate, provides grant funds to assist States and communities 
implement metrics that reduce or eliminate the long-term risk of flood 
damage to buildings, manufactured homes, and other structures insurable 
under the National Flood Insurance Program.
---------------------------------------------------------------------------
    While not specific to FEMA, our past work on Federal grants 
management may provide insights into the key strategies that could be 
useful in helping Citizen Corps design and implement grant performance 
accountability mechanisms, including program metrics, by which 
individuals or organizations are held accountable for meeting specific 
performance-related expectations.\3\ Specifically, our review of 
literature on grant design, interviews with experts, and our review of 
selected cases identified five key strategies to facilitate the 
effective selection, design, and implementation of grant performance 
accountability mechanisms.\4\ For example, one of the five key 
strategies--ensure mechanisms are of sufficient value to motivate 
behavior--entails ensuring that the grantor and grantee are clear on: 
(1) What a specific level of performance is worth to them, and (2) what 
it will cost to achieve that level of performance. Another strategy--
ensuring appropriate measurement selection--entails ensuring that 
metrics represent performance that is within the grantee's sphere of 
influence, can be reasonably achieved with the specified time frames, 
and tested over time to minimize unintended consequences or perverse 
incentives. In addition to these strategies, our report highlighted 
other factors critical to the success of designing and implementing 
grant performance accountability provisions, including the use of 
partnerships and collaboration and regular and effective oversight and 
feedback. We stated that these practices are often associated with 
high-performing organizations and organizations that effectively used 
performance information to manage.
---------------------------------------------------------------------------
    \3\ GAO, Grants Management: Enhancing Performance Accountability 
Provisions Could Lead to Better Results, GAO-06-1046 (Washington, DC: 
September 29, 2006).
    \4\ The five key strategies are: (1) Ensure mechanisms are of 
sufficient value to motivate desired behaviors, (2) periodically 
renegotiate and revise mechanisms and measures, (3) ensure appropriate 
measurement selection, (4) ensure grantor and grantee technical 
capacity, and (5) ensure phased implementation.
---------------------------------------------------------------------------
    In April 2009, we reported that FEMA has tried several methods of 
assessing preparedness and improvements in emergency preparedness that 
have been achieved through the use of Federal grants.\5\ However, we 
found that FEMA did not have an effective method for measuring the 
results achieved with Federal emergency preparedness grants or an 
integrated approach for developing such metrics.\6\ FEMA's 
Administrator is required under the Post-Katrina Emergency Management 
Reform Act of 2006 (Post-Katrina Act) to develop a comprehensive system 
(that is, the National Preparedness System) to assess, on an on-going 
basis, the Nation's prevention capabilities and overall preparedness 
with clear and quantifiable performance metrics and outcomes.\7\ FEMA 
has work underway to develop National preparedness metrics that likely 
will include Citizen Corps metrics. Specifically, FEMA includes 
Community Preparedness and Participation as one of the 37 key target 
capabilities to be assessed in the National Preparedness System. FEMA 
officials said that a draft revision of the current version of this 
capability will be issued in the second quarter of fiscal year 2010 for 
public comment, and will include specific outcomes, metrics, and 
resources for implementation. The current version of this capability 
includes the number of local Citizen Corps Councils Nation-wide and the 
percent of the population served by a Citizen Corps Council as 
preparedness metrics. Based on our October 2009 testimony, the accuracy 
of these metrics could be improved, and they are not useful indicators 
of community preparedness.\8\
---------------------------------------------------------------------------
    \5\ GAO, National Preparedness: FEMA Has Made Progress, but Needs 
to Compete and Integrate Planning, Exercise, and Assessment Efforts, 
GAO-09-369 (Washington, DC: April 30, 2009).
    \6\ GAO, Actions Taken to Implement the Post-Katrina Emergency 
Management Reform Act of 2006, GAO-09-59R (Washington, DC: November 21, 
2008). For a description of the methodological and coordination 
challenges FEMA faces in developing a Comprehensive Assessment System, 
see GAO-09-369.
    \7\ The Post-Katrina Act was enacted as title VI of the Department 
of Homeland Security Appropriations Act, 2007, Pub. L. No. 109-295, 120 
Stat. 1355, 1394-1463 (2006).
    \8\ GAO, Emergency Management: Preliminary Observations on FEMA's 
Community Preparedness Programs Related to the National Preparedness 
System, GAO-10-105T (Washington, DC: October 1, 2009).
---------------------------------------------------------------------------
    Question 2. FEMA Grants Directorate has told committee staff that 
the FEMA Regional Offices administer the Citizen Corps grant program. 
Yet FEMA's Preparedness Directorate is responsible for the programmatic 
aspects of Citizen Corps. Was GAO able to determine clear lines of 
responsibility and coordination for Citizen Corps between FEMA 
Preparedness Directorate, FEMA Grants Directorate, and the FEMA 
regional offices?
    Answer. Our on-going work on FEMA's challenges with regard to 
community preparedness was not designed to examine whether FEMA had 
established clear lines of responsibility and coordination for Citizen 
Corps, between FEMA's National Preparedness Directorate, FEMA's Grant 
Programs Directorate and FEMA's regional offices. However, coordination 
and clear lines of responsibility between these organizations may be 
difficult because, as we reported in August 2009, FEMA has not 
consistently aligned its agency goals with those of its components.\9\ 
Furthermore, in our October 2009 testimony, we reported that FEMA had 
not developed a strategic plan for implementing the National 
Preparedness System, or established how its community preparedness 
programs fit within the system.\10\ Aligning agency-wide goals and 
objectives and aligning performance metrics at each operating level 
with those goals and objectives is an effective management practice. 
FEMA has a strategic plan, but in our recent work FEMA officials 
acknowledged that the goals and metrics are at the agency level and 
that establishing performance goals at the regional or division level 
would help FEMA to cascade organizational goals down to the individual 
staff level.\11\
---------------------------------------------------------------------------
    \9\ GAO-09-676
    \10\ GAO-10-105T.
    \11\ GAO-09-676.
---------------------------------------------------------------------------
    Responsibility for Homeland Security Grant Program administration 
and management was transferred from the Grant Programs Directorate 
(GPD) to new Regional Grant Program Divisions based on a February 2008 
FEMA memorandum outlining a Concept of Operations for Regional-National 
Preparedness. GPD Investment officers were responsible for managing 
grant programs until capabilities were developed in the regions, based 
on the memorandum. As of October 30, 2009, five grant programs had been 
transferred to the regions, including the Citizen Corps program grant 
in 2008, according to FEMA grant officials.\12\ The 2008 memorandum 
outlined the relationship envisioned between the regions and FEMA 
headquarters as one in which the National Preparedness Directorate 
(NPD) develops National policies, while FEMA regions are to implement 
and manage programs across Federal agencies, States, Tribes, local 
jurisdictions, non-governmental organizations, the private sector, and 
citizens. NPD issued Preparedness Priorities and Programmatic Guidance 
for the Regions in August 2009 establishing regional expectations and 
guidance for regions to use in preparing their regional annual program 
plans. One of the Deputy Administrator's seven preparedness priorities 
outlined in the guidance is Community and Individual Preparedness.\13\ 
The Community Preparedness Division, had one priority--Citizen Corps 
and community preparedness.\14\ The regional plans were expected to be 
submitted by October 1 to cover the period of October 1, 2009 to 
September 30, 2010. Our work did not include whether the plans were 
submitted.
---------------------------------------------------------------------------
    \12\ The other four grants transferred to the regions included the 
Emergency Management performance grant, Metropolitan Medical Response 
System program grant, Emergency Operations Center grant, and the 
Driver's License Security grant program (formerly REAL ID).
    \13\ The Community and Individual Preparedness priority is to 
execute programs in the region and support initiatives from 
headquarters or the region that promote comprehensive community 
preparedness, especially individual preparedness and accountability.
    \14\ Regions are required to address the Deputy Administrator's 
priorities but not all the Division priorities. Four of the 10 National 
Preparedness Directorate (NPD) Divisions included regional priorities 
in the memorandum. In addition to the Community Preparedness Division, 
the other three divisions established multiple priorities for the 
regions, covering areas such as exercises, training, and technological 
hazards. The 2009 guidance indicates a need to balance resources across 
various regional needs.
---------------------------------------------------------------------------
    While not a focus of our review of the Citizen Corps program, we 
have several observations from our work related to coordination and 
lines of responsibility among the Preparedness Directorate, GPD, and 
FEMA Regional Offices that may be valuable as new relationships are 
being developed.
  <bullet> Citizen Corps program officials stated that they have worked 
        with FEMA grant officials to establish grant guidance for the 
        Citizen Corps grant program and other Homeland Security grants 
        used for community preparedness purposes. GPD is to ensure that 
        grant requirements are followed. For example, grant guidance 
        requires Citizen Corps grant recipients to register their 
        Citizen Corps Council on the website and to manage their 
        program and contact information. This information is used by 
        the Citizen Corps program officials as an indication of the 
        program's accomplishments. As our October 1, 2009 testimony 
        indicated, the requirement to manage program information was 
        not always met because we found registered Citizen Corps 
        Councils that were not active.\15\
---------------------------------------------------------------------------
    \15\ GAO-10-105T.
---------------------------------------------------------------------------
  <bullet> Citizen Corps program officials also stated that it has been 
        difficult to use grant-related data to obtain information for 
        program management purposes. Officials indicated, and our work 
        also reflected, that it is difficult to extract data from GPD's 
        database to specifically identify the amount of funding awarded 
        for community preparedness purposes and how the funding was 
        used. These officials also said they found Citizen Corps grant 
        program data collected from FEMA's on-site grant monitoring 
        process to be difficult to analyze because the information is 
        in narrative form and not easy to aggregate. Further, Citizen 
        Corps officials said they were limited in the number of Citizen 
        Corps questions that could be included for use by FEMA 
        officials during their monitoring visits to grant recipients. 
        Citizen Corps grant questions were included for on-site 
        monitoring in 2007 and 2008. However GPD officials said that 
        there are no Citizen Corps questions planned for 2009 grant 
        monitoring because there is a limit on the questions that can 
        be addressed during such visits and the Citizen Corps grants 
        are relatively small.
Question From Honorable Dina Titus for William ``Bill'' O. Jenkins, Jr.
    Question. What assessment work has GAO done to evaluate DHS and 
FEMA on their work with the private sector, specifically the 
hospitality industry? Is it GAO's estimate that FEMA has done enough to 
build strong educational and operational relationships with the 
hospitality industry? If not, what steps would you recommend for FEMA?
    Answer. We have done very limited work with regard to the private 
sector and disaster assistance and recovery, including the hospitality 
industry, and we have not assessed FEMA's efforts to build 
relationships with the industry. Thus, we are not positioned to 
recommend what steps FEMA could take to build these relationships. 
Hotels are one form of immediate post-disaster housing that FEMA has 
used in the past. Concerns over FEMA's provision of temporary housing 
assistance following Hurricane Katrina led to the development of the 
National Disaster Housing Strategy, which is to address the mix of 
temporary housing options that could be used following a disaster.
        Questions From Chairman Henry Cueller for Wendy L. Smith
    Question 1. How is your Community Emergency Response Team--or 
CERT--effective in increasing the level of community emergency 
preparedness? How do you know?
    Answer. Many of our team members join for the specific purpose of 
coordinating emergency preparedness teams within their faith-based 
organizations, workplaces or neighborhoods. The City of McAllen's team 
is remarkable in its diversity, with team members ranging from 
homemakers to professors to health professionals, representing various 
ethnicities and ages. Recruiting is done primarily by word of mouth by 
these trained participants. The effectiveness of the program is 
measured by the waiting lists for future classes.
    Question 2. What can FEMA do to help localities improve their 
community preparedness efforts?
    Answer. Additional funding is always welcome so that more 
volunteers can be trained. However, eliminating categorical 
restrictions within the grant, allowing more flexibility in the areas 
where funds are really needed, will also help local governments expand 
community preparedness efforts.
    Question 3. What are the challenges to getting citizens prepared 
for a disaster and how can FEMA, working with its partners, take steps 
to address these challenges?
    Answer. Complacency is a challenge, but we have found that 
introducing programs into the school system results in a greater impact 
on adults and children alike. This has worked particularly well with 
the City of McAllen's recycling program. We have one of the highest 
recycling rates in the State, while at the same time growing a 
generation of environmental stewards. If children are conscious of the 
need for individual disaster preparedness, those around them will be as 
well.
    Question 4. To what extent do social groups, such as neighborhoods, 
the workplace, schools, and faith communities, motivate people to 
become prepared? How can the emergency management community better 
leverage these groups to improve individual readiness?
    Answer. Social groups, like the ones listed, are the primary method 
by which we recruit volunteers and communicate the message of community 
preparedness. These groups often have disaster response committees 
which are coordinated by CERT-trained volunteers. Targeted marketing 
through churches, schools, hospitals and other large employers improves 
individual readiness more efficiently than one-to-one contact.
    Question 5. How can the Ready Campaign best complement State and 
local emergency awareness efforts?
    Answer. The Ready Campaign is a useful tool for those citizens who 
already have an interest in emergency planning. Additional marketing 
and expanded local/State information within the site would aid State 
and local emergency awareness efforts.


                         PREPAREDNESS: PART II


 WHAT HAS $29 BILLION IN HOMELAND SECURITY GRANTS BOUGHT AND HOW DO WE 
                                 KNOW?

                              ----------                              


                       Tuesday, October 27, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[Chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Richardson, Cleaver, 
Titus, Thompson (ex officio), Rogers, and McCaul.
    Also present: Representative Kilroy.
    Mr. Cuellar [presiding]. The Subcommittee on Emergency 
Communications, Preparedness, and Response will come to order. 
The subcommittee is meeting today to receive testimony 
regarding ``Preparedness, What Has the $29 Billion in Homeland 
Security Grants Bought, and How Do We Know?''
    Good morning and on behalf of the Members of the 
subcommittee, let me welcome our three witnesses that we have 
here today. In particular I note we have three Parliament 
members from the Republic of Austria. Are you still here? Yes. 
You are back there. If you all want to stand up, and we want to 
welcome you. I think you are up here with the State Department 
and looking at how we do things in Homeland Security, and we 
appreciate you all coming to visit us. So thank you very much. 
Welcome.
    The subcommittee is holding this hearing to receive 
testimony on FEMA's initiative to measure the return on 
investment from the Homeland Security Grant Program. Congress 
has appropriated $29 billion for homeland security grants since 
fiscal year 2002. This number does not include the $4.17 
billion that Congress approved for fiscal year 2010. So when 
you add that amount, you are talking about way, $32, $33 
billion in the last 7 years that we have had this part of the 
system.
    Congress and FEMA must know what the taxpayers have gotten 
for their money. We need to understand how much more prepared 
our communities are as a result of homeland security grants; 
that is, what are the results, what results are we trying to 
measure when we look at this? It is for this reason that 
Congress has directed FEMA to establish performance metrics 
that would allow States and urban areas to demonstrate the 
capabilities they have built and sustained with Federal 
funding.
    FEMA calls its effort to measure the return on homeland 
grants the Cost-to-Capabilities Initiative, the C2C. FEMA 
describes the C2C as a tool that will allow States and urban 
areas to objectively measure the impact of homeland security 
grants on the preparedness levels. FEMA wants C2C to replace 
the current method of awarding homeland security grants by 
2010. FEMA brought in 17 States and cities this summer to test 
the C2C prototype. To better understand the C2C, the committee 
asked all participants to fill out a survey with their feedback 
on the project. I want to highlight a couple of the concerns 
with the C2C project that stakeholders identified for us.
    For example, the first one was that C2C is being sold as a 
tool that would objectively measure the capability gained or 
sustained for each homeland security dollar. But in reality, 
C2C remains entirely subjective. Grantees are simply asked to 
guess the impact of the grants on their preparedness levels. I 
thought C2C was supposed to get rid of that guesswork and look 
more at the results.
    The second concern that was brought up is that the C2C does 
not take into account the risk or the threat levels for a 
particular State or a city. Without taking into account risk, 
C2C cannot lead the effective distribution of homeland security 
grants.
    These are not the only flaws with the C2C that were brought 
up by the stakeholders, and they raise serious questions about 
whether FEMA will be ready to mandate C2C for homeland security 
grants next year. Texas, Mr. McCaul, our State, is currently 
testing the tool right now. I am eager to get their feedback 
because it seems that C2C may have too many flaws to make it 
worth the effort.
    I hope we can have a forward-leaning discussion today on 
C2C and the larger question of how FEMA is measuring 
preparedness. Joining us to wrestle with this issue is FEMA's 
Deputy Administrator for National Preparedness, Mr. Tim 
Manning. Thank you for being here with us; good seeing you 
again.
    Mr. Manning, you inherited the C2C from your predecessor, 
and I would like for you to tell us whether Administrator 
Fugate and Secretary Napolitano intend moving forward with the 
C2C and, if so, how FEMA will correct its many weaknesses. 
Certainly I want to have a discussion on that because, as you 
know, I did do my dissertation on performance measures, and 
this is a little different from what I have seen.
    But joining Mr. Manning are two homeland security advisers 
who have tested the C2C tool. I am pleased to welcome Mr. David 
Maxwell, Director of Arkansas' Department of Emergency 
Management, and thank you for being here. I would like to 
extend my congratulations to you, Mr. Maxwell, for recently 
assuming the presidency of the National Emergency Management 
Association. So we look forward to your testimony.
    C2C is also intended for cities that are party of this 
urban area security initiative. I am pleased to also say that 
we have Ms. Crandall, who is a Director of Homeland Security 
for Franklin County in Ohio. Ms. Crandall, I want to thank you 
very much for being here with us today.
    I want to thank all of you, Mr. Manning, Ms. Crandall, and 
Mr. Maxwell for being here. Measuring preparedness is a 
difficult task. I think if you look at the 50 living 
laboratories of the 50 States, we have gone through this 
already. The Federal Government is behind on performance 
measures, is behind on coming up with the measures. If anybody 
says that it is difficult we understand the definition of what 
results are to be difficult. But if you look at the different 
50 States, you can certainly get a lot of ideas of what is out 
there so you can measure preparedness.
    Again, I hope this hearing will help us better understand 
how FEMA can successfully move forward on that.
    Before recognizing the Ranking Member, I need to mention 
that the Members of this subcommittee also are not very happy 
with FEMA's new policy of limiting preparedness grants from 
being used to keep vital homeland security equipment 
operational. FEMA never briefed the committee on the policy 
before it was released, and I believe it clearly violates the 
9/11 Act.
    I am glad that Ms. Kilroy, Representative Kilroy, 
identified this policy as one that would hurt her district, and 
she has introduced legislation to overturn FEMA's policy, and I 
support the bill and I hope to advance it this fall. Hopefully 
FEMA could maybe take some action before we get to this point. 
I anticipate Members will have questions for our three 
witnesses about the policy and its impact on homeland security.
    I would ask for unanimous consent to enter into the record 
two statements. The first statement is a National Governors' 
Association statement on C2C. The second is the National 
Emergency Management Association statement on Ms. Kilroy's 
legislation that addresses FEMA's policy on grant funding for 
maintenance projects. Hearing no objection, it is so ordered.
    [The information follows:]
            Statement of the National Governors Association
    The National Governors Association (NGA) wishes to thank Chairman 
Cuellar, Ranking Member Rogers, and other distinguished Members of the 
subcommittee for holding this hearing and allowing Governors the 
opportunity to participate in this important discussion regarding 
homeland security funding.
    The following statement will focus on three areas of importance to 
Governors and their homeland security advisors: (1) The importance of 
measuring homeland security capabilities; (2) the State role in 
managing and administering grant funds, including measuring, assessing 
and reporting State-wide capabilities; and (3) the importance of 
ensuring that capabilities are not only built and developed, but also 
maintained over time.
                         measuring capabilities
    Governors believe Federal funding provided to States should focus 
on developing or enhancing common core capabilities and support efforts 
to measure the effectiveness of grant funds in building and maintaining 
preparedness and response capabilities (see appendix A, NGA homeland 
security policy). As States and urban areas face varying threats and 
vulnerabilities and utilize different approaches to allocate homeland 
security resources, Federal leadership in providing tools and a common 
methodology to assess baseline capabilities is critical.
    To help address this issue, the Grant Programs Directorate (GPD) at 
the Federal Emergency Management Agency (FEMA) has recently conducted 
pilot programs in several States and urban areas to test the Cost-to-
Capability (C2C) initiative. C2C attempts to measure the effectiveness 
of the State Homeland Security Grant Program (SHSGP) and the Urban 
Areas Security Initiative (UASI) grant program by asking grantees to 
utilize the National Planning Scenarios and the Target Capabilities 
List (TCL) to categorize projects. Grantees are then asked to assign 
capability gains and sustainment percentages to the associated grant-
funded projects. As envisioned and tested by GPD, C2C would be used to 
make recommendations for the award and use of grant funds in future 
years.
    C2C has the potential to reduce the evaluation and reporting burden 
placed on States. Currently, FEM's National Preparedness Directorate 
(NPD) and GPD require States to submit the same information using 
different processes to produce the same outcome. For instance, NPD 
requires information using different processes to produce the same 
outcome. For instance, NPD requires States to report on capabilities 
and investments through the State Preparedness Report. Similarly, GPD 
requires States and urban areas to submit detailed investment 
justifications, including information regarding capability development 
and resource needs, as part of the peer review process used to asses 
the effectiveness of grant applications. C2C or a similar initiative 
could be very helpful if it were used to bridge the gap between NPD and 
GPD by utilizing a single process to collect the necessary information 
to assess the effectiveness of grant programs.
    While C2C is well-intentioned, it will require significant 
modification and greater coordination among FEMA divisions in order to 
produce meaningful assessments. The following summarizes some of the 
feedback received from participants in the first of two pilot projects:
  <bullet> C2C's reliance upon documents that are under on-going 
        revision will make it difficult to assess capability 
        development over time.--C2C relies on the TCL and National 
        Planning Scenarios; however, both of these documents are 
        currently being revised by FEMA. C2C would require States to 
        assess the percentage of capability gain and sustainment 
        against the existing TCLs to form a baseline, making it 
        difficult if not impossible to demonstrate progress over time.
  <bullet> C2C does not provide sufficient guidance to grantees to 
        assign value to projects.--The initiative requires grantees to 
        assign percents of capability gain and sustainment to both the 
        development of entire capabilities and to individual projects. 
        Without the use of common benchmarks or metrics, which are not 
        defined clearly in the current TCL, assessments would be 
        entirely subjective making their use inappropriate to determine 
        the allocation of future grant funds. Assessing State-wide 
        capability gains/sustainment at the local project level is 
        particularly challenging and may not be the best methodology.
  <bullet> C2C would be more effective if it incorporated consideration 
        of specific threats facing States and urban areas and the 
        resulting regional risk. In its current form, C2C relies upon 
        the National Planning Scenarios that do not apply to all 
        grantees in all areas and, therefore, have not been used by 
        many grantees in their planning processes. One alternative 
        would be to use existing State and urban area homeland security 
        strategies that have been used for years to guide the grants 
        process. These strategies have long been important in 
        identifying priorities for enhancing local, regional, and State 
        capabilities to prevent, protect against, respond to, and 
        recover from terrorist attacks, natural disasters, and other 
        man-made events. Utilizing existing strategic plans of grantees 
        would make C2C more practical and effective for all users.
  <bullet> C2C should be adjusted to allow for risk-based local 
        allocations.--C2C assumes that all States allocate the 80 
        percent local share of grant funds based on a competitive 
        process; however, there are several States that utilize a risk-
        based methodology to allocate the local share of the funds. In 
        order to be fully utilized by all States, C2C must be adjusted 
        to allow for the use of risk-based local allocations.
  <bullet> C2C does not differentiate between the State share (20 
        percent) of funds and the local share (80 percent) in producing 
        investment options.--For instance, the optimal investment 
        portfolio recommended by C2C may propose local projects for 
        only 50 percent of the grant funds, which is not currently 
        permissible under law.
  <bullet> C2C is not intuitive or user-friendly.--The current C2C 
        prototype employs a complicated methodology with limited 
        transparency on critical elements. For example, the 
        prioritization of the Target Capabilities is done by ranking 
        the National Planning Scenarios but the linkage between the two 
        is not entirely clear. FEMA should work with State and local 
        stakeholders to ensure the system is both intuitive and 
        transparent.
                   state role in managing grant funds
    Federal funds provide critical support to State and local efforts 
to prevent, prepare for, and respond to terrorist attacks, natural 
disasters, and man-made events. States play an important role in 
building, coordinating, managing, and assessing the use of such funds 
to support homeland security capabilities throughout the State.
    As discussed above, States establish homeland security strategies 
and plans that are updated on an on-going basis. These strategies guide 
the use of Federal, State, and local funds to build and sustain 
critical capabilities such as interoperable emergency communications, 
hazardous materials response (HAZMAT), and critical infrastructure 
protection. The planning, administration, and oversight of Federal 
funds is an extremely important and labor intensive effort, given the 
numerous grant programs, open contracts, and significant amount of 
funds (Federal and State) currently being administered by States.
    Since the establishment of the Department of Homeland Security, 
Federal reporting requirements have increased. For instance, States are 
required to complete an annual State Preparedness Report in which they 
must self-assess current capability levels. This report is time-
consuming to put together, and it must assess funding received from all 
preparedness grants. Participation in working groups and pilot programs 
such as C2C are also important but time-consuming.
    As these requirements have increased over time, the amount of grant 
funding States may use for management and administrative (M&A) purposes 
has been reduced from 5 percent to 3 percent for many of the major 
grant programs. Prior to fiscal year 2008, States were permitted to use 
up to 5 percent of grant funds for M&A purposes. The Implementing 
Recommendations of the 9/11 Commission Act of 2007 (Pub. L. 110-53) 
limited M&A to only 3 percent of the grant award, which has put a 
strain on the ability of States to fulfill their management and 
oversight responsibilities and meet the increasing reporting 
requirements of the grant programs. The often short deadlines 
associated with the grant programs further exacerbate the challenges 
facing State Administrative Agencies and highlight the need for 
additional resources.
    Given the increased emphasis on accountability and to ensure the 
effective use of grant funding, allowing 5 cents of every dollar to 
support the planning, management, and oversight of the funds is a wise 
investment. Additionally, greater flexibility to ``pool'' M&A funds 
across different FEMA preparedness grant programs would improve the 
effectiveness and efficiency of State oversight activities. Currently, 
M&A from different grants must be discretely accounted for. This is 
onerous and puts personnel managing multiple grants in a difficult 
position trying to figure out how much time is spent on what grant and 
what grant year. This is even more challenging at the local, county, 
and municipal level where fewer people manage more grants.
    As the Federal Government and Congress consider changes to the 
grant programs and their affiliated requirements, Governors urge 
consideration for greater flexibility in the use of grant funds to meet 
such requirements. Restoring the ability to use up to 5 percent of 
funds for M&A will help ensure that grants are used as effectively as 
possible by providing proper oversight and coordination. It will also 
support critical planning and assessment activities (such as State 
participation in C2C or similar initiatives) that provide the basies 
for the on-going development, revision, and implementation of National 
homeland security priorities.
             sustainment of homeland security capabilities
    An additional concern to Governors is the ability to not only build 
homeland security capabilities but also to sustain them over time. May 
capabilities, such as interoperable communications, intelligence, and 
information sharing through fusion centers, and HAZMAT response, have 
been built using a combination of Federal, State, and local funds. 
While building these capabilities requires an infusion of funds, more 
moderate but consistent levels of funding are required to maintain 
necessary systems and equipment and ensure personnel receive proper 
training. Without sufficient flexibility in the homeland security grant 
programs to allow for the sustainment of capabilities, preparedness, 
and response capabilities that hve been identified as National 
priorities will be severely weakened or lost entirely.
    FEMA recently informed States that they may only use grant funds to 
pay for maintenance agreements, user fees, and other sustainment costs 
as long as the equipment was purchased with FEMA preparedness grant 
funding and the costs fall within the performance period of the grant 
that was used to purchase the equipment. This policy is inconsistent 
with past practice and will have a severe adverse effect on many 
States.
    As discussed in a letter sent by NGA to Homeland Security Secretary 
Napolitano (Appendix B), this policy is inconsistent with the stated 
goal of the Homeland Security Grant Program and will have the 
unintended consequence of reducing capabilities and wasting scarce 
resources. Without greater flexibility to use grant funds for 
sustainment purposes, many projects may be cancelled and equipment may 
need to be replaced well before its serviceable lifetime would 
otherwise end. For example, information technology projects that 
support interoperable communications systems or intelligence fusion 
centers are dependent upon the maintenance of software agreements, 
technology upgrades and user fees throughout the life of the system. If 
grant funds from current and future years cannot be used to support 
these costs, it will have an immediate negative effect on these 
national homeland security priorities. As another example, level A 
HAZMAT response teams must maintain the ability to operate in hazardous 
environments. To do so requires that annual recalibration and 
preventative maintenance be performed on equipment monitoring and 
hazard prediction systems.
    Together, governments as all levels have invested billions of 
dollars over past several years to build capabilities to prepare for 
and respond to acts of terrorism, natural disasters, and other man-made 
events. Governors urge the Federal Governement and Congress to revise 
the current FEMA policy on sustainment funding to ensure that the 
partnership among States and the Federal Government to build, support, 
and maintain homeland security and emergency management capabilities 
continues and the taxpayers dollars are used in the most cost effective 
manner.
                               conclusion
    On behalf of the Nation's Governors, thank you for the opportunity 
to provide comments on the important issue of homeland security 
funding. Homeland security is a joint responsibility involving State 
and local governments and their Federal partners. Intergovernmental 
cooperation and coordination is essential to protect the safety and 
security of the country. Thank you for your consideration of the State 
role in this partnership and the challenges and opportunities it 
creates.
                                 ______
                                 
       Statement of the National Emergency Management Assocation
    Chairman Cueller, Ranking Member Rogers, and Members of the 
subcommittee, as President of the National Emergency Management 
Association (NEMA) I appreciate the opportunity to submit this 
statement for the record regarding H.R. 3837. NEMA represents the 
directors of emergency management in the 50 States, territories, and 
District of Columbia. The legislation introduced by Congresswoman 
Kilroy is in response to a recent ruling by the Grant Programs 
Directorate (GPD) at the Federal Emergfency Management Agency (FEMA) 
regarding allowable sustainment costs in grant funding.
    The new policy clarification issued through FEMA-GPD has created a 
major impact on States' ability to sustain homeland security and 
emergency management capabilities as grantees will no longer be able to 
pay for maintenance agreements, user fees, and other sustainment costs 
for equipment outside the performance period of the grant that was used 
to purchase the equipment. For nearly 10 years, State and local 
governments have invested billions of dollars in critical lifesaving 
equipment with Federal grant assistance. State and local governments 
are willing partners in sharing the cost burden in conjunction with 
Federal grants, but this recent ruling will cause an undue burden on 
many organizations across the country.
    As sensitive communications, detection, and other lifesaving 
equipment is purchased long-term maintenance and calibration contracts 
are often required to maintain a state of readiness and effectiveness. 
These sustainment costs have traditionally been an allowable expense 
under available grant funding, but this recent ruling has discountinued 
the policy. Should this policy not be reversed and the eligibility of 
these costs be called into question, States would be faced with an 
insurmountable challenge of maintaining this lifesaving equipment 
without the assistance of grant funds used to originally purchase the 
assets.
    Equipment purchases and maintenance are not the only aspects of 
emergency management suffering as a result of this policy. The grant 
guidance for the Urban Area Security Initiative (UASI) of 2008 states 
the UASI program is, ``intended to assist participating jurisdictions 
in developing integrated regional systems for prevention, protection 
response and recovery'' (p. 30). Utilizing multiple grants has allowed 
UASI regions to identify weaknesses, design solutions, and deploy 
regional systems through investments to local jurisdictions that 
collectively create a regional system or capability. Ther are several 
regional UASI initiatives that will be seriously jeopardized if UASI 
funds may no longer be used to sustain these efforts.
    While State and local governments are willing to share some of the 
burden with the Federal Government, the cost of this policy is well 
beyond the means of governments in this time of economic crisis. We do 
not, however, wish to see these grant programs become block grants for 
nothing more than maintenance and sustainability costs. NEMA has 
therefore requested Secretary Napolitano intervene to assist in 
overturning this policy as swiftly as possible.
    As for NEMA's position on H.R. 3837, at this time the bill remains 
under consideration by the Homeland Security and Lgeislative Committees 
of NEMA and should there be recommended changes, we will submit those 
to the House Homeland Committee Staff accordingly. We agree with the 
legislation in principle, and have assisted with obtaining co-sponsors, 
but we are also carefully analyzing each aspect of the bill to ensure 
all the measures are appropriate. It is our hope this issue can be 
resolved administratively through FEMA, DHS, the Office of Management 
and Budget, and the administration prior to resorting to legislative 
opions.
    Thank you for this opportunity to address the subcommittee through 
this written statement. NEMA stands ready to work with committee staff 
to resolve this unfortunate situation as expeditiously as possible be 
it through legislative or administrative channels.

    Mr. Cuellar. So with that let me again thank our witnesses 
for their participation. I look forward to hearing your 
testimony and working with you to ensure that we all are 
getting the best results for our homeland security dollars.
    The Chair now recognizes my friend the Ranking Member of 
the subcommittee, the gentleman from Alabama, Mr. Rogers, for 
an opening statement.
    Mr. Rogers. Thank you, Mr. Chairman, for calling this 
important hearing and I want to thank the witnesses for taking 
time out of your busy schedules to be with us. I know you have 
other things you could be spending this time on. Being here is 
important, and I appreciate your preparing for this hearing and 
being here.
    As you heard the Chairman, this hearing is being held to 
examine how FEMA is meeting Congressional mandates to measure 
the Nation's preparedness levels as well as to establish 
performance metrics for State and local homeland security grant 
programs. DHS grants are essentially increasing our Nation's 
level of preparedness. We must ensure that these programs 
continue to receive robust funding. It is concerning that more 
than 8 years after September 11, FEMA still cannot answer the 
question: How prepared are we? Since 2006, Congress has 
mandated FEMA to develop tools to answer this question and to 
assess the achievement and effectiveness of its grants 
programs.
    As a result of one such Congressional directive in 2008, 
FEMA launched the Cost-to-Capabilities Initiative. 
Unfortunately, this committee has learned from many States and 
localities that the new cost-to-capabilities tool is very 
subjective and is not user friendly and has not yet found a way 
to accurately measure preparedness. So I am interested in 
learning how FEMA plans to improve C2C.
    I am also interested in discussing the feedback and 
recommendations the agency received from the States and locals 
that participated in the first phase of C2C.
    I want to hear from the panel on how FEMA is harmonizing 
C2C with all the other preparedness benchmarks required by the 
Congress, including the target capabilities list, the 
comprehensive assessment system, and the State preparedness 
report.
    Finally, I want to underscore the importance of the Fire 
and SAFER Grants Programs in achieving preparedness 
capabilities as well. I am interested in learning how the 
effectiveness of these programs is being measured in 
coordination with other key homeland security programs.
    The Fire Grants Reauthorization Act of 2009 was recently 
marked up by the Science and Technology Committee, and this 
bill will likely be on the floor soon. As we were talking 
before this meeting, I sent a letter to Chairman Thompson 
stating my support for his request that this committee receive 
a sequential referral of that bill. This bill authorizes and 
makes significant changes in the Fire Grant Program. It is 
important that our committee and this subcommittee in 
particular assert its jurisdiction to provide key input on this 
bill before it is considered on the floor.
    With that, I want to thank our witnesses again for being 
here. I thank the Chairman for calling the hearing and yield 
back my time.
    Mr. Cuellar. Thank you, Mr. Rogers. Other Members of the 
subcommittee are reminded that under the committee rules, 
opening statements may be submitted for the record.
    [The statement of Hon. Richardson follows:]
          Prepared Statement of the Honorable Laura Richardson
                            october 27, 2009
    Mister Chairman, thank you for convening this very important 
hearing today focusing on the return on investment from homeland 
security grants. I know of your commitment to this issue.
    Thank you Mr. Manning, Ms. Crandall, and Mr. Maxwell for taking the 
time to be here today to discuss this important issue. It is an 
important duty of Congress to provide adequate funding so agencies like 
FEMA are able to carry out their mission. But it is equally important 
that we can account for those funds so the American public knows that 
taxpayer dollars are spent efficiently and effectively. Congress should 
take every opportunity to weed out waste in Government, especially in 
the current economic climate.
    The Cost to Capability (C2C) prototype is a tool established by 
FEMA to help States and urban areas evaluate the effectiveness of 
programs funded in whole or in part by homeland security grants. In 
this way, State and local governments will be armed with the 
information regarding what works and what does not, and the Federal 
Government will have empirical data which can be used to determine 
funding priorities.
    The 37th Congressional District of California, which I am 
privileged to represent, has a vital interest in ensuring that homeland 
security resources are used effectively. My district is located in 
Southern California, which is no stranger to natural disasters ranging 
from earthquakes to mudslides to wildfires. The 37th district is also 
home to many high-value terrorist targets, such as the Port of Long 
Beach.
    While I am happy to hear that FEMA is making an effort to measure 
the return on investment from homeland security grants using the C2C 
application, I am troubled by some of the concerns expressed by States 
and urban agencies, particularly those in the Los Angeles/Long Beach 
urban area in my home State of California.
    For example, it is my understanding that the Los Angeles/Long Beach 
urban area was one of the cities selected to participate in the first 
C2C pilot. The purpose of this pilot program was to test the C2C 
program measurement capabilities. After participating in the study, 
city officials identified a number of concerns about the prototype, all 
of which call into question its effectiveness as an analytic tool. 
These problems led the city of Los Angeles to conclude that the C2C 
prototype is inadequate as an accounting and reporting tool.
    Specifically, L.A. Mayor Villaraigosa identified the following 
concerns:
    1. The prototype does not include a methodology for evaluating 
        capability enhancements and capability sustainment, which means 
        that reports provided by the tool have little or no utility in 
        assessing homeland security investments.
    2. The prototype tool does not account for local funding 
        contributions (many States and localities invest significant 
        amounts of their own funds) which has the effect of overstating 
        the impact of Federal contributions.
    3. The prototype does not analyze how dollars spent on homeland 
        security impact more than one target capability.
    4. Information entered is inconsistent in terms of the parties and 
        jurisdictions participating, so the mixture of data results in 
        inaccurate reports and analysis.
    5. The prototype does not identify risk factors that should and do 
        dictate how local homeland security funds are allocated.
    Mister Chairman, it is important that FEMA collects and reports 
reliable data so decisions can be made on the basis of sound and 
accurate factual information. Homeland security is too important for 
FEMA to rely on inaccurate reports on preparation levels produced from 
mixed and incomplete data.
    A good analytic tool is one that takes into account homeland 
security strategies already in place, such as in Los Angles and in 
California. A good analytic tool takes into account that resources 
should be invested in the places of the greatest need, and it would 
reliably and accurately identify where those places are. The potential 
costs are simply too great, not just in monies wasted, but in lives 
lost in the event of a public emergency for which we have not 
adequately prepared.
    I look forward to working with the committee and hearing from our 
panel of witnesses in how we can redevelop this tool to better identify 
those areas. Thank you again, Mr. Chairman, for convening this hearing. 
I yield back the balance of my time.

    Mr. Cuellar. Again, to the panel of witnesses, the first 
witness will be Mr. Tim Manning, who serves as the Deputy 
Administrator for National Preparedness at the Federal 
Emergency Management Agency, and again thank you for being 
here. Of course our second witness is Ms. Kathy Crandall, 
Director of Homeland Security and Justice Programs for Franklin 
County in the State of Ohio, and of course the third and final 
witness is Mr. David Maxwell, Director of the Arkansas 
Department of Emergency Management and State Homeland Security 
Adviser.
    Again, we are happy that you are here. I hope you are 
happy, too. Without objection, the witnesses' full statements 
will be inserted in the record, and I will now ask Mr. Manning 
to summarize his statement for 5 minutes.

STATEMENT OF TIMOTHY W. MANNING, DEPUTY ADMINISTRATOR, NATIONAL 
 PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT AGENCY, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Manning. Thank you, Mr. Chairman. Chairman Cuellar, 
Ranking Member Rogers, Chairman Thompson, good morning, Members 
of the subcommittee, on behalf of Administrator Fugate, it is a 
privilege to be here this morning before you today to discuss 
our ability to identify and measure the benefits that are 
accrued from nearly a decade of homeland security spending.
    The Post-Katrina Emergency Management Reform Act of 2006 
requires the implementation of a National comprehensive system 
to assess emergency management efforts. The PKEMRA states that 
preparedness must be expressed in terms of measurable 
capabilities that are aligned with definable inputs and the 
ability to perform specific tasks.
    Intuitively, we could answer the question ``Are we better 
prepared?'' with a ``Yes.'' We could validly point to the 
amount and type of equipment that has been purchased, the 
physical security improvements that have been made, and the 
planning, training improvements that have occurred and conclude 
that, yes, we are better prepared. However, intuitive 
conclusions are not good enough, and DHS and FEMA are committed 
to answering the questions of preparedness with a greater 
degree of accuracy.
    The many new programs enacted since September 11 have 
substantially contributed to the National preparedness but 
along the way have added significant new reporting requirements 
to our stakeholders. In 2007, FEMA commissioned the analysis of 
Federal preparedness requirements in order to assess the impact 
of the 41 preparedness programs and over 270 preparedness 
requirements on State emergency management and homeland 
security agencies.
    Published in fiscal year 2009, the analysis of State and 
local officials' views on Federal preparedness requirements 
report outlines the views and recommendations of 20 States and 
urban areas and presents 75 different recommendations from 
State and local officials for improving the reporting process 
for Federal requirements. Many of the findings and 
recommendations focus on the need to reduce the volume of 
reporting requirements and develop a more efficient system for 
collecting data from State emergency management and homeland 
security agencies.
    In this past August, FEMA developed a reporting 
requirements working group consisting of representatives from 
all of the various FEMA offices and directorates and officials 
from State, local, and Tribal governments throughout the 
country. The goal of this working group is to make the 
collection of data from State, territorial, Tribal, local 
governments more efficient, transparent, and predictable but, 
more importantly, a more reliable indicator of the 
effectiveness of our policies.
    The working group will seek ways to enhance communications 
between FEMA and its partners in emergency management and 
homeland security agencies throughout the country. Enhancing 
the communications process will not only reduce duplication of 
existing requirements, but will also enhance the utility of 
preparedness data for all levels of government.
    Finally, the working group will provide realistic and 
measurable recommendations for data collection priorities. That 
is the future. But today FEMA has a number of existing 
approaches and measurement systems for preparedness. These 
include the Cost-of-Capabilities Initiative developed by FEMA's 
Grants Program Directorate.
    C2C was designed as a multiyear effort to develop, test, 
and implement a method to better enable State and local and 
Federal Governments to strategically manage the portfolio of 
homeland security grant programs and optimize the impact of 
those grant dollars. In its initial phase, C2C conducted a 
``look back'' and a ``look forward'' to determine the best 
measures of capability gained through the application of grant 
dollars that supported the National Strategy on Homeland 
Security, the National preparedness guidelines, and should look 
to support individual State homeland security strategies and 
priorities.
    The look back confirmed that neither GPD nor its 
predecessor offices at the Department had ever asked grantees 
to measure outcomes from grant dollars and therefore the 
existing data tell us very little about our return on 
investment or level of performance. FEMA's GPD developed in an 
accomplishments report a summary of additional findings from 
fiscal years 2003 through 2007 in May of this year. This report 
lists the accomplishments of over $10 billion in homeland 
security grant spending, and with the committee's permission I 
would like to enter it into the record.*
---------------------------------------------------------------------------
    * The document has been retained in committee files.
---------------------------------------------------------------------------
    Another initiative underway to assess preparedness and 
response capability is FEMA's Gap Analysis Program. GAP was 
designed to be a multiyear program that allows States to 
evaluate levels of preparedness through analysis of varying 
data sets. There are many other efforts underway, but I would 
like to use the balance of my time to underscore one final 
point.
    Establishing meaningful frameworks for the measurement of 
preparedness is a priority at FEMA, and we look forward to 
working with the committee and Congress toward a methodology 
that will inform future decision-making without placing undue 
burden on our partners in Tribal, State, and local governments.
    Mr. Chairman, Ranking Member Rogers, thank you for allowing 
me to be here today, and Members of the subcommittee, I 
appreciate the opportunity to testify and I am happy to answer 
any questions you may have.
    [The statement of Mr. Manning follows:]

                Prepared Statement of Timothy W. Manning

    Chairman Cuellar, Ranking Member Rogers, Members of the 
subcommittee, I am Timothy Manning, and I serve as Deputy Administrator 
of the Federal Emergency Management Agency (FEMA). On behalf of 
Administrator Fugate, it is a privilege to appear before you today to 
discuss our ability to identify and measure the benefits that have 
accrued from nearly a decade of homeland security spending.
    Mr. Chairman, since fiscal year 2002, the Department of Homeland 
Security's (DHS) homeland security grant programs have provided more 
than $27 billion to State, local, Tribal, and territorial jurisdictions 
across the Nation. These funds are a direct investment in enhancing the 
Nation's capability to prepare for, protect against, and respond to a 
full range of natural and man-made hazards. Given the size of this 
investment, it is critical for us as stewards of Federal dollars, to be 
returned. At the end of the day, we need to answer some very 
fundamental questions. The most fundamental of these is simply: ``What 
have we bought?'' Once we are able to answer this basic question, we 
should then be able to ask the more important one that logically 
follows, ``Are we better prepared?''
    The Post Katrina Emergency Management Reform Act of 2006 (PKEMRA) 
requires the implementation of a National, comprehensive system to 
asses emergency management efforts. PKEMRA states that preparedness 
must be expressed in terms of measurable capabilities that are aligned 
with definable inputs (e.g., people, training, and equipment) and the 
ability to perform specific tasks. Section 649 of PKEMRA requires the 
FEMA Administrator to ``establish a specific tasks.'' Section 649 of 
PKEMRA requires the FEMA Administrator to ``establish a comprehensive 
system to asses, on an on-going basis, the Nation's prevention 
capabilities and overall preparedness, including operational 
readiness.'' The law also requires annual Federal and State 
preparedness reports, including the results of a comprehensive and 
strategic assessment of capabilities and resources at all levels of 
government.
    Inituitively, we could answer the question ``Are we better 
prepared?'' with a ``Yes.'' We could validly point to the amount and 
type of equipment that has been purchased, the physical security 
improvements that have been made, and the planning and training 
improvements that have occurred, and conclude that we are better 
prepared. Our National, State, local, Tribal, and territorial efforts 
have certainly increased our interagency planning across the spectrum 
of preparedness. This is in itself an achievement that greatly improves 
our ability to act decisively in a crisis.
    However, intuitive conclusions are not good enough. DHS and FEMA 
are committed to answering questions of preparedness with a greater 
degree of accuracy.
    This is not to say that this is an easy task. ``Are we prepared?'' 
and ``Are we better prepared?'' are questions that we have wrestled 
with throughout the history of these grant programs. In the end, the 
answer to these questions will be found in rigorous analysis and the 
development of precise metrics which will enable us to connect dollars 
spent to results achieved and ultimately to improvements in 
preparedness.
    There are several efforts currently underway to measure our 
preparedness by identifying gaps in our preparedness and response 
capability and attempting to measure improvements supported by our 
multi-billion dollar National investments.
                     ``cost-to-capabilities'' (c2c)
    One existing approach which has been underway for the last 18 
months, and which we continue to evaluate, assess, and improve, is the 
``Cost-to-Capabilities'' (C2C) initiative developed by FEMA's Grant 
Programs Directorate (GPD).
    C2C resulted from GPD's need to better inform itself as well as its 
stakeholders about the impact of grant dollars on both State and 
National preparedness. Beginning in early 2008, GPD took an extensive 
look at what has been done to date with preparedness grant dollars and, 
from that, developed the C2C Initiative. C2C was designed as a multi-
year effort to develop, test, and implement a method to better enable 
local, State, Tribal, and Federal levels of governments to 
strategically manage the portfolio of homeland security grant programs 
and optimize the impact of those grant dollars on preparedness efforts.
    C2C's objective is to identify the information and develop the 
tools needed to effectively manage GPD's homeland security and 
preparedness grant programs. With the tools and measurements generated 
by the C2C initiative, we hope that grantees will be able to maximize 
their local preparedness investment strategies and align their grant 
dollars with the Nation's homeland security priorities. The tools and 
measurements could lead to changes in the Nation's homeland security 
strategy, translating into a clear prioritization of capabilities-based 
investments that all levels of government can use. C2C tools are meant 
to inform grantees' use of inherently finite grant funding and better 
measure how grants increase the capability of States and local 
communities to respond to all-hazards.
    In its initial phase, C2C conducted a look back and a look forward 
to determine the best measures of capability gained through the 
application of grant dollars that supported the National Strategy on 
Homeland Security, the National Preparedness Guidelines and should 
support individual State homeland security strategy and priorities. The 
``look back'' confirmed that GPD and its predecessor offices at the 
Department had never asked grantees to measure outcomes from grant 
dollars. Therefore, existing data tells us very little about our return 
on investment or our level of preparedness. GPD developed an 
Accomplishments Report; Summary of Initial Findings (fiscal year 2003-
2007), in May of this year. This report identifies the uses and 
accomplishments of over $10 billion in Homeland Security grant funding. 
With the committee's permission, i would like to enter this report into 
the hearing record.
                          gap analysis program
    Another major initiative underway to assess FEMA's preparedness and 
response capability is FEMA's Gap Analysis Program (GAP), which focuses 
on the performance of six distinct phases. These six phases are: (1) 
Selection of Disaster Scenario, (2) Estimation of Response 
Requirements, (3) Measurement of Baseline Preparedness, (4) 
Identification of Gaps, (5) Development and Implementation of 
Strategies, and (6) Evaluation and Application of Lessons Learned. 
These phases are driven by the Capabilities-Based Preparedness Process 
outlined in the DHS National Preparedness Guidelines (NPG) and are 
designed to provide emergency management agencies at all levels of 
government with greater situational awareness of response resources and 
capabilities. Like the NPG, GAP is an all-hazards, risk-based, and 
capabilities-driven program.
    Once data is collected, users can measure any scenario against the 
GAP data to generate additional response requirements and can apply 
multiple concurrent scenarios or scenarios in succession. GAP provides 
its greatest value, in this all-hazards functionality. States are 
encouraged to reference their Statewide Hazard Mitigation Plan is 
required by the Stafford Act in the development of a disaster scenario, 
which helps ensure the selected hazard has been prioritized through a 
process of hazard identification and risk assessment. GAP provides 
flexibility to States in the scenario development process to ensure the 
scenario is useful to States' needs while still giving FEMA and other 
Federal partners a better understanding of potential requests from 
States. This flexibility has the added benefit of allowing better 
integration of GAP into existing efforts the States and Federal 
Government may already have planned or underway.
    In wake of the terrorist attacks of September 11, 2001, many new 
Federal programs were created to enhance the overall preparedness of 
our Nation by providing State, territory, local, Tribal, and 
territorial governments assistance in building and sustaining their 
capability to effectively prepare for, protect against, respond to, 
recover from and mitigate natural disaster and terrorist attacks. While 
these new initiatives have bolstered our Nation's level of 
preparedness, they have also created new Federal requirements for 
State, territory, local, Tribal, and territorial emergency management 
and homeland security agencies. FEMA's key partners in emergency 
management and homeland security report that the existing volume of 
requests for information is placing a significant strain on their 
resources.
    In 2007, FEMA commissioned the Analysis of Federal Preparedness 
Requirements in order to assess the impact of 41 preparedness programs 
and 275 preparedness requirements on State emergency management and 
homeland security agencies. Published in fiscal year 2009, the Analysis 
of State and Local Officials; Views on Federal Preparedness 
Requirements report outlines the views and recommendations from 20 
States as well as the New York and Los Angeles Urban Areas and presents 
75 recommendations from State and local officials for improving the 
reporting process for Federal requirements. Many of the findings and 
recommendations focus on the need to reduce the volume of reporting 
requirements and to develop a more efficient system for collecting data 
from State emergency management and homeland security agencies.
    FEMA has engaged State, local, Tribal, and territorial government 
officials as well as representatives from the National Emergency 
Management Association and committed to seek opportunities to 
consolidate and reduce duplicative or similar reporting requirements. 
In March 2009, FEMA's Office of Policy and Program Analysis was tasked 
by the Acting FEMA Administrator with leading an effort to identity 
ways to reduce the impact of FEMA's information collection requirements 
on State, local, Tribal, and territorial governments while continuing 
to provide the information used to assist Federal decision-makers. This 
initiative engaged FEMA Offices and Directorates as well as officials 
representing State, local, Tribal, and territorial governments.
    On July 17, 2009, FEMA Administrator Graig Fugate issued a 
moratorium on new requests for information that require a response by, 
or action from any State, local, Tribal, and territorial government. In 
addition, Administrator Fugate directed a more thorough review of 
FEMA's reporting requirements to include an assessment of the agency's 
needs for information as identified by individual Offices and 
Directorates and information required by legislation such as the 
PKEMRA.
    This past August, FEMA developed the Reporting Requirements Working 
Group, consisting of representatives from FEMA Offices and Directorates 
and officials from State, local, Tribal, and territorial governments. 
The goal of this Working Group is to make the collection of data from 
State, territorial, local, and Tribal governments more efficient, 
transparent, and predictable.
    FEMA must better communicate its own information needs and 
understand the information needs of State, local, and Tribal 
governments. To achieve this goal, the working group has begun 
developing a calendar of all FEMA reporting requirements in order to 
provide recommendations for consolidating similar requests and 
identifying ways to better align its processes with the addition, the 
Working Group will seek ways to enhance communication between FEMA and 
its partners in emergency management and homeland security agencies 
throughout the country. Enhancing the communication process will not 
only reduce duplication of exiting requirements, but it will also help 
enhance the utility of preparedness data for all levels of government. 
Finally, the Working Group will provide realistic and measurable 
recommendations for data collection priorities.
                               conclusion
    Continuing to establish a meaningful framework for the measurement 
of preparedness is a priority at FEMA, and we look forward to working 
with this committee and the Congress toward priority at FEMA, and we 
look forward to working with this committee and the Congress toward a 
methodology that will inform future decision-making without placing 
undue burden on our partners in Tribal, State, local, and territorial 
government. Thank you Mr. Chairman, Ranking Member Rogers and Members 
of the subcommittee, for the opportunity to testify today. I am happy 
to answer any questions you may have.

    Mr. Cuellar. Mr. Manning, thank you very much.
    At this time, I would like to recognize Ms. Crandall to 
summarize her statement for 5 minutes.

 STATEMENT OF KATHY B. CRANDALL, DIRECTOR, OFFICE OF HOMELAND 
  SECURITY & JUSTICE PROGRAMS, COLUMBUS URBAN AREA, FRANKLIN 
                COUNTY BOARD OF COMMISSIONERS, 
                     FRANKLIN COUNTY, OHIO

    Ms. Crandall. Good morning, Mr. Chairman, Members.
    The Columbus urban area participated in a Cost-to-
Capability Initiative. We were in the first group to test that 
program. I would like to say that C2C is a program that 
supports capability-based planning and decision-making process. 
It identifies a weighted score to prioritize investments and to 
maximize capability gained while validating sustainment cost 
and clearly indicating investments that would not be cost-
efficient or maintain sustainability.
    The initiative does support the States and urban areas in 
maximizing the development, funding, and implementation of our 
preparedness projects. When utilized as a decision-making tool, 
C2C can give us a reduction in jurisdictional and disciplinary 
bias within our working groups. It evens that out. It gives us 
a defined return on investment unlike our narrative reporting 
has historically provided. It identifies geography-based gaps 
in preparedness, and we have never seen that outcome in our 
planning previously. It can collate multiple funding streams, 
including non-FEMA DHS funding streams to support a single 
project.
    There is a clear and concise corollary of tasks to 
development and sustainment by the target capabilities, and 
there is data-driven reporting that clearly conveys the level 
and cost of capabilities gained in sustainment.
    As with any assessment and evaluation tool, C2C can and 
should be modified in enhancement capabilities that are risk 
threat specific to each State and urban area.
    Our experience on the negative side of C2C was that they 
have used the National scenarios as the base for C2C. In doing 
that, each State and urban area's specific analysis for threat 
risk and the strategies that we have built to address the 
threat risk are ignored. Instead, we are looking at the value 
base of the National scenarios toward the target capabilities.
    So we suggest that there is an assigned value to each 
target capability based on the individual State and urban area 
strategy, and that data collection supports a comprehensive 
strategy for moving forward based on historical progress and to 
provide a clear State and local position through collective and 
shared data for both capability gain and sustainment.
    We feel we need to integrate precision and performance 
reporting between the National Preparedness Directorate and the 
National Grants Directorate. If we do that, there is an 
elimination of the expensive and subjective peer review 
process. It would eliminate narrative-based investment 
justifications and the cost of that peer review process with 
the investment justifications, reduce reporting requirements 
through enhanced collaboration between GPD and NPD, and 
increase value through objective data-based reporting. We would 
also be able to reduce or eliminate the opinion-based guesswork 
assessment and evaluation of the State and local preparedness.
    One of the largest pieces of C2C is how we are sustaining 
that which we build. GPD has consistently addressed building 
and sustaining capabilities in the grant guidance, planning, 
training, and exercising. The investment justification template 
actually addresses sustainment. What are you doing? How are you 
going to sustain what you are using money for in this project?
    With a long-term approach to sustaining capabilities 
developed by the investment, and having participated in peer 
review 2 of the last 3 years, I can say that most States and 
urban areas say that they are going to sustain these projects 
with Federal grant dollars from DHS.
    In Ohio, in the urban area, we have a State-wide 
information-sharing network that is connected through our 
State's attorney general, and our smaller suburbs and 
jurisdictions cannot possibly afford the monthly air cards to 
keep that information-sharing system moving. For intelligence 
gathering, we are using rapid ID and automated license plate 
readers. Those too take monthly air cards from now until 
forever to be able to work, and we have to be able to sustain 
the equipment that we purchased and have that on-going cost met 
by Federal funds.
    Interoperable communications is probably the largest user 
of sustainment dollars for the Columbus urban area in the State 
of Ohio. Shared systems, new towers, ACU 1,000 mobile bridges, 
mobile and portable radios that have to be repaired, batteries, 
et cetera. Then we have our CBRNE--the chemical, biological, 
radiological, nuclear, and explosive detection. The meters that 
we have purchased have to be calibrated. Their sensitivity is 
so extremely high, and that is an on-going maintenance cost as 
well as the PPE that has to be replaced every time OSHA or 
NIOSH changes the standards. That is on-going cost. Then we 
have technology and training, and each upgrade of technology 
takes seat licensing or you have to pay for the next upgrade of 
that software. Those are sustainment costs that we need.
    Billions of dollars have been expended Nation-wide to build 
capabilities to prepare and protect our critical infrastructure 
and key resources across this country. The National Association 
of Counties has stated that every county in the country will be 
negatively impacted if we do not use sustaining dollars to be 
able to support that which we have already built. Tens of 
millions have been spent in the Columbus urban area and 
throughout Ohio on equipment and training critical on building 
our priority target capabilities to strengthen our 
preparedness.
    Columbus urban area needs FEMA preparedness grant funding 
to support sustainment costs and requests that the policy of 
GPD be reversed.
    Thank you.
    [The statement of Ms. Crandall follows:]
                Prepared Statement of Kathy B. Crandall
                The Cost to Capability (C2C) Initiative
    The Cost to Capability (C2C) program supports a capability-based 
planning and decision-making process. It identifies a weighted score to 
prioritize investments to maximize capability gain and validate 
sustainment costs while clearly indicating investments that would not 
be cost-efficient increasing or maintaining capability. The C2C 
initiative supports the States and urban areas in maximizing the 
development, funding, and implementation of preparedness projects. C2C 
also supports programs to build, enhance, and sustain the target 
capabilities necessary for an effective state of preparedness.
    When utilized as a decision-making tool, the positive elements that 
C2C offers are:
  <bullet> Reduction in jurisdictional and disciplinary bias in Urban 
        Area Working Group;
  <bullet> Defined Return on Investment (R.O.I.);
  <bullet> Clear target capability gains and cost of sustainment;
  <bullet> Identified geo-based gaps in preparedness;
  <bullet> Delivery of data-driven prioritized funding options with 
        allowance for State and local override to meet evolving trends 
        and conditions;
  <bullet> Collation of multiple funding streams (including non-FEMA/
        DHS) to support a single project;
  <bullet> Clear and concise corollary of tasks to the development and 
        sustainment of target capabilities;
  <bullet> Data-driven reporting that clearly conveys level and cost of 
        capability gain and sustainment.
    As with any assessment and evaluation tool, C2C can be modified and 
should be enhanced with system capabilities that are risk/threat 
specific to each State/urban area. The current underpinning of the C2C 
initiative is the National Scenarios. The National Scenarios provide a 
broad-based preparedness assessment country-wide: however, they do not 
prioritize target capabilities identified by the State/urban area as 
addressed in their respective strategies. The Grants Program 
Directorate (GPD) can refine the C2C system capabilities to reflect the 
respective user's threat, risk, and need by incorporating the State/
urban area strategy with assigned values as part of the base formula 
behind the program. Non-transparent algorithms that drive C2C must be 
supported by user selected priority target capability values based on 
the threat and risk identified by the State/urban area and not as 
identified by the National Scenarios.
    Suggested capabilities that a C2C enhancement must address include:
  <bullet> Assigned value to each target capability based on individual 
        State/urban area strategy;
  <bullet> Data collection to support a comprehensive strategy for 
        moving forward based on historical progress;
  <bullet> Ability to provide a clear State and local preparedness 
        position through collective and shared data for capability 
        gains and sustainment;
  <bullet> Integrated position and performance reporting to Grants 
        Program Directorate (GPD) and National Preparedness 
        Directorate.
    The Comprehensive Assessment System (CAS) developed and implemented 
by the National Preparedness Directorate (NPD) is intended to 
continually assess overall preparedness as required by Congress. Within 
the CAS is the State Preparedness Report (SPR). The SPR is to be 
completed by all States/urban areas as the foundation for C2C which is 
under the Grants Program Directorate (GPD) and contained within a 
separate system. Integration of assessment, evaluation, and reporting 
functions between NPD and GPD must be built into C2C to eliminate 
redundancy and greatly reduce ineffective time burdens placed on the 
grantees. Projected C2C system capabilities and enhancement can 
maximize State and local grantee's time, reduce cost, and eliminate 
redundancy in reporting.
    Potential time/cost savings resulting from integration and 
implementation of C2C:
  <bullet> Elimination of expensive, subjective Peer Review process;
  <bullet> Elimination of the narrative based Investment 
        Justifications;
  <bullet> Reduction in reporting requirements through enhanced NPD and 
        GPD collaboration;
  <bullet> Increased value through objective data-based reporting;
  <bullet> Reduced and/or eliminated opinion-based (guesswork) 
        assessment and evaluation of State and local preparedness.
              use of fema/dhs funds for sustainment costs
    The clarification below was received in email form on September 22, 
2009 by all States and urban area Points of Contact. In preparation to 
testify before the Congressional committee, I contacted the National 
Association of Counties (NACo) to ascertain their position on the 
sustainment issue. NACo is in full agreement that this FEMA/Grants 
Program Directorate (GPD) policy is contrary to past practice, phased 
planning, and implementation, and most importantly, to protecting the 
foundation of preparedness that we have built across the Nation.
                      gpd clarification statement
Sent on behalf of C. Gary Rogers, Director, Grants Program Directorate/
        Grants Development & Administration Division
    Below is a clarification of the FEMA/Grant Programs Directorate 
policy regarding the use of preparedness grant funding for sustainment 
costs:

``Grantees may use FEMA preparedness grant funding to pay for 
maintenance agreements, user fees, and other sustainment costs as long 
as the equipment was purchased with FEMA preparedness grant funding and 
the sustainment costs fall within the performance period of the grant 
that was used to purchase the equipment. These sustainment costs are 
eligible under the equipment category unless the equipment is M&A 
related (grants management equipment). Grantees may not use future year 
preparedness grant funding to pay for additional agreements and user 
fees. These on-going sustainment costs are the responsibility of the 
grantee. For example, the purchase of 2-way devices to provide 
connectivity and interoperability between local and interagency 
organizations to coordinate CBRNE response operations is allowable. 
Grant funds may be used to cover only those services provided during 
the grant performance period in which the device was purchased. All on-
going expenses after the performance period has expired may not be paid 
for with FEMA preparedness grant funding. Devices purchased for those 
individuals involved in coordinating response operations or for 
eligible planning activities are eligible under the `equipment' 
category. If purchasing devices for those individuals involved with the 
grants management portion of these programs, then the costs are 
eligible under M&A. Please ensure that these costs do not supplant 
previously budgeted line items.''

    GPD has consistently addressed the building and sustaining of 
capabilities in grant guidance, planning, training, and exercising. The 
Investment Justification template includes a section specific to 
Sustainability and asks, ``What is the long-term approach to sustaining 
the capabilities developed by this investment?'' Having participated in 
Peer Review 2 of the past 3 years, I can testify that most States and 
urban areas answered the question stating that they would rely on 
Federal funding to continue to sustain the investment.
Examples of State (Ohio) and Urban Area (Columbus) Projects Adversely 
        Impacted
  <bullet> Information Sharing.--Ohio Law Enforcement Information 
        Network: this State-wide system connects every law enforcement 
        agency in the State with the State's Attorney General's Office. 
        It requires monthly air cards for all users for connectivity 
        through their respective wireless provider as well as 
        maintenance agreements for the mobile data terminals.
  <bullet> Intelligence Gathering.--Rap ID (digital fingerprint 
        identification scanners), Livescan (digital fingerprint entry 
        system) and Automated License Plate Reader Technology: local, 
        regional, and State-wide systems developed and implemented to 
        capture data, shared with three F.B.I. databases and requiring 
        maintenance agreements and monthly air cards for all users for 
        connectivity through their respective wireless provider. 
        Additionally, geospatial mapping capabilities at the primary 
        State fusion center is under an annual maintenance contract 
        agreement. This intelligence gathering is critical to the 
        success of Ohio's fusion centers.
  <bullet> Interoperable Communications.--Shared systems, new towers, 
        ACU 1000 mobile bridges, mobile and portable radios, and 
        communications vehicles have been purchased to ensure voice and 
        data interoperability for incident command and control. Every 
        piece of equipment requires on-going maintenance, user fees, 
        licenses, upgrades to technology, and/or batteries.
  <bullet> Chemical, Biological, Radiological, Nuclear, and Explosive 
        (CBRNE) Detection.--The meters and monitors required to detect 
        CBRNE are extremely sensitive and must be tested and calibrated 
        on an on-going basis to ensure reliability. Personal Protection 
        Equipment (PPE) required by NFPA and OSHA is constantly being 
        tested and upgraded to enhance the level of protection 
        resulting in repair, replacement parts, and additional 
        equipment being certified and recommended.
  <bullet> Technology & Training.--Each upgrade of technology and 
        equipment requires users to be trained on that technology and/
        or equipment capability. In addition costs for seat licenses, 
        user fees, software upgrades, program integration, and data 
        storage are on-going capital expenditures.
Columbus Urban Area Supports Sustainment Funding
    Billions of dollars have been expended Nation-wide to build 
capabilities to prepare and protect our critical infrastructure and key 
resources across the country. The National Association of Counties 
(NACo) has stated that every county in the country will be adversely 
affected by this policy. Tens of millions of dollars have been spent in 
the Columbus Urban Area and throughout the State of Ohio on equipment 
and training critical to building our priority target capabilities to 
strengthen our preparedness. The sustainment of these capabilities is 
an on-going cost that requires homeland security funding to support in 
full--or in part--augment State and local funds. The Columbus Urban 
Area needs FEMA preparedness grant funding to support sustainment costs 
and requests that the policy of GPD be reversed.

    Mr. Cuellar. Thank you again, Ms. Crandall, for your 
testimony. At this time I would like to recognize Mr. Maxwell 
to summarize his statement for 5 minutes.

   STATEMENT OF DAVID MAXWELL, DIRECTOR & HOMELAND SECURITY 
      ADVISOR, ARKANSAS DEPARTMENT OF EMERGENCY MANAGEMENT

    Mr. Maxwell. Thank you, Chairman Cuellar, Ranking Member 
Rogers, Chairman Thompson, and the Members of this 
subcommittee, for your invitations today to talk about the FEMA 
Cost-to-Capability Pilot I.
    I am testifying today on behalf of the State of Arkansas. 
My staff participated in the C2C Pilot I in July here in 
Washington, DC. Our staff, after spending the week testing the 
program and providing feedback to the FEMA program staff, came 
back to the State to test the program using Arkansas-specific 
information from fiscal year 2008 and fiscal year 2009 Homeland 
Security Grant Program. They found the concept of the tool 
innovative and a step in the right direction in regards to 
providing a connection between dollars spent toward homeland 
security goals and the capabilities that are produced as a 
result of these dollars.
    Arkansas, as a recipient of these funds, is committed to 
and supports building and measuring our capability. However, 
the tool that is not distinguished between actual dollars spent 
and its correlation to an actual increase or a decrease in the 
capability of the State or local jurisdiction. I am not 
comfortable with the tool being able to take so many factors 
into account and it results in an accurate reflection of our 
capability and preparedness levels. I am also concerned that 
the tool requires a subjective judgment of our base 
capabilities and, perhaps more importantly, how much an 
investment has increased a capability.
    As a State Director, I do not want this tool to be used as 
a ``report card'' to publish our preparedness efforts. The tool 
should be used as a macro-level planning piece to help 
determine the Nation's preparedness levels. Arkansas is 
committed to the openness of our business practices, but the 
potential exists to highlight perceived potential weaknesses in 
our preparedness efforts, and this only gives terrorists an 
additional area to exploit.
    The C2C tool relies on the State preparedness report data, 
a ranking of the National preparedness planning scenarios, and 
the State's assertion of its own capability as baseline data to 
determine a relationship between dollars spent and a capability 
gained. I am not convinced that this tool can accurately 
measure those disparate pieces of data.
    Much of the tool is dependent on subjective data determined 
solely by the States. The States' preparedness report is a 
basis for much of the tool's baseline data. While a great deal 
of effort goes into producing an accurate SPR, without a 
detailed set of standards such as those used by the Emergency 
Management Accreditation Program, we cannot be assured that the 
tool correctly analyzes the data. Thus, the results of the C2C 
tool could produce an inaccurate picture of the State's true 
capability level.
    Currently no standards exist to measure capability or 
sustainment gains in the C2C tool.
    Sustainment is another important issue, and with the 
addition of this tool, there becomes two definitions of 
sustainment used within the grant allocation process. Dollars 
used to sustain a capability are extremely difficult to 
measure. Dollars used to sustain current equipment can be 
measured. For the 10 years of the grant program, substantial 
investments have been made with the assistance from these 
Federal funds.
    Current equipment and future purchases are in jeopardy if 
funds cannot be used to sustain equipment beyond the initial 
grant performance period.
    Sustainment is an important part of the grant process. 
Investments, a core principle of the grant process, are the 
backbone of the equipment acquisition process for both the SAA 
and the sub-grantees. If we truly want to be effective, 
efficient, and prudent with our grant dollars, we cannot be 
forced to purchase new replacement equipment solely because we 
are not allowed to expend grant dollars to sustain our 
equipment.
    As we study C2C further, we as an emergency management 
community must realize that no matter what tools we have at our 
disposal, the teams of people at the State and local level 
responsible for this program must be taken into account. This 
tool should always remain a decision support tool.
    I appreciate this committee's attention to this matter. I 
also want to thank the full committee for its study of the C2C 
tool. FEMA has done good work, but the work is never done and 
major refinements are needed. We must continue to work to 
protect our cities, States, and our Nation.
    Thank you very much.
    [The statement of Mr. Maxwell follows:]
                  Prepared Statement of David Maxwell
                            October 27, 2009
                              introduction
    Thank you Chairman Cuellar, Mr. Rogers (Ranking Member) and 
honorable Members of this subcommittee for your invitation to speak 
today on the FEMA Cost-to-Capability Pilot I. I am David Maxwell, 
Director and Homeland Security Adviser for the Arkansas Department of 
Emergency Management. I am testifying today on behalf of the State of 
Arkansas. My staff participated in the C2C Pilot I in July here in 
Washington, DC.
                       cost-to-capability review
    Members of my staff, as well as a staff member from the Arkansas 
Department of Information Systems, traveled to Washington to 
participate in the Pilot of the Cost-to-Capability project. After 
spending a week testing the program and providing feedback to the FEMA 
program staff, they came back to the State to test the program using 
Arkansas-specific information from the fiscal year 2008 and fiscal year 
2009 Homeland Security Grant Program. They found the concept of the 
tool innovative and a step in the right direction in regards to 
providing a clear connection between dollars spent towards homeland 
security goals and the capabilities that are produced as a result of 
those dollars. Arkansas, as a recipient of these funds, is committed to 
and supports building and measuring our capability. However, the tool 
does not distinguish between actual dollars spent and its correlation 
to an actual increase or decrease on the capability of a State or local 
jurisdiction. I'm not comfortable with the tool being able to take so 
many factors into account and it result in an accurate reflection of 
our capability and preparedness levels. I am also concerned that the 
tool requires a subjective judgment of our base capabilities and 
perhaps more importantly how much an investment has increased a 
capability. As a State Director, I do not want this tool to be used as 
a ``report card'' to publish our preparedness efforts. This tool should 
be used as a macro-level planning piece to help determine the Nation's 
preparedness levels. Arkansas is committed to the openness of our 
business practices but the potential exists to highlight perceived 
potential weaknesses in our preparedness efforts and this only gives 
terrorists an additional area to exploit. The C2C tool relies on State 
Preparedness Report data, a ranking of National Planning Scenarios and 
the State's assertion of its own capability as the baseline data to 
determine a relationship between dollars spent and a capability gain. I 
am not convinced that this tool can accurately measure these disparate 
pieces of data.
    As I stated in my response to the House Committee on Homeland 
Security's questions about this project, my hesitation and concern come 
from the calibration of the data used to determine a final capability 
score and portfolio ranking.
    Much of the tool is dependent on data determined solely by the 
States. The State Preparedness Report is the basis for much of the 
tool's baseline data. While a great deal of effort goes into producing 
an accurate SPR, without a carefully detailed set of standards, such as 
those used by the Emergency Management Accreditation Program (EMAP) 
process, we cannot be assured that the tool correctly analyzes that 
data. Thus, the results of the C2C tool could produce an inaccurate 
picture of the State's true capability level. Currently, no such 
standards exist to measure capability or sustainment gains in the C2C 
tool.
    The issue of sustainability also concerns me with regards to the 
C2C tool. After the SPR data is entered into the tool, one of the next 
steps is to assign a dollar figure to each project and Target 
Capability or Capabilities that are associated with that project. These 
dollar figures are assigned to gain capability or to sustain a 
capability. Without some objective measure, the States are using a 
``best guess'' method to determine preparedness and capability levels 
as they assign these allocations. Arkansas currently awards its HSGP 
dollars on a population formula basis. When you distribute the volume 
of projects and Target Capabilities that these projects are associated 
with, it becomes almost impossible to determine that $1,500 of a $6 
million award equals a .005% increase in the Interoperable 
Communications Target Capability. The user burden with this tool is 
extensive.
    The tool asks for two complete ``percentage'' gains. One determines 
the overall gain in capability. For example, a Fusion Center project 
may be rated by the C2C tool at a current 30% capability. The state 
then has to determine how much of an increase this project and its new 
funding gives the state. If the project only gives the state a 5% gain, 
the State then must determine the dollar amount associated with that 5% 
gain.
    To follow up with sustainment issues, with the addition of this 
tool, there become two definitions of sustainment used within the grant 
allocation process. Dollars used to sustain a capability are extremely 
difficult to measure. Dollars used to sustain current equipment can be 
measured. For the 10 years of the grant program, substantial 
investments have been made with assistance from these Federal grants. 
Current equipment and future purchases are in jeopardy if funds cannot 
be used to sustain equipment beyond the initial grant performance 
period.
    Sustainment is an important part of the grant process. Investments, 
a core principle of the grant application process, are the backbone of 
the equipment acquisition process for both the SAA and the sub-
grantees. If we truly want to be effective, efficient, and prudent with 
our grant dollars, we cannot be forced to purchase new, replacement 
equipment solely because we are not allowed to spend money to keep our 
current equipment in working order. For example, Arkansas and our local 
jurisdictions have purchased expensive bomb-handling equipment. If we 
are not allowed to expend sustainment dollars out of future grant 
programs, the cost of maintenance would quickly exceed local budgets. 
This equipment is vital to the mission of the Homeland Security Grant 
Program. Sustainment is an issue that we care deeply about and more 
should be done to ensure that it is an allowable cost in each grant 
program and can be used on equipment purchased in any of the prior 
grant programs under the HSGP.
                               conclusion
    As we study C2C further, we--as an Emergency Response Community--
must realize that no matter what tools we have at our disposal, the 
people responsible for this program must be taken into account. These 
teams of people at a State level are vital to continued success of this 
tool. Their judgments and experience help to shape this program. No 
tool will ever completely override this judgment and experience. As 
long as this program remains the State's responsibility to execute and 
administer, deference should be given as to the allocation and 
distribution of the funds. This tool should always remain a ``decision-
support'' tool. If it does, our State, as well as others, can continue 
to evaluate all relevant data to ensure we continue to fulfill the 
mission of the HSGP and continue protecting our States from future 
terrorist attacks.
    I appreciate this subcommittee's attention to this matter. I also 
want to thank the full committee for its study of the C2C tool. FEMA 
has done good work, but the work is never done. We must continue to 
work to protect our cities and States and the Nation.

    Mr. Cuellar. Mr. Maxwell, thank you very much. At this time 
without objection, the gentlewoman from Ohio, Ms. Kilroy is 
authorized to sit for the purposes of questioning the witnesses 
during the hearing today.
    Ms. Kilroy. Thank you, Mr. Chairman.
    Mr. Cuellar. At this time, I also would like to recognize 
the Chairman of the full committee, Mr. Thompson, from the 
State of Mississippi.
    Mr. Thompson. Thank you very much, Mr. Chairman. I 
apologize for being a little late. I was detained at another 
meeting.
    I have heard the witnesses this morning, and I have been 
concerned about how much money we have, as an agency, spent on 
going toward grants and refining different programs. The C2C 
program that we have heard a lot of conversation about this 
morning continues to cause me significant concern. It has been 
around in one form or another for a little while. But Congress 
since 2006 has kind of nourished FEMA in this direction to come 
up with some measurement instrument, and it still appears to be 
a work in progress.
    I would hope that, Mr. Manning, you can help resolve that 
issue with us. We spend a good bit of money, as you know, 
trying to do what is right to help communities when they are in 
need, as well as going forward in the planning and preparation.
    One of the issues that I do want to address during the 
question-and-answer period is we gave communities significant 
moneys to buy equipment, and rightfully so. We told them going 
in that you can take this money and you can help keep it up and 
then in the middle of the stream we said, oh, by the way, we 
have changed our mind. Well, most States and localities can't 
operate that fast. I think it puts those States and localities 
in very difficult positions.
    There are a lot of other things we could talk about. Mr. 
Chairman, you talked about that maintenance issue, also. That 
concerns a lot of us because when we go home we see these 
individuals in church, we see them in our various other 
affiliations, and they are very concerned about it. I am glad 
that Representative Kilroy has taken the lead in overturning 
this policy. Sometimes we have to do it at committee level when 
we can't get the agency to do it. A lot of money we need to put 
it in, we need to work with our State and locals. We brought 
people to town. My own State, Mr. Maxwell, had similar concerns 
about what you raised in your testimony. We need to involve 
people more before we just roll out these policies.
    I think, Mr. Chairman, as we go forward with the questions, 
I think you will see some of these issues brought out. I thank 
both of you gentlemen for pulling together this hearing. Thank 
you very much.
    Mr. Cuellar. Thank you, Mr. Chairman. At this time, I would 
like to remind each Member that he or she will have 5 minutes 
to question the panel, and I will recognize myself for 5 
minutes.
    Mr. Manning, I do understand you inherited this so we 
understand that fully. FEMA piloted the C2C project this summer 
with 17 States, urban areas, and Tribal governments. I 
understand that the pilot participants identified a lot of 
weaknesses with the tool.
    Why did FEMA initiate a second pilot program this fall with 
17 additional stakeholders without changing the tool to reflect 
the first pilot?
    Mr. Manning. Mr. Chairman, thank you for the question. The 
initial phase of the field trials of the C2C system, the tool 
looked at 17 different jurisdictions. Midway through that 
analysis, there was a determination made by the Grants Program 
Directorate that the 17 jurisdictions that were being looked at 
didn't fully account for the various sizes and complexities of 
the different jurisdictions that needed to be evaluated. So 
they selected an additional 17 to go through the trial. There 
was never an intent to change the system or to not change the 
system before going to the next phase of an analysis or to go 
live with it----
    Mr. Cuellar. I am sorry, Mr. Manning, so the 17 States and 
cities or areas did not fit what? Aren't we trying to fit the 
tool to match the customer instead of trying to get the 
customer to match the tool? That is what it sounds like you all 
are doing.
    Mr. Manning. Mr. Chairman, I am sorry if that is how I made 
it sound. No. The intent, it is my understanding the Grants 
Program Directorate, GPD, wanted to bring in additional cities, 
additional information prior to making the changes to the 
interface. There were concerns recognized very early on with 
some of the methodology and most certainly the interface, the 
programming of how the tool worked, which is a lot of the early 
input, before the methodological concerns came up. The addition 
of an additional 17 jurisdictions was simply to increase the 
amount of data available prior to the analysis and the large 
change to the system.
    Mr. Cuellar. Did you take any of the input from those 17 
States, cities, counties, local folks, and make any adjustments 
to the tool?
    Mr. Manning. Prior to the second phase? No, Mr. Chairman.
    Mr. Cuellar. Isn't that the purpose why you have a pilot 
program?
    Mr. Manning. As it has been explained to me, that was the 
intent of adding the 17 was to get more data before making the 
substantial changes to the system prior to another phase of 
either piloting, testing, or rolling out.
    Mr. Cuellar. Basic question. Title of the hearing today, 
``Preparedness: What Has the $29 Billion in Homeland Security 
Grants Bought, and How Do We Know?'' Answer that question.
    Mr. Manning. Mr. Chairman, the C2C is often looked at as 
simply the tool that is being tested in these first----
    Mr. Cuellar. Forget the C2C. Can you answer that question?
    Mr. Manning. Mr. Chairman, I believe there is a first step 
towards answering that question in what is actually the first 
phase of the Cost to Capabilities Initiative, which is the 
look-back report that was provided in early May 2009, and that 
is a cataloging, going back, scrubbing all the records, of 
cataloging what was actually bought, what was actually 
exercised and what was actually done with the grant money from 
2003 through 2007.
    Mr. Cuellar. We have to account to the taxpayers. If 
somebody asked me in Austin, Texas, 6th Street, somewhere 
around there, they ask me, you all just spent $29 billion since 
2002. What have you provided on the issue of preparedness? How 
do I respond to that question, besides saying well, we work in 
a C2C tool, on the fact that there is some reports. How do I 
answer that question?
    Mr. Manning. Mr. Chairman, I think it is, we have clearly 
improved our level of preparedness, we have clearly improved 
our ability to identify emerging terrorist threats and plots 
throughout the activities at the fusion centers and things that 
didn't exist prior to these grant programs. There is 
demonstrable improvement over the last many years. Aside from 
what we have been able to catalog for the actual items, that 
equipment that responders use to respond to potential acts of 
terrorism and emergencies and disasters every day, and aside 
from being able to point to the training, the exercise, the net 
increases in the number of people who are trained and certified 
to be able to respond to weapons of mass destruction incidents, 
we have solid data to be able to point to. Beyond that, we have 
not historically done anywhere near as good a job at measuring 
what we have actually in a net respect gained over the last 8 
years.
    Mr. Cuellar. Let me interrupt because my time is up. But 
let me just ask you. If I was to measure your performance, I am 
talking about the Agency's performance or even State levels, I 
am sure that two States here, Ohio and Arkansas, have done 
this, basic questions to ask agencies in a budgeted program 
review, basic questions and you get the answers on this. What 
is your program's or agency's primary purpose? No. 1. What 
citizens are you trying to affect? What key results are 
expected from the use of the taxpayers funds? What key results 
are expected from the taxpayer funds?
    What are the key performance indicators that you use to 
track progress attaining results? What were the results in the 
most recent years? How do these results compare to your target? 
Have any of the results been unexpectedly good or unexpectedly 
poor?
    How do results compare to other benchmarks, and let's say 
Ohio versus Arkansas or Texas whatever? If the targets were 
missed, why were those targets missed? What is the variants? 
What is currently being done to improve deficiencies? What 
actions does your new proposed budget include in improved 
results? How would the results change if your funding would be 
increased by 5 percent or decreased by 5 percent?
    So, questions, there are a couple other questions. Free 
advice. How much did you pay for your C2C?
    Mr. Manning. Mr. Chairman, I don't have the answer to that.
    Mr. Cuellar. You have got to have a general idea. I know 
you do.
    Mr. Manning. I know it is somewhere in the $5 million 
range, as I understand.
    Mr. Cuellar. Free advice for $5 million. I think we can do 
a little better and, Mr. Manning, I don't mean to be harsh on 
you because you took over this, but I think sometimes it is 
better to not defend something that is not working. Just say we 
already invested $5 million, and we are trying to make it work, 
go from 17 localities to another 17 to find the right feedback 
on that. I can give you this for free and, in fact, without 
objection I will put this part of the record, the basic 
questions on that. But you can get the same measurements. Now 
there is a lot of work in getting that information. I 
understand that. But to spend $5 million on a tool, I would ask 
you to reconsider that.
    At this time I would like to recognize the Ranking Member 
for his 5 minutes of questioning.
    Mr. Rogers. Thank you, Mr. Chairman, and again I thank the 
witnesses.
    Mr. Manning, a little over a month ago, Ranking Member Gus 
Bilirakis and I sent a letter to Administrator Fugate and one 
to Secretary Napolitano that I would like to have admitted into 
the record if there is no objection----
    Mr. Cuellar. No objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rogers [continuing]. In which we were expressing 
opposition to ACORN receiving a million dollar fire grant. I 
represent a large, rural, poor Congressional district and $1 
million goes a long way with all these volunteer fire 
departments. I understand you all stopped it. We haven't 
received a formal response. But why was ACORN going to receive 
a fire grant? Can you tell us that?
    Mr. Manning. Certainly, Congressman Rogers. The grants that 
ACORN received under the fire grant programs were awarded, were 
selected by a peer review panel of the Fire Service. There was 
a peer review panel empaneled by the Fire Service of members of 
the Fire Service to identify grant applications that would be 
effective. This particular part of the grant what ACORN's 
proposal was, was fire protection activities in low-income 
areas, specifically installing smoke detectors in low-income 
areas, in inner cities. That was what the grant was for.
    Mr. Rogers. Thank you very much. I have another question. 
The FEMA policy interpretation on the use of grant funds such 
as they cannot be utilized to sustain equipment is very 
concerning to me. A striking example of how this may negatively 
impact homeland security preparedness in response is the 
Securing Cities Initiative. In order to exist beyond 3 years, 
DHS has a strategic plan for the program States that homeland 
security grants funding could be leveraged to expand the 
capability as deemed useful by the region. This grants strategy 
is, in fact, frequently touted as the perfect solution for New 
York City to fund its vital homeland security program.
    My question is, how do you propose New York City maintain 
millions of dollars worth of radiological detection equipment 
if the administration is not requesting funds for it any more 
and suggesting that they apply to the grant program that would 
be rejected for that purpose under FEMA's new policy?
    Mr. Manning. Mr. Rogers, the policy, FEMA's policy, GPD's 
policy, on the limitations of expenditures for maintenance and 
sustainment, has been in place since the beginning of the 
grant, beginning of the grants. It has been a--while not well 
understood and not well explained over time, it has been in 
place in part of the grant programs. There are questions in the 
guidance every year about how does the jurisdiction intend to 
sustain the investment made under this year's grants?
    There are no limitations on maintenance for sustainment 
within the grant cycle that the equipment is procured. So over 
a multi-year grant those activities are available under the 
grant funds.
    It has been GPD's, it has been FEMA's policy, DHS's policy 
prior to it being in FEMA that the responsibility for the 
upkeep for taking on the maintenance tail of procurement be 
transferred to the grantee with the expiration of that 
particular grant cycle. What we did in the last, what FEMA did 
in the last few months, as I said, it was unclear. The guidance 
was unclear and vague over the years. There was repeated 
questions of us by grantees for clarification. FEMA issued this 
clarification of the existing policy, but in such a way, clear 
enough, that it appeared to be new to many grantees and has 
expressed a number of concerns, which while we had heard 
anecdotally prior, we are now hearing very explicit examples of 
where that is a concern.
    I can assure you that that issue is receiving the highest 
level of attention. We are looking at all the concerns that are 
being raised by the grantees. The explicit examples, as we 
heard in testimony this morning, are very helpful to allow us 
to examine our policy in depth and figure what is the best 
thing for the safety of the American public.
    Mr. Rogers. Thank you. Ms. Crandall----
    Ms. Kilroy. Would the gentleman yield?
    Mr. Rogers. Sure.
    Ms. Kilroy. I would invite the gentleman, which is 
concerned about the maintenance of the safety in New York City 
and other communities across our country, to consider 
cosponsoring legislation that would make this a requirement.
    Mr. Rogers. I am, thank you.
    Ms. Kilroy. Thank you.
    Mr. Rogers. Ms. Crandall, you mentioned earlier in your 
testimony how the lack of sustainment funds could affect your 
interoperability of your communication system. This is 
deviating a little bit from the subject matter of this hearing, 
but it piqued my interest. Are you finding that you have solved 
your challenges with interoperability within your system or 
not?
    Ms. Crandall. We have solved our problems in the Columbus 
urban area, yes, we have.
    Mr. Rogers. I am so proud to here somebody has finally done 
that. That is the first person I have come before this 
committee to tell me that they have solved that.
    Mr. Maxwell, I want to note that you are the only person on 
this committee without an accent, and I am proud to have you 
here. What recommendations--in particular, you talked to about 
C2C--what specific recommendations do you have for FEMA that 
would improve the C2C Initiative?
    Mr. Maxwell. I think with Mr. Manning's help, we are 
working toward defining what is ``preparedness.'' We have 
talked around standards for preparedness for years and years 
and years, and I don't think there is a common understanding of 
what is preparedness, what capabilities do we need.
    I think as we go forward, we have to define those things, 
establish some standards that are flexible enough to meet the 
needs of rural States and urban States, rural communities, 
urban communities.
    Mr. Rogers. So it is just a definitional problem as far as 
you are concerned?
    Mr. Maxwell. I think so. A lot of it is establishing those 
standards so we can clearly, across the board, identify what we 
have done and what we need to do.
    Mr. Rogers. Thank you very much. I yield back.
    Mr. Cuellar. Thank you, Mr. Rogers. At this time I 
recognize the Chairman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much. I have followed with 
great interest the questions that have been raised so far.
    Mr. Manning, you have inherited this responsibility. Have 
you and the Secretary, Mr. Fugate, whomever, had an opportunity 
to study this C2C program and determine whether it makes sense 
or we might need to do it like we have done all these other 
programs when there is some question as to their viability?
    Mr. Manning. Mr. Chairman, we have looked closely at all of 
our initiatives. One of the very first things that 
Administrator Fugate did when he came on board was to issue a 
moratorium on new data calls essentially, new big initiatives 
that go out to our partners at the State and local, Tribal 
governments for new bits of information.
    We had by different counts, different numbers, but five 
major initiatives on par with C2C collecting data from our 
partners, grantees, and State, local, and Tribal governments. 
The C2C initiative, one of them, the first part with the look 
back was a very effective cataloging, I think, of what we have 
done to date. The next part was to be to look forward. Now at 
the same time we have another, a number of other initiatives 
looking at similar things, and as part of that moratorium the 
administrator directed me to establish this working group, on 
which Mr. Maxwell serves, to identify all the different things 
we are asking at the same time and what is the best way to do 
that, with the hope that in the future, we have an effective, 
we do exactly as you are describing, Mr. Chairman, of taking 
C2C and where it is similar to the GAP program, or the 
Comprehensive Assessment System, or the NIMSCAST, or any 
others, and do it once so we have a methodologically sound data 
collection that results in outcomes, not simply outputs as the 
Chairman has pointed out in the past, and has the least amount 
of impact on our grantees as possible, allows them to get on 
with their work with preparing the Nation for emergencies and 
disasters.
    Mr. Thompson. Well, maybe I need to say when are you going 
to finish? I heard what you said. What I am really trying to 
get at is you are basically prepared to go forward with the 
program at this point?
    Mr. Manning. Mr. Chairman, we do not intend to use it for 
making grant allocation decisions, as described previously. It 
is a good assessment system that we have to take, we have to 
take the input we have heard into account and make sure that 
system is correct before it goes----
    Mr. Thompson. So what are you going to use it for?
    Mr. Manning. Mr. Chairman, it was designed to assess the 
increase in capability. I think what we are planning to do is 
to take a close look at the results of the pilot. We have to 
look closely at the results of the entire--our evaluation of 
how well the system worked as well as the input taken from the 
partner governments that have worked with us, both the first 
and second half of the two gangs of 17 that helped us in that.
    We will use it in conjunction with our State preparedness 
reports, the other assessments systems, but ultimately, Mr. 
Chairman, to identify a unified single way of assessing what we 
are doing and do it correctly. It does nobody any good, Mr. 
Chairman, I think, to go forward with a program that has not 
been completely vetted and doesn't have the support of the 
grantees, doesn't necessarily meet the methodologic rigor that 
we require in order to make informed decisions.
    Mr. Thompson. The term that the committee has been provided 
is that C2C will put meaningful measures in place that show how 
homeland security grants are used to enhance the Nation's 
preparedness.
    Now if I just heard what you said is you are now going to 
modify that to do something else.
    Mr. Manning. Mr. Chairman, I think the system, the C2C 
system, was designed specifically to look at capability 
increases. While there are certainly, as pointed out in the 
other witnesses' testimony this morning very ably, there are 
problems with how it does that at the benchmark level, in the 
beginning. But, if we can solve some of those issues, it may 
measure the increases in capability effectively. However, it 
doesn't take risk into account. It doesn't take threat into 
account. So before we can use it or anything like it to make 
any kind of--it can inform our decision-making but it can't be 
used to make funding allocation decisions until it is 
consistent with the Post-Katrina Emergency Management Reform 
Act.
    Mr. Thompson. I guess my point is if you keep moving the 
ball, can you imagine what our State and locals are going 
through with this? It is a real challenge. The committee was 
provided with this chart, which it looks good, like, you know, 
most charts we get presented. But when you start trying to put 
the realities of the how things get done, I can understand Mr. 
Maxwell's concern about definitions and some other things. I 
would suggest to you, sir, that you probably need to revisit, 
and I think this is a 3-week-old chart of this process. Some of 
the testimony that we heard today is a little inconsistent with 
what we hear, what we have on this chart. I would suggest that 
you probably have your people look at it again.
    I yield back, Mr. Chair.
    Mr. Cuellar. Thank you, Mr. Chairman. At this time, I would 
like to recognize the gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. Mr. Manning, I think I 
heard you correctly, you said that C2C does not take into 
account threat or risk levels. You know from the inception of 
this committee and when the Department was created, we have 
attempted to tie funding to the areas of greatest threat and 
risk. So to me that is disturbing. I know, Ms. Crandall, you 
said that C2C should be modified to take into account threat 
and risk. In your words you said it is ignored under the C2C.
    That is probably the biggest flaw, if you will, that I see 
in the system. I know you just sort of inherited this. But I 
would like to get comments from the two of you on that and how 
you can modify it and change it so that it is threat- and risk-
based.
    Mr. Manning. Mr. McCaul, I think whether or not we can 
modify this existing system to incorporate risk, I actually 
don't have the answer to that. The purpose of the pilots is to 
see how effective this system may have been in measuring 
increases or potential increases in the capability to respond 
to essentially our policy-driven planning scenarios, the target 
capabilities list and the National planning scenarios.
    Incorporating threat and risk I believe is something that 
probably has to happen with the output of the C2C system. We 
think of risk as threat, vulnerability, and consequence. With 
the C2C being the increase in capability or another way to look 
at the vulnerability of a particular jurisdiction, invert that, 
it is something that can be used to inform our idea of risk and 
then make the funding decisions. That was probably as far as 
where we were able to go with the system.
    It is simply meant to measure the increase in capability 
that can be gained from the application of resources with grant 
dollars.
    Mr. McCaul. Ms. Crandall, what is your take on that?
    Ms. Crandall. I think we are looking at two different 
pieces here. At the FEMA-DHS level, they were looking at how to 
measure capability, gain, sustainment and the cost of it across 
the country. They based that on the National scenarios.
    The problem with that is that the National scenarios are 
not fully implemented or needed in every State and urban area. 
We have our own threat risk and need clearly identified and 
written in our strategy. When you try to nationally judge and 
evaluate something and you put up standards that don't apply--
prime example, when I did cost to capability for the Columbus 
urban area, improvised explosive device came out to be one of 
the lowest things we needed to worry about when in reality it 
is the top thing we worry about based on our assessment 
evaluation. Things that are prevalent in Arkansas and Texas we 
will never see in the State of Ohio.
    So to build a target capability to be able to evacuate 
Columbus, Ohio, with 3 days' warning is absurd because it will 
never happen to us. We don't have hurricanes. So the problem 
comes into can C2C be formulated to come down to the threat 
risk of my urban area so that for me that cost to capability is 
what we need in Columbus and not what we see Nationally in a 
very broad-based program.
    Mr. McCaul. I think that is great advice to Mr. Manning. I 
think that this money in my view is not to be used to supplant 
State and local budgets so they can spend money elsewhere. It 
really should be designed based on the risk and the threat in 
the area and where can we direct the dollars throughout the 
country where they are most needed? This has really been a 
problem since the inception of this.
    Mr. McCaul. Also, it is so subjective. There is no 
objectivity to this at all. You just simply send the survey to 
the locals, and they fill out: Does this help you make you more 
prepared? Of course, you are going to say yes because they want 
to continue the flow of dollars to their jurisdiction.
    It seems to me that there needs to be something more 
objective in place to oversee how the dollars are spent; 
otherwise, we are going to be looking at duplicative spending 
and waste, fraud, and abuse. Do you have any thoughts on that, 
Mr. Manning?
    Mr. Manning. Certainly, Congressman McCaul. I think you hit 
on what is probably the most difficult part of the 
methodological problems with the system as it was rolled out 
there. Everything is based on what is currently a fairly 
subjective ranking of your level of capability against one of 
the target capabilities. In order to have measurable data, in 
order to have useful data that is empirically sound across all 
of the jurisdictions, it has to be done the same way across 
every one of the jurisdictions. Currently, we would have 118 
different measurements for every one of those sliding scales. 
Until we can come up with a sound methodology for determining 
that based on capability in the beginning, we are going to have 
that problem. That is something that is certainly at the core 
of the concerns.
    Mr. McCaul. I agree with that. I see my time has expired. 
Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you very much. At this time, I would 
like to recognize the gentlewoman from Nevada, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Nevada was selected as one of the 17 in the second phase of 
the pilot program. I wonder if you can tell me kind of why 
Nevada was chosen. I also would like to be updated on how it 
does in that pilot program. I will be talking to the people in 
Nevada as well.
    Then my second point, I would like to ask you about the 
urban areas security grants. My district in Las Vegas contains 
one of the most well-known unique tourist destinations in the 
world. We have people coming from all over the globe to visit 
there, and this also makes us, unfortunately, a target for 
terrorists.
    Yet, the current model for allocating those grants I don't 
think takes into account some of those unique qualities of Las 
Vegas. For example, it doesn't take into account the long-term 
impact, which is pretty unimaginable. Also, when you have 
formulas just based on population, that doesn't take into 
account the millions of tourists who are there who also have 
special needs. So I wonder if you could tell us what you are 
doing to improve those allocation metrics so that we can do a 
better job of giving out those grants.
    Mr. Manning. Certainly. If I may start with the last 
question and work my way back. The current risk formula is 
being evaluated. We continually evaluate how we do all of our 
programs and policies, and we are looking at how we think of 
risk, how we think of threat, and how the grant distribution 
decisions are made.
    As to the tourist population, there is transient 
population, visitors, visitor data. Those data are used in the 
determination of population daytime, nighttime populations and 
numbers from various sources on tourists and visitors are 
brought into bear on those calculations. Whether they receive 
the right amount of ranking, that is something that we are 
examining and we will continue to examine.
    As to why Nevada was selected for the second round of the 
pilots on the cost capability assessment, that was Nevada is a 
good representative State of some of the unique attributes of 
the western United States. I come from New Mexico. We have very 
similar concerns there, the high density or high population 
centers surrounded by vast rural areas and small towns and 
communities. There are aspects to time and distance and 
geography in the western United States that don't manifest in 
the eastern United States, especially in building capabilities, 
things like special response teams where a plainer view on the 
map they may look like you can get there in an hour, but in 
fact, it takes six to get around a mountain range. Things like 
that. So it was aspects, those types of aspects that were 
looked at trying to grow the number of 17 to make sure that 
they were a representative sampling of jurisdictions taken into 
account in the first round of analysis of the tool.
    Ms. Titus. Thank you. Would you keep me updated on how 
Nevada is doing? Like I said, I will talk to the people in 
Nevada, too. Your reassessment of those metrics for the grants, 
will they be ready for the next cycle of allocations or not?
    Mr. Manning. Ma'am, we will continue to evaluate these 
things, all of these systems and work through the 
administration and the Secretary. As we find, as we identify 
places for changes in policy, we will make those 
recommendations to the Secretary. I don't have an answer 
directly to your question.
    Ms. Titus. It is just on-going. It is not time-certain.
    Mr. Manning. Yes, ma'am.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Ms. Titus. At this time, we would 
like to recognize the gentleman from Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Mr. Manning, is there maybe an unspoken assumption in the 
agency that an increase in spending directly correlates with an 
increase in capability?
    Mr. Manning. Yes, sir. I think that the fundamental concept 
of how we were implementing these grant programs, they are 
inherently designed to increase capability. I think there is--
yes, sir, there would be the presumption that as we implement 
new programs, there would be some measurable increase in 
capability. However, we constantly strive to measure that 
effectiveness. Whether they are efficient and effective in 
increasing capability or preparedness is certainly the question 
and what we are trying to measure.
    Mr. Cleaver. I think several other Members, I think Mr. 
McCaul mentioned the subjectivity here and you heard probably 
more than you want to hear today. But that is a very real and 
strong concern that I have. I have a list of all the agencies 
in my Congressional district in Missouri that would be impacted 
by this, and I have this weird belief that I was sent up here 
to protect our interests. So I am very concerned about that. 
But I guess--and I got here late.
    I am in a markup in Financial Services, so I apologize for 
being here late. But maybe the most significant question for 
me, and maybe the Chairman has already dealt with this, I don't 
understand why there were no changes made prior to the 
implementation of the second pilot program. I think the 
Chairman requested that.
    Mr. Manning. Congressman Cleaver, I think the simplest way 
to answer the question would be to consider it two halves of 
the same assessment. It wasn't designed to be a phase one, make 
changes; phase two, to test the changes. It was going out with 
phase one and kind of adaptive methodology in the evaluation 
system. I think they went with phase one, their initial 17, 
realized that they weren't collecting the data they needed to 
be able to make a valid assessment. They certainly were getting 
input. They were certainly collecting valuable information on 
the effectiveness of the programming, of the code, of the 
philosophy behind the system. But they wanted to measure 
against, as I was describing a minute ago, with other 
jurisdictions. Not simply to find jurisdictions that fit the 
tool better, but to find other jurisdictions that stressed the 
tool, that had different planning considerations behind the 
jurisdictions that maybe didn't come into account with places 
like New York and California or Columbus. I think in my 
experience, too, granted, while I wasn't involved in that 
decision-making, I always prefer more data than less data, and 
I think they were simply trying to get more information to be 
able to make decisions on how to change the tool before they 
moved forward. That is how I understand it.
    Mr. Cleaver. I appreciate that. You know, I guess what 
happens if we say to our constituents that changes are going to 
be made, and then only to discover that they were not? I 
understand what happened. I am not sure that I have a high 
level of appreciation for not being told what was going on. I 
have--I mean, the Chairman was quite eloquent and capable of 
doing it, of dealing with this himself. It was just something 
that troubled me.
    Finally, let's move back to this subjectivity, because 
subjectivity, and at least with regard to this program, depends 
a lot on who is inputting the data. Can you say something to me 
that would cause me to believe that the data inputter has 
something that would reduce the subjectivity? Or do we just 
understand this is going to be subjective, very subjective, and 
that is just the way it is and let's move on?
    Mr. Manning. Mr. Cleaver, I cannot. I think that is the 
biggest flaw to the system that has been identified. I 
recognize that as well, and--when I saw the system, and I think 
that is something that is being closely looked at.
    Now, Mr. Maxwell commented in his remarks about how do we 
measure. When we talk about are we prepared, we have to define 
preparedness. We have to decide against which, against what are 
we trying to prepare. So I am not sure that we will ever be 
able to get away from some degree of subjectivity.
    Mr. Cleaver. I agree. Let me tell you my nightmare. I 
happen to believe in earmarks. I believe that that is the only 
thing that the Constitution says that Members of Congress are 
supposed to do is spend, spend the money. That is the only 
description of Congress in the Constitution. But I always have, 
and the reason I support it, because I have this nightmare that 
there is somebody down in the basement who has never gone west 
of the Mississippi River making decisions about Kansas City, 
Missouri. I just don't feel comfortable with them, whether they 
are in the basement or upstairs, because--well, this--I will do 
this, I will do that. I understand that, unfortunately, God 
only created humans, so we don't know what else we can deal 
with and there is going to be subjectivity there. But I would 
surely hope that there could be put in place something that 
would at least monitor the subjectivity or in some instances 
interfere with it if things go awry. Maybe there is nothing 
that we can do about it.
    I needed to express my concern about my own State, my own 
district with regard to--you know, I tell people I am from 
Kansas City, and they say, well, how are things in Kansas? I 
mean. So, and they don't even know the difference. I was mayor, 
and people would say, are you mayor both of Kansas City, 
Missouri and Kansas City, Kansas? I would say, yeah, just like 
the mayor of New York and the mayor of New York in Montreal. 
But people--I mean, I don't want those people making decisions 
about my community and they have absolutely no understanding of 
it. Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Cleaver. At this time I would 
like to recognize the gentlewoman from Ohio, Ms. Kilroy, for 5 
minutes.
    Ms. Kilroy. Thank you, Mr. Chairman, very much. I 
appreciate the opportunity to join you this morning. As you 
know, I am very concerned about the FEMA's new policy 
restricting preparedness grants for being used to maintain 
homeland security equipment. The clarification, Mr. Manning, 
that you discussed certainly does look like a reversal of 
course to those in the trenches. Someone who came from local 
government, came from county, I know very well how the planning 
for the use of the equipment and the cost of this equipment, 
and now complicated by lower funds available for local 
government in these economic times is a very major concern. The 
reversal, of course, right now certainly does need to have your 
highest attention as you said. I also want to make sure, 
though, that Congress restates its intent, because I believe 
that this policy violates Congressional intent. That is why I 
introduced legislation, H.R. 3837, the Sure Act, to make sure 
that the agency does recourse on this. I want to thank Chairman 
Cuellar and Chairman Thompson for cosponsoring this bill and 
for working with me on this issue. I hope that it is something 
that the State and county organizations that are facing this 
issue takes to their bodies, such as the Emergency Management 
Association, look forward to working with you and hopefully 
getting your input.
    I am also concerned because, as you heard in questioning 
from Mr. Rogers and Ms. Crandall's testimony, that Franklin 
County and its first responders, its local officials, its 
elected officials made interoperability and protecting the 
first responders our top priorities for usage of UASI grants 
and other funds that might be available for us. I would like to 
ask Ms. Crandall to elaborate on how the interoperability might 
be adversely affected should this policy remain in place.
    Ms. Crandall. Thank you. The interoperable communications, 
as I stated previously, is probably the largest investment that 
we have to sustain. There is a migration currently from 
analogue, 800 megahertz to digital, 700 megahertz to improve 
and expand beyond Ohio and across the country the capability 
for interoperability.
    The equipment that we purchased with homeland security 
dollars and local dollars and justice dollars not only has to 
be maintained on a consistent basis to keep those towers up and 
running, but we also have to now migrate some of that equipment 
that we have spent tens of millions on from an analogue 
platform to a digital platform. The planning that went into 
interoperability in the Columbus urban area was over a 2-year 
period. We have used 50 percent of homeland security funds 
since the beginning of homeland security grants to build that 
capability to reach the highest level of interoperability on 
the spectrum and the continuum that is put out by FEMA/DHS.
    If we can't upgrade the towers, if we can't flash upgrade 
radios, if we can't continue to buy batteries and pay repair 
costs, if we can't use the interoperability for data, which is 
the next step, and instead have to buy all new equipment to run 
parallel, the cost will be staggering in the duplicity for 
absolutely no reason.
    Ms. Kilroy. Thank you. It is always a major concern, and a 
concern that came about taking a look at the reports from some 
National incidents about where the vulnerabilities were we 
needed to address. But it was also local peer-to-peer 
discussions that allowed that to happen.
    I am also somewhat concerned that this C2C system now won't 
allow for that unity of purpose to be able to be generated and 
also have that State and local input.
    So I would like to again ask Mr. Maxwell and Ms. Crandall 
about how your local communities see the assessment of your 
local threatened risk with the C2C system and obtaining unity 
among your very first responders.
    Ms. Crandall. For the Columbus urban area, the urban 
working group as we work through C2C we had to do the State 
preparedness report as an urban area because it is the base of 
C2C. We started there, and we started with the discussion of 
where is it going to take us if we are valuing preparedness for 
wildfires and hurricanes and issues that do not apply to the 
State of Ohio, let alone to the Columbus urban area.
    The frustration is great. National scenarios, again, very 
broad-based and perhaps Nationally most important. But to the 
Columbus urban area and the State of Ohio, we wrote a strategy 
after evaluating and assessing to tell us where our 
vulnerabilities were, to tell us the level of target 
capabilities we have that are critical to faith, and prepare 
for the threat and risks specific to us. C2C doesn't allow for 
that at this time.
    Ms. Kilroy. I would say, Mr. Manning, that I am concerned 
that the C2C is trying to be too much of a one-size-fits-all 
and too much Washington-based and, as Mr. Cleaver indicated, 
not taking in the concerns of local communities. We--if you 
refer back to our founding, it is one if by land, two if by 
sea. Well, we won't have two if by sea in Franklin County and 
Union County and Madison County in Ohio, and but we do have 
real threats that should be monitored, should be assessed, and 
should have the most effective strategy to prepare for. Could 
you address the Nationalization of this process?
    Mr. Manning. Certainly. Yes, ma'am. In the assessment of 
the level of capability, that is ultimately to the grantee, to 
the user. So in the case of Franklin County, the determination 
of the baseline, where are they against--and how capable are 
they against a particular capability. That determination is 
made by Franklin County. But where the problem lies, Mr. 
Cleaver is alluding to, and I believe that you are alluding to, 
as well as some of the foundational documents that aren't part 
of C2C but on which C2C is built, and that is the target 
capabilities list, the National planning scenario, some of the 
doctrinal things that DHS has generated over the years. They 
presume--the target capabilities, for example, were a policy 
that was trying to establish baseline capabilities that need to 
be achieved in every community across the country. That was 
recognized pretty quickly to be unachievable; that the level of 
capability needed by Franklin County is not probably the same 
as needed by Luna County in New Mexico.
    So there is a new--there was a revision in process to try 
to base that on population. However, that doesn't take into 
account the complexities of various jurisdictions that we have 
all I am sure experienced, again, as Mr. Cleaver is alluding 
to, from Kansas City. So we recognize that as well. These are 
all important things and that were identified. Ultimately the 
purpose of a pilot study to assess whether a new system will 
achieve its intended goals, in this case, measuring the level 
of capability, again, I think we have identified a number of 
significant shortfalls in the system that need to be addressed 
prior to it being used for anything other than a simple narrow 
look into the effectiveness of the grant program based on the 
assessed, the stated goals of a particular jurisdiction.
    Ms. Kilroy. Thank you, Mr. Chairman. I yield back.
    Mr. Cuellar. Ms. Kilroy, thank you very much. At this time, 
I recognize the gentlewoman from California, Ms. Richardson, 
for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Manning, based upon what you have heard so far today, 
what would your recommendation to the Secretary and the 
administrator be?
    Mr. Manning. Ms. Richardson, I believe the recommendation 
would be that the cost capabilities pilot, while we need to 
examine closely--continue the analysis of all the data 
collected, that the system as it currently stands is useful to 
assess a particular jurisdiction's increase in capability over 
their stated beginning point, and beyond that can be used 
possibly to help inform grant decision-making, but not--it is 
not a system that can be used to solely make grant distribution 
decisions.
    Ms. Richardson. Have you seen the letter from the mayor in 
my area dated September 21 to the Secretary, mayor of Los 
Angeles, the second largest city in this Nation? Have you read 
this?
    Mr. Manning. Yes, ma'am.
    Ms. Richardson. So how, if you have read this, can you say 
this system was useful if the whole point of the pilot was to 
evaluate the system?
    Mr. Manning. Ma'am, I don't believe that the system--the 
concerns addressed in Mayor Villaraigosa's letter are valid, 
are directly on point. They hit with all of the points we have 
discussed this morning, the fact that it doesn't take risk into 
account, the fact that there are critical points in the 
methodology which are subjective.
    When I describe that I think that it is useful, I think it 
is not useful, it may not be a useful tool as originally 
intended, as piloted and reflected in the mayor's letter. It 
may be useful in simply measuring the gain from one point to 
another as assessed by the jurisdiction, which is very 
different from being useful and making any kind of grant 
distribution allocations.
    Ms. Richardson. I just got through with flying 24 hours 
from Samoa, so I am going to apologize for my frankness. There 
is no such thing as being half pregnant. You are either 
pregnant or you are not. In my opinion, when you look at the 
second largest city in this Nation that participated in a pilot 
that says provided no guidance or value for assessing homeland 
security investments, are not based upon the methodology 
approach, and as a result, the project scores will be 
inconsistent or accurate, even though I am going through--there 
are seven points here.
    I don't understand how you can say, well, it might be 
useful for this, it might be not useful for that. You know, the 
American public is spending hard-earned money that many people 
don't have shoes on their feet, you know, don't have jobs, we 
are spending money continuing to implement something that you 
know does not work.
    To me, in my opinion, that is the epitome of wasteful 
spending and the Government's continued failure to listen and 
to adjust. We don't need to continue what we know does not 
work. We should put--in my opinion, you should put your feet on 
the brakes and reevaluate and get something that does make 
sense and then continue your process. But to continue something 
with 17 other locations that you know doesn't work, I mean, 
help me understand how you can, in your professional opinion, 
do that.
    Mr. Manning. Yes, ma'am. I agree that there are significant 
problems with the methodology to use that system to cross-
analyze multiple jurisdictions. Absolutely.
    Ms. Richardson. Isn't that the point of what the tool is 
for?
    Mr. Manning. The tool--yes, ma'am. That is why we are doing 
the pilot study, was to collect all of the problems with the 
system, to identify if there are problems. Which we have. We 
have received those same comments from many other jurisdictions 
that have gone through the pilot program.
    Ms. Richardson. So why are you continuing it?
    Mr. Manning. We are continuing the pilot program. We are 
continuing to the conclusion of the pilot program and the 
analysis of all the data so we can make our final decision and 
make a recommendation through to the administrator and the 
Secretary.
    Ms. Richardson. You don't have a recommendation right now?
    Mr. Manning. I am aware of all the concerns, but I don't 
have--the pilots are not complete and we haven't looked at all 
of the data. We certainly have heard the concerns and 
understand the concerns of Los Angeles and New York and Houston 
and other jurisdictions. Yes, ma'am.
    Ms. Richardson. Okay. You are familiar with the cost and 
the time and everything. How much does it cost to do this 
program?
    Mr. Manning. Ma'am, I don't have the information on a per 
jurisdiction basis or the pilot, the expected cost to 
completion. But I can collect that information and provide it 
to you.
    Ms. Richardson. My time has expired. What I would say to 
you, from my experience and from your testimony and what I have 
heard from my colleagues, I believe, as I said, this is a 
perfect example of Government waste and abuse and poor work. I 
would hope that, rather than us continuing down this road, that 
you would properly make some evaluations and stop. Then as you 
go forward and make true evaluations--and I can't stress 
enough. If you come from a district which Secretary Napolitano 
has flown over it, where you have refineries and ports and 
airports and water treatment facilities and all that, if it is 
not working here, you are wasting our time. I have got to tell 
you, like I said, coming from countries and places America 
Samoa who really need our help and need FEMA to be active, I 
just think this is an embarrassment. Thank you.
    Mr. Cuellar. Thank you, Ms. Richardson. Mr. Manning, I 
don't know if you noticed, there is a tsunami of concerns on 
this issue. Do you have anybody that liked this C2C?
    Mr. Manning. Mr. Chairman.
    Mr. Cuellar. Besides the contractor.
    Mr. Manning. Mr. Chairman, I have not--to my knowledge, I 
have not received any letters in support.
    Mr. Cuellar. Who is your customer, if I can use that term?
    Mr. Manning. Absolutely. The customers are the grantees, 
the State and local governments and the American people.
    Mr. Cuellar. So if your customers, along with the oversight 
committee, ourselves, are having concerns about this, I 
understand as you mentioned to Ms. Richardson you are going 
through the process to finish your pilot program. But I hope 
that you consider this. I still ask you to go back and just go 
back to the basics. If you go to mission performance, you have 
got to look at what is your mission, what is your goal, what is 
your strategy. As you develop the goals and the strategies of 
performance measures, you are going to come up with, I think 
Mr. Maxwell brought up, Mr. Rogers, is your definitional 
issues. It takes a long time.
    For example, as Mr. Rogers mentioned, what is preparedness? 
Who is going to define that? You are going to have a 
definitional issue there. So do you prepare that, or do you get 
in with the organizations and come up with what preparedness 
comes up? It might be different what Ohio might want and what 
California might want or Texas might want or Arkansas, but you 
have got to develop at least some basic structures that fits 
under the definition of preparedness. I think if you don't go 
back to the basics--and, again, we understand, Mr. Manning, you 
are in a difficult situation because you are picking up the 
baton where it was left. But I still ask you to go back, just 
go back to what I gave you this for free. I think it was--you 
mentioned $5 million when you answered my question before she 
got in.
    But out of curiosity, the committee, I am going to ask you 
to submit the information what the cost of the software was for 
this, and if you can provide that information. But I think what 
we are seeing here is the focus is using a software to 
substitute basically what we can do, that is, on the 
performance measures. What goes in is going to come out on 
that. I am not using those terms. I haven't had 24 hours on the 
airplane, so I will be more a bit more diplomatic. But 
basically what is going in is going out on that. But I would 
say that--I mean, I would say you have just got to go back to 
the basics and don't put your eggs on this tool, because I 
think everybody is saying we don't like this tool. I think if 
you sat down and asked the association Mr. Maxwell is going to 
be the new president or is the president on, and say, okay, 
what should be our mission, what should be the indicators, what 
is the performance measures, what is the strategy, what is the 
goal, where do we have issues with definitions.
    I think if you do that you will save yourself $5 million 
plus, and I think you will save yourself a lot of headaches 
also. Mr. Manning, you are doing a good job. This is it, but I 
know on the strategic plan that we asked you, I think you are 
one of the first ones that has given us that information before 
anybody. It is a new leaf turned. I know you are in a difficult 
situation. But I want to ask you to seriously consider the 
tsunami of negativisms that you are getting in from the locals 
and from the oversight committee.
    Mr. Rogers? Anybody want to add anything else before we go? 
Mr. Cleaver, any Kansas City things? All right. Ms. Kilroy, 
thank you for the bill that you filed. I appreciate the 
leadership.
    At this time, I want to thank all the witnesses for being 
here. Members on the subcommittee might have additional 
questions for the witnesses, and we ask you to respond to that 
as soon as you can. Ask you to do that. Also, members, I want 
to ask you, with your permission, without objection, the chart 
on how the CQC--if you haven't seen that, I would ask that be 
made part of the record, but before that is made part of the 
record, I want to pass that on and have you hand that over to 
the clerk so you can get an idea.* We are making this very 
complicated, and I would ask you to really seriously consider 
modifying this to something that works a lot easier.
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Manning, I would love to sit down with your staff, 
whoever your persons are on performance, and ask you to sit 
down and we will give you some ideas, some suggestions. It is 
up to you. You are the Executive branch. But we would like to 
give you some suggestions. Hearing no further business, the 
hearing is adjourned. Thank you.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned, 
and the hearings were concluded.]


                            A P P E N D I X

                              ----------                              

      Questions From Chairman Henry Cuellar for Timothy W. Manning
    Question 1. Your testimony suggests that FEMA may choose not to 
integrate the Cost to Capability (C2C) tool into the fiscal year 2011 
Homeland Security Grant Program (HSGP) as initially envisioned. 
Recognizing that the administrator inherited this program from his 
predecessor, what is FEMA's time line for reviewing the two C2C pilot 
programs and making a decision on C2C's future?
    Question 2. Please describe how FEMA intends to incorporate 
feedback from C2C's two pilot programs into the final tool.
    Answer. FEMA has requested a rollup of all comments related to the 
first two C2C pilots from pilot participants. This information will be 
reviewed along with other evaluation and assessment efforts currently 
being conducted in FEMA. FEMA wants to ensure that State and local 
jurisdictions are only asked to provide data once (instead of multiple 
times) and that this data can be shared across all applicable programs 
in FEMA.
    We have received a number of useful suggestions relative to 
measuring the effectiveness of grant funds. We will determine a course 
forward based on all available data and ensure that our partners in 
Congress are briefed on our future course.
    Question 3. Why did FEMA choose to base the C2C tool on the 
National planning scenarios rather than target capabilities? Please 
explain how the C2C tool maps target capabilities to the National 
planning scenarios.
    Answer. The C2C prototype utilized the National planning scenarios 
in a simple approach to prioritize the target capabilities. The 
approach used both the scenarios and the target capabilities in a two-
step process that resulted in a set of relative weights for all target 
capabilities. The process was adopted because of its intuitive nature 
and its ability to compensate for inconsistencies in the input data and 
still generate a consistent result. With the understanding that the 
current effort is a pilot of a prototype, it was assumed that the 
prioritization approach could change based on grantee input. The other 
parts of the prototype are independent of the prioritization approach, 
but require that the prioritization results in relative importance 
weights for the target capabilities.
    Question 4a. Please provide the following information for each of 
these programs: Cost to Capability pilot, Target Capabilities List, 
Comprehensive Assessment System, Federal Preparedness Report, 
Catastrophic Resource Report, and the State Preparedness Report:
    The amount spent per fiscal year since the Congressional 
authorization of the program;
    Question 4b. whether any of the work for the program has ever been 
or is currently being completed by a contractor;
    Question 4c. the contract number(s) for any and all work that has 
been or currently is being completed by a contractor; and,
    Question 4d. a breakdown of the number of Federal employees and 
number of contractors per project.
    Answer.
Cost to Capability Pilot:
    1. The amount spent per fiscal year since the Congressional 
        authorization of the program: $4.2M FY 2008, $2.7M FY 2009 
        (coverage through Sep 2010).
    2. Whether any of the work for the program has ever been or is 
        currently being completed by a contractor:
    3. The contract number(s) for any and all work that has been or 
        currently is being completed by a contractor: FY 2008 and FY 
        2009 contract: (TAD) GS-23F-9755H; Task Order #: HSHQVT-07-F-
        00015; Sep 2009 through present contract: (C2C) HSFEEM-09-F-
        0263
    4. A breakdown of the number of Federal employees and number of 
        contractors per project: All FY 2008 work completed by 0.5 
        Federal FTE program director and 21.5 contractor FTEs; all FY 
        2009 work through Aug 2009 completed by 0.7 Federal FTEs 
        (program director and systems advisor) and 13.5 contractor 
        FTEs; as of Aug 2009, work split between 5.5 contractor FTE on 
        new contract, 13.75 contractor FTE on old contract for pilot 
        report surge and short-term transition and 4.5 Federal FTE 
        (full time director and staff).

Target Capabilities List:
    1. The amount spent per fiscal year since the Congressional 
        authorization of the program:
    2. Whether any of the work for the program has ever been or is 
        currently being completed by a contractor:
    3. The contract number(s) for any and all work that has been or 
        currently is being completed by a contractor:
    4. A breakdown of the number of Federal employees and number of 
        contractors per project:
    In the on-going Target Capabilities List (TCL) Implementation 
project, the role of contract support is to provide the Program Office 
with management and administrative assistance, coordination support to 
participating Federal, State, and local subject matter experts, meeting 
facilitation, and research and analysis on policy guidance, standards 
and statutory requirements influencing capability development. The 
draft capabilities are the product of feedback from the Federal, State, 
and local subject matter experts to the Program Office.
    In fiscal year 2007, FEMA spent $863,000 on the development and 
finalization of Version 2.0 of the TCL through Contract #HSHQDC-07-F-
00203 with 3 contractor FTEs and 4 Federal FTEs. The initiative to 
update the TCL in accordance with Section 646 of the Post-Katrina 
Emergency Management Reform Act of 2006 began in fiscal year 2008, with 
FEMA spending approximately $1,780,000 on the TCL Implementation 
Project through Contract #GS-10F-0148J and #SP0700-03-D-1380-0151-06 SV 
TAT 06-25 and dedicated 2 federal FTEs to the effort with 10 FTE 
contractors provided support. In fiscal year 2009, FEMA spent 
approximately $1,900,000 on the TCL Implementation Project with 
Contract #HSFEHQ-08-A-1889 and #HSFEHQ-08-J-0005 dedicating 3.5 Federal 
FTEs and 10 contractor FTEs to the effort.

Comprehensive Assessment System:
Federal Preparedness Report:
Catastrophic Resource Report:
State Preparedness Report:
    1. The amount spent per fiscal year since the Congressional 
        authorization of the program:
    2. Whether any of the work for the program has ever been or is 
        currently being completed by a contractor:
    3. The contract number(s) for any and all work that has been or 
        currently is being completed by a contractor:
    4. A breakdown of the number of Federal employees and number of 
        contractors per project:
    In fiscal year 2008, FEMA spent approximately $6,800,000 on the 
Comprehensive Assessment System (CAS) and State Preparedness Report 
(SPR) through the following contracts. These efforts were overseen by 
approximately 2 Federal FTEs. Approximately $2,000,000 through Contract 
#N65236-03-D-7849 was applied to the initial organization of the CAS 
Working Group, data collection and support with 10 contractor FTEs, and 
then an award of approximately $4,000,000 to Contract #GS23F8096H at 
the end of the year for analysis of SPR and CAS data. Analysis of 
catastrophic resources was included in this contract. Approximately 
$800,000 from Contract #GS-10F-0184J supported the SPR analysis and the 
Federal Preparedness Report with approximately 5 contractor FTEs.
    In fiscal year 2009, FEMA spent approximately $7,000,000 on the SPR 
and the CAS through the following contracts. Contracts #HSHQDC-07-X-
00245 and #HGS10F0374U for $3,100,000 provided support for development 
of the SPR Survey Tool with .5 Federal FTE and 21 contractor FTEs. The 
CAS was supported by Contract N65236-03-D-7849 for $1,650,000 overseen 
by 1 Federal FTE and approximately 7 contractor FTEs, and then 
supported by Contract #GS23F8096H for $2,500,000 awarded at the end of 
the fiscal year.
    Question 5. FEMA has stated its goal in revising the target 
capabilities list is to develop capabilities for three tiers of 
locations, based largely on population. How does FEMA plan to identify 
the critical capabilities--and tasks--for each of these tiers? How does 
it expect to validate them? What is the timeline for completing this 
review of the 37 target capabilities?
    Answer. FEMA works closely with the lead departments, agencies, and 
offices with lead subject matter expertise in the development of each 
target capability. FEMA also leverages existing stakeholder working 
groups (e.g., NIMS Resource Typing Groups, National Advisory Council, 
the Interagency Board) to obtain subject matter experts to assist in 
their development. For each capability, a working group will be formed 
comprised of Federal, State, and local government representatives to 
define the risk factors, critical target outcomes, and resource 
elements for each capability. Workshops are hosted by the FEMA Regions 
inviting practitioners from their respective States and localities.
    To the greatest extent possible, existing policy, doctrine, and 
standards are used to form the basis for the TCL guidance. For example, 
the National Emergency Communications Plan provides goals for the 
``Communications'' capability, the Baseline Capabilities for State and 
Major Urban Area Fusion Centers provides goals for the ``Intelligence'' 
capability, and the measures being developed by the Logistics 
Management Directorate for the new Logistics Capability Assessment Tool 
(LCAT) provide the goals for the ``Critical Resource Logistics'' 
capability.
    FEMA will soon create a Task Force comprised of State, Tribal, 
local, and Federal stakeholders to examine all aspect of preparedness 
grants, including benchmarking efforts such as the Target Capabilities 
List. We will be in a better position to plan our way forward according 
to timelines when we have received critical input from this Task Force.
    Question 6. To what extent, and how, is the gap analysis for 
hurricane preparedness useful for developing preparedness measures for 
the broader National preparedness system?
    Answer. Data collection is a critical component of effective 
planning which is the essential element of preparedness. The data 
collected thru GAP or any other effort is designed to identify 
potential shortfalls and vulnerabilities within local, State, and 
Federal capabilities as compared against requirements for key 
categories for specific disaster scenarios. By identifying these needs 
prior to the advent of a disaster, strategies for addressing the 
vulnerabilities can and should be developed.
    Question 7. What roles does the Emergency Management Accreditation 
Program play in assessing State disaster preparedness, including 
assessing the clarity of roles and responsibilities? What are its 
principal uses and limitations?
    Answer. The Emergency Management Accreditation Program (EMAP) 
provides guidance, technical assistance, and evaluating the efficacy of 
State and Urban Area emergency management programs. EMAP is operated by 
the National Emergency Management Association. EMAP supports the 
emergency management community through its use of the standards 
development process among emergency management practitioners to 
determine the Emergency Management Standard, as well as to use a peer 
review process to evaluate emergency management program effectiveness. 
The Emergency Management Standard assists State and local jurisdictions 
in reviewing their emergency management programs. The Emergency 
Management Standard provides standards in context of Program Management 
and Program Elements and specifies programs, policies, or procedures.
    Through the use of peer reviews, States or Urban Areas are able to 
understand what program elements need to be created or improved. The 
collaborative process also fosters and promotes the sharing of lessons 
learned and best practices among communities. The limitation of the 
EMAP standard is that it is focused primarily on the programmatic 
aspect of emergency management and does not generally specify the level 
of capability to be built or maintained. As such, the EMAP standard 
should be used to compliment the guidance found in other standards and 
the TCL. FEMA is working directly with EMAP and NEMA to ensure 
connectivity among our efforts.
    Question 8. In developing preparedness metrics, in what ways does 
FEMA plan to use capabilities-based planning versus scenario-based 
analyses? What, in your view, are the benefits and limitations of each 
approach?
    Answer. The Comprehensive Preparedness Guide (CPG)-101 ``Developing 
and Maintaining State, Territorial, Tribal, and Local Government 
Emergency Plans'' (March 2009) outlines the three common approaches to 
developing plans to include: Scenario-, Function-, and Capabilities-
based planning. CPG-101 further recognizes that most planners use a 
combination of these approaches. For example, a jurisdiction may 
develop an all-hazards emergency operations base plan that outlines 
activities and roles and responsibilities for the delivery of certain 
functions or capabilities, but use scenarios to test the planning 
assumptions and desired functions or capability levels.
    The current measures within the Target Capabilities List (TCL) are 
organized by capability--not scenario. However, since the targets or 
goals are intended to build capabilities to address large-scale, non-
routine events, scenarios, and historical events are often used to 
inform measure development. Thus, consistent with CPG-101, a hybrid 
approach is employed in measure development.
    The benefits of a capability-based process include not restricting 
the applicability of the measure to a limited set of scenarios. A 
capabilities-based approach ensures an all-hazards focus. However, the 
complementary use of scenarios and historical events are very useful to 
test and validate the appropriateness of the capability measures.
    Question 9. What are FEMA's priorities in the next 12 and next 24 
months for developing and implementing measures of preparedness?
    Answer. FEMA's priorities include working closely with its 
stakeholders and partners to develop and refine the measures, as well 
as to update and modify them to ensure that they are useful, 
measurable, and applicable across the Nation. FEMA's priorities also 
include updating its exercise evaluation, assessment, training 
development, and other efforts to closely align with the updated 
measures.
    Within the next 24 months, FEMA endeavors to build a more bottom-up 
approach to how a community uses and evaluates preparedness measures. 
FEMA is considering the feasibility of a local, State, Tribal, and 
Federal Preparedness Task Force that may play a role in reviewing the 
current manner in which FEMA develops and uses preparedness measures, 
as well as how such measures are applied to evaluate and improve 
capabilities.
    Question 10. What are the most critical challenges that FEMA and 
its partners face in developing preparedness measures? What is FEMA's 
plan for addressing these challenges and in what period of time?
    Answer. There are numerous challenges inherent in establishing 
measures for emergency management. First and foremost, any such 
measures must recognize that State and local governments--not the 
Federal Government--are primarily responsible for emergency management. 
Therefore, preparedness measures must be written in close collaboration 
with State and local government representatives in a manner that 
recognizes the different risks and needs that exist across the Nation. 
To address this challenge, FEMA will leverage the use of subject matter 
experts from State and local governments to assist in the development 
of measures from the very start.
    Another challenge to preparedness measure development is the fact 
that the departments and agencies with lead subject matter expertise 
and responsibility for the capability are often external to FEMA. For 
this reason, a great deal of coordination is necessary among Federal 
partners.
    FEMA is considering the feasibility of a Task Force to be comprised 
of local, State, Tribal, and Federal officials to examine preparedness 
efforts and measures that may be applied. Consultation with these 
stakeholders will allow FEMA to develop aggressive, yet realistic 
timelines for the implementation of effective preparedness measures.
    Question 11. We understand that FEMA this summer approved dozens of 
fiscal year 2009 homeland security grant projects that are intended to 
keep vital first responder equipment operational. Does FEMA intend to 
notify grantees/subgrantees that they may no longer use funding for 
these previously-approved projects given the 22 September 2009 policy 
announcement on maintenance projects?
    Answer. The September 22, 2009 email to States and locals was 
notification clarifying the existing policy regarding maintenance/
sustainment to include maintenance, upgrades, repairs-replacement 
parts, and user fees. The use of funding for maintenance and 
sustainment has never been allowable other than during the period of 
performance of the grant under which the equipment was purchased. Once 
a grant's period of performance ends, the grantee is responsible for 
maintaining equipment purchased with grant funds. Because we believed 
that grantees may not have been clear on the policy, the September 22 
email was sent to all grantees. Based on a number of issues, FEMA 
reviewed the existing policy and revised the policy to allow grantees 
to use funds for maintenance and sustainment in active and future grant 
awards as of November 20, 2009.
    Question 12. The consequence of FEMA's new policy is that grantees 
will be forced to discard perfectly usable equipment if they cannot 
afford to maintain it. Does it not then follow that grantees will have 
to use future homeland security grants to buy brand new equipment at a 
cost far greater than simply maintaining the equipment they currently 
have?
    Answer. Under FEMA's previous policy, the grantee is responsible 
for maintaining equipment once the period of performance of the grant 
under which the equipment was purchased expires. However, working with 
DHS and the administration, FEMA conducted a careful review of this 
policy, and revised the existing policy on Friday, November 20. FEMA 
issued an Information Bulletin (#336) noting that effective 
immediately, the use of FEMA preparedness grant funds for maintenance 
contracts, warranties, repair or replacement costs, upgrades, and user 
fees are allowable under all active and future grant awards, unless 
otherwise noted. However, the bulletin notes that routine upkeep is the 
responsibility of the grantee and may not be funded with preparedness 
grant funding, and that maintenance contracts and warranties are only 
an allowable expenditure for equipment purchased with FEMA preparedness 
grants.
      Questions From Chairman Henry Cuellar for Kathy B. Crandall
    Question 1. How do Franklin County and the Columbus Urban Area 
Working Group (UAWG) measure its preparedness capabilities? What was 
the process for developing these performance measures?
    Answer. The Columbus Urban Area Working Group (UAWG) developed our 
strategy based on the Target Capabilities pertinent to our identified 
threat, risk, and need. Each capability has a respective impact area 
defined by need not geography. The UAWG performs an annual assessment 
and evaluation of the progress on meeting the goals of the strategy and 
modifies accordingly. The implementations step(s) to meet the objective 
for each goal is the performance measure. The metrics for each measure 
are in accordance with the Universal Tasks required under the 
respective Target capability.
    Question 2. Does Franklin County and the Columbus UAWG prepared for 
disasters using capabilities based planning, scenario-based planning, 
or both? What, in your view, are the benefits and limitations of each 
approach at the Federal level?
    Answer. The Columbus Urban Area utilizes capability and scenario-
based planning. Local scenario-based planning is utilized specific to 
our Urban Area to identify the capabilities we need to build, enhance, 
and sustain. National scenarios are not used for planning purposes 
because they are too broad-based and fail to incorporate local threat, 
risk, and need.
    Capability-Based.--The benefit at the Federal level is a clear and 
refined picture of prevention, protection, response, and recovery 
capability and cost of capability at the local level. The limitation at 
the Federal level is clearly the unique individualized assessment and 
evaluation of each urban area is much more timely and costly to 
identify, track, and compare preparedness efforts across the Nation.
    Scenario-Based.--The benefit at the Federal level of using the 
National scenarios is that it reduces individualization and acts as a 
National equalizer to reduce the effort of measuring preparedness. The 
limitation at the Federal level is the lack of specificity to risk and 
threat in respective local/State jurisdictions presents a false state 
of preparedness.
    Question 3. To what extent has your agency been involved in FEMA's 
Target Capabilities Implementation Project? Please describe, in your 
view, the strengths and weaknesses with this project.
    Answer. I am not aware of a specific ``Target Capabilities 
Implementation'' project. The National Framework identifies the Target 
Capabilities and we have been advised that those are under revision and 
update. GPD has completed the ``Program Accomplishments Report'' that 
assessed grant funds utilized to support Target Capabilities. These are 
the only two initiatives I am aware of in progress or undertaken 
recently and we did not participate in either project.
    Question 4. Approximately how much of your fiscal year 2009 
Homeland Security Grant Program award were you intending to use to 
maintain previously purchased homeland security equipment? Had FEMA 
approved these investments prior to its September 22, 2009 policy 
announcement?
    Answer. Approximately $735,000 of the award was dedicated to 
maintenance and sustainment of previous investments. FEMA has reviewed 
the proposed fiscal year 2009 investments through the Peer Review 
process and did not deny in whole or in part any investment.
    Question 5. FEMA has suggested that its maintenance policy was 
always in place but loosely enforced. Had FEMA ever previously 
prohibited your agency from maintaining homeland security equipment 
with subsequent preparedness grants?
    Answer. The Columbus urban area has experienced differing decisions 
from FEMA based on the GPD/NPD personnel answering the question or 
reviewing the proposed project. Situation specifics have dictated a 
FEMA response to prohibit use of funds more often than allowed.
        Questions From Chairman Henry Cuellar for David Maxwell
    Question 1. Has Arkansas developed its own means of measuring 
current and future capability levels? If so, please describe the 
process for developing these measures. Are there lessons learned from 
your experience that would be beneficial for FEMA as they develop 
preparedness metrics?
    Answer. Arkansas is in the initial phase of developing a 
capabilities assessment tool. This tool will focus on the equipment 
purchased with Homeland Security Grant Program. This tool will rely 
heavily on the Target Capabilities List that has been developed. Each 
piece of equipment has been identified as serving a specific TC. We 
will be working with a contractor to develop the methodology to achieve 
this analysis.
    Question 2. Does Arkansas prepare for disasters using capabilities-
based planning, scenario-based planning, or both? What, in your view, 
are the benefits and limitations of each approach at the Federal level?
    Answer. Arkansas uses an all-hazards functional approach to 
planning with the format of our plan falling in line with the National 
Response Framework. Arkansas uses the principles in FEMA's 
Comprehensive Planning Guidance documents in all planning efforts. I 
feel strongly that at least at the State and local levels the all-
hazards functional approach gives the best results.
    A limitation of capabilities-based planning is being unprepared for 
events beyond your current capability. A limitation of scenario-based 
planning is real events will rarely, if ever, match the chosen 
scenario(s). These types of plans will often stovepipe the planning 
effort.
    Whatever planning approach is utilized it is the planning process 
of getting all of the parties involved that is most important. We can 
develop great-looking/-sounding plans on paper but if the users of the 
plan have not been involved in the development the plan will most 
likely fail.
    Question 3. What have been the strengths and weaknesses of the 
State Preparedness Report? What recommendations, if any, would you make 
to FEMA on improving the SPR?
    Answer.

Strengths of the SPR include:
    The report provides a single-source reporting mechanism for 
information to FEMA. The one-stop-shop approach prevents multiple 
reporting requirements from different parts of FEMA for basically the 
same information.
    The report gives an overall view of the program instead of 
fragmented or stove-piped pieces of information.

Weaknesses of the SPR:
    The report has had at least 3 formats which makes consistency 
difficult at best.
    The newest format which has not been finalized and implemented as 
of today (11/13/2009) streamlines the entries to numerical scores but 
does not define the numerical values so it is very subjective.
    The first iteration of the SPR was narrative and difficult to 
extract meaningful information. The second iteration was a spreadsheet 
and although simplified it was very difficult to compile each unique 
State's capabilities and situations into a comprehensive National 
report. The fine line between being able to aggregate the State reports 
to develop a National report and leaving out each State's unique 
capabilities is difficult to balance.

Recommendations:
    Clearly define the numerical scores in the latest tool so States 
are compiling information in a consistent manner that can then be 
rolled up into a comprehensive National preparedness report.

    Question 4. To what extent has your agency been involved in FEMA's 
Target Capabilities Implementation Project? Please describe, in your 
view, the strengths and weaknesses with this project, as applicable.
    Answer. ADEM Planning Branch Manager is a representative on the 
Planning Target Capability Working Group. The working group is in place 
to provide input from the user community that FEMA seeks as the Target 
Capabilities are updated.
    One of the main strengths of this project is providing standards 
for overall preparedness at various levels of government by breaking 
capabilities down into classes and specifying target capabilities for 
jurisdictions of different sizes.
    The Implementation Project's weakest point may be in attempting to 
set measurable Target Outcomes. Not every capability is quantifiable. 
Target Capabilities are not currently used in our planning effort at 
either the State or Local level in Arkansas. We do not feel the TCLs 
are beneficial to the planning process.
    The ADEM Exercise Section Chief participated in a Target 
Capabilities List (TCL) Version 3.0 Capabilities Framework Workshop. A 
draft copy of the Weapons of Mass Destruction/Hazardous Materials TC 
was distributed for comment. The framework consisted of three matrices: 
1. Performance classes; 2. Performance objectives; and 3. Resource 
elements.
    1. Performance classes.--The classes are too broad. The 
        recommendation was made to make the classes temporary so they 
        can be used as a guide to measure performance. In relation to 
        Arkansas under the current performances, some counties will 
        never meet the risk factors. Not all jurisdictions are affected 
        by certain natural disasters.
    2. Performance Objectives.--In order to evaluate using the matrix 
        outlining the performance objectives a user guide with more 
        clarity of the text, and definitions of terms would be 
        beneficial. Concern was expressed that limiting response to 
        within a certain time frame is not realistic for some rural 
        areas.
    3. Resource elements.--Designed to provide guidance for meeting 
        target outcomes and metrics through capability-based planning. 
        Tables were not user-friendly because they ignore the issue of 
        mutual aid and make the assumption that resources are available 
        when needed; they do not seem to link to training and ignore 
        the stair-step approach used to respond to emergencies. More 
        explanation of the resource elements and headings would be 
        beneficial. The current TCL does not link planning, training, 
        and exercise. The direction of the new TCL once completed will 
        benefit jurisdictions measuring their capabilities. Arkansas 
        has not conducted an exercise utilizing the new TCL.
    Question 5. Approximately how much of your fiscal year 2009 
Homeland Security Grant Program award were you intending to use to 
maintain previously purchased homeland security equipment? Had FEMA 
approved these investments prior to its September 22, 2009 policy 
announcement?
    Answer. Arkansas does not budget a specific amount dedicated to 
sustainment. Arkansas awards its SHSGP dollars to 77 jurisdictions on a 
population basis. Each jurisdiction develops of a budget of anticipated 
expenditures. Each jurisdiction can determine the appropriate budget 
amount for sustainment expenses. They do not have a pre-determined 
budget allowance for sustainment expenses.
    Question 6. FEMA has suggested that its maintenance policy was 
always in place but loosely enforced. Had FEMA ever previously 
prohibited your agency from maintaining homeland security equipment 
with subsequent preparedness grants?
    Answer. FEMA has not previously disallowed any sustainment 
purchases made by sub-grantees. Sustainment has been a part of the 
submitted Investment Justifications during previous applications.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
